<html>
<title> - NASA'S ASTRONAUT HEALTH CARE SYSTEM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      NASA'S ASTRONAUT HEALTH CARE
                         SYSTEM--RESULTS OF AN
                           INDEPENDENT REVIEW

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 6, 2007

                               __________

                           Serial No. 110-52

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______


                                     
                    U.S. GOVERNMENT PRINTING OFFICE
37-640                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
PAUL KANJORSKI, Pennsylvania         TOM FEENEY, Florida
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
MICHAEL M. HONDA, California         DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Space and Aeronautics

                  HON. MARK UDALL, Colorado, Chairman
DAVID WU, Oregon                     TOM FEENEY, Florida
NICK LAMPSON, Texas                  DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        FRANK D. LUCAS, Oklahoma
MIKE ROSS, Arizona                   JO BONNER, Alabama
BEN CHANDLER, Kentucky               MICHAEL MCCAUL, Texas
CHARLIE MELANCON, Louisiana              
BART GORDON, Tennessee               RALPH M. HALL, Texas
              RICHARD OBERMANN Subcommittee Staff Director
            PAM WHITNEY Democratic Professional Staff Member
            KEN MONROE Republican Professional Staff Member
            ED FEDDEMAN Republican Professional Staff Member
                    DEVIN BRYANT Research Assistant


                            C O N T E N T S

                           September 6, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    19
    Written Statement............................................    19

Statement by Representative Ralph M. Hall, Ranking Minority 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    20

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    14
    Written Statement............................................    15

Statement by Representative Tom Feeney, Ranking Minority Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    18

                                Panel 1:

Colonel Richard E. Bachmann, Jr., Chair, NASA Astronaut Health 
  Care System Review Committee; Commander and Dean of the U.S. 
  Air Force School of Aerospace Medicine
    Oral Statement...............................................    21
    Written Statement............................................    23
    Biography....................................................    26

Dr. Richard S. Williams, Chief Health and Medical Officer, 
  National Aeronautics and Space Administration
    Oral Statement...............................................    28
    Written Statement............................................    30

Dr. Ellen Ochoa, Director, Flight Crew Operations, NASA Johnson 
  Space Center
    Oral Statement...............................................    32
    Written Statement............................................    34

Mr. Bryan D. O'Connor, Chief, Safety and Mission Assurance, 
  National Aeronautics and Space Administration
    Oral Statement...............................................    38
    Written Statement............................................    39

Discussion
  Contrasting Views and Findings From the Astronaut Health Care 
    System Review Committee......................................    43
  Risks of Pre-flight Alcohol Consumption........................    45
  Differences and Methods of the Reviews.........................    46
  Scope of Investigation.........................................    49
  Anonymity of Survey............................................    49
  Alleged Instances of Alcohol Abuse.............................    50
  Policies to Insure Employee Openness...........................    51
  Extent of Alleged Alcohol Abuse................................    52
  Openness of Safety Reporting/Recommendations and Future 
    Programs.....................................................    53

                                Panel 2:

Dr. Michael D. Griffin, Administrator, National Aeronautics and 
  Space Administration
    Oral Statement...............................................    57
    Written Statement............................................    59

Discussion
  Implementation of Recommendations..............................    61
  NASA Safety Culture............................................    64
  Anonymity and Authenticity of Reported Incidents...............    67
  Charter of the NASA Astronaut Health Care System Review 
    Committee....................................................    68

              Appendix: Answers to Post-Hearing Questions

Colonel Richard E. Bachmann, Jr., Chair, NASA Astronaut Health 
  Care System Review Committee; Commander and Dean of the U.S. 
  Air Force School of Aerospace Medicine.........................    72

Dr. Richard S. Williams, Chief Health and Medical Officer, 
  National Aeronautics and Space Administration..................    80

Dr. Ellen Ochoa, Director, Flight Crew Operations, NASA Johnson 
  Space Center...................................................    85

Mr. Bryan D. O'Connor, Chief, Safety and Mission Assurance, 
  National Aeronautics and Space Administration..................    87

Dr. Michael D. Griffin, Administrator, National Aeronautics and 
  Space Administration...........................................    90


 NASA'S ASTRONAUT HEALTH CARE SYSTEM--RESULTS OF AN INDEPENDENT REVIEW

                              ----------                              


                      THURSDAY, SEPTEMBER 6, 2007

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Mark Udall 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                      NASA's Astronaut Health Care

                         System--Results of an

                           Independent Review

                      thursday, september 6, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, September 6, 2007 at 10:00 a.m., the House Committee 
on Science and Technology's Subcommittee on Space and Aeronautics will 
hold a hearing to examine the results of two reports on the National 
Aeronautics and Space Administration's (NASA) astronaut medical and 
behavioral health care system. The first, the report of the NASA 
Astronaut Health Care System Review Committee, provided an independent 
assessment of NASA's medical and behavioral health care system. The 
second, a Johnson Space Center internal review considered opportunities 
for lessons learned in light of the incident involving NASA astronaut 
Lisa Nowak. The hearing will explore the findings and recommendations 
of these reports and any actions NASA plans to take in response to 
them.

Witnesses

    Witnesses scheduled to testify at the hearing include the 
following:
Panel 1

Col. Richard E. Bachmann, Jr., Chair, NASA Astronaut Health Care System 
Review Committee; Commander and Dean of the U.S. Air Force School of 
Aerospace Medicine

Dr. Richard S. Williams, Chief Health and Medical Officer, NASA

Dr. Ellen Ochoa, Director, Flight Crew Operations, NASA Johnson Space 
Center

Mr. Bryan O'Connor, Chief, Safety and Mission Assurance, NASA

Panel 2

Dr. Michael Griffin, Administrator, NASA

Potential Issues

    The following are some of the potential issues that might be raised 
at the hearing:

        <bullet>  The external review of the astronaut health care 
        system identified a number of significant concerns--what was 
        the basis of the committee's findings and recommendations?

        <bullet>  The external review of the astronaut health care 
        system identified a number of ``problematic'' cultural and 
        structural issues. Is there any evidence that the NASA culture, 
        particularly as it relates to the astronaut program, 
        unwittingly encourages the downplaying of human factors 
        problems (substandard task performance, risky behaviors, other 
        behavioral issues) that if unaddressed may pose risks to flight 
        safety or have mission impacts?

        <bullet>  How pervasive are the problematic conditions 
        highlighted by the external review committee, and how should 
        NASA go about getting an answer to that question?

        <bullet>  Are NASA's decision appeal processes, anonymous 
        reporting systems, and other safety and mission assurance 
        efforts adequately capturing human factors risks, and if not, 
        what should be done?

        <bullet>  To what extent, if at all, should NASA get involved 
        in the off-duty lives of its astronauts in the interest of 
        ensuring that astronauts get the proper support and services 
        for dealing with behavioral issues or problems, especially 
        those that may not violate a medical or behavioral health 
        standard but which could potentially pose a flight safety risk 
        or have a mission impact if left unaddressed?

        <bullet>  How can NASA ensure that an open and objective 
        environment exists within the agency for addressing medical or 
        behavioral concerns?

        <bullet>  What explains the disconnect between the information 
        provided by interviewees to the external review committee and 
        the information provided to Mr. O'Connor during his 
        investigation?

        <bullet>  Is NASA's timeline for resolving questions and 
        implementing recommended improvements to NASA policies, 
        procedures, and practices appropriate, and what will Congress 
        need to do, if anything, to ensure that the recommendations are 
        actually implemented?

Background Information

    In the wake of the arrest of astronaut Lisa Nowak, the NASA 
Administrator ordered an independent external review of NASA's 
astronaut health care system, focused on space medicine operations at 
the Johnson Space Center (JSC). It did not focus on the specifics of 
the Lisa Nowak incident. In addition, an internal review was undertaken 
by JSC management to determine ``whether there were any indicators 
which could have prompted NASA to take actions that could have averted 
the sequence of events.'' As part of the JSC review, ``astronaut 
selection and retention procedures were reviewed to see if there were 
any lessons learned that could be incorporated into the improved 
practice of behavioral medicine.''

A. Report of the NASA Astronaut Health Care System Review Committee

    In carrying out the NASA Administrator's directive, Dr. Richard 
Williams, the NASA Chief Health and Medical Officer (CHMO), prepared 
the task statement for the external review committee; selected the 
Chairman of the committee; selected the members of the committee, based 
on nominations from various federal agencies of ``appropriately 
credentialed physicians and mental health professionals, employed by 
the Federal Government or on active duty in the military services, and 
experienced in medical and behavioral health support to organizations 
and personnel engaged in critical or hazardous operations;'' and 
appointed two NASA employees as ex-officio members of the committee, 
one astronaut as a consultant, and one NASA employee as executive 
secretary. The chairman of the committee was Col. Richard Bachmann, 
Commander of the USAF School of Aerospace Medicine and specialist in 
aerospace medicine. A list of the committee members is included as 
Attachment 1 to this hearing charter.
            Purpose of the Assessment
    As stated in the report of the external review committee, the 
purpose of the assessment was as follows:

    ``To provide rapid objective assessment, problem identification, 
and recommendations for action or further study of the following 
specific areas to the Chief Health and Medical Officer and NASA 
Administrator:

        1.  Medical evaluation for acceptance to the Astronaut Corps, 
        to include psychological testing

        2.  Annual medical examination and certification of astronauts 
        for flight duty

        3.  Periodic medical and psychological evaluation and testing 
        of astronauts

        4.  Astronaut certification for space flight, from a medical 
        and behavioral health perspective

        5.  Professional qualifications of health care providers

        6.  Quality/adequacy of medical practice relative to expected 
        standards of care and

        7.  Administrative considerations of health services, 
        including:

                a.  Provider credentials and privileging

                b.  Record-keeping

                c.  Communication and reporting

                d.  Disposition of aeromedical concerns; and

                e.  Privacy considerations

        8.  Behavioral health considerations within the context of the 
        NASA Personnel Reliability Program (PRP)

    These criteria were provided to the committee to help focus the 
review, but did not constrain or limit the review. During the first 
committee meeting, the CHMO asked the committee to provide opinions on 
the following additional questions:

         9.  To what extent are disorders of conduct indicative of 
        underlying mental health pathology?

        10.  To what extent can regular psychological testing or 
        psychiatric evaluation predict a disorder of conduct or `act of 
        passion'?

        11.  What systemic procedures could be put in place to predict 
        disordered conduct?''

            Approach and Schedule
    The review committee was selected and appointed in late February 
2007. The committee held three sets of meetings: in Washington, DC on 
March 28th, at JSC on April 23-26th, and in San Antonio on May 30-31st. 
During the JSC meeting, the committee members received briefings from 
and had meetings with NASA personnel. Following that, the committee 
members split up and held private interviews with astronauts, flight 
surgeons, and astronaut family members. Members interviewed eight of 21 
space medicine flight surgeons [who support flight crews], all of the 
clinic-assigned flight surgeons [who provide clinic services for 
astronauts and family members] and all of the behavioral health staff. 
The groups also reviewed the facilities, offices, and relevant 
documents for those functional areas.
    The NASA astronaut office informed the Astronaut Corps of the 
opportunity to speak with the committee on a voluntary basis. Fourteen 
currently active astronauts (all but one had flown in space) chose to 
speak to the members. Five astronaut family members also volunteered to 
speak to committee members. After the JSC visit, the committee had 
follow-up conversations/e-mail exchanges with a number of the 
interviewees. The interviews were intended to be anonymous and 
confidential, and Col. Bachmann cites that as the reason the 
committee's report does not ``name names'' or provide information that 
could identify specific individuals. There were no prepared sets of 
questions. Instead, the members conducted open-ended interviews to 
allow interviewees to offer whatever information they chose to share 
with the committee members.
    The committee held its third and final meeting on May 30-31, 2007 
at the USAF School of Aerospace Medicine to consider draft findings 
that had been developed by the members and to write the report. As 
stated in the report: ``The findings and recommendations expressed in 
this report represent the unanimous opinion of the committee.'' The 
option of doing minority reports was made available to the committee 
members but none saw the need to do so. The committee submitted its 
draft report on June 21, 2007 to the NASA Chief Health and Medical 
Officer ``to allow NASA functional areas an opportunity to provide 
comments and correct factual errors or misstatements.'' Col. Bachmann 
and the members of the committee briefed the senior NASA management 
(including the NASA Administrator via teleconference) on July 16, 2007. 
NASA Headquarters released the report to the public and held a press 
conference on July 27, 2007.
            Major Findings of the External Review
    The external review committee's report identified a number of 
significant issues related to NASA culture, communication, and 
behavioral concerns. In conversations with staff, Col. Bachmann 
emphasized that the issues and concerns cited in the report, which are 
reflected in the report's findings, were raised by the interviewees in 
the course of the confidential interviews. For example, the committee 
members did not ask the interviewees about alcohol use by astronauts--
the incidents cited in the report were volunteered by interviewees 
during the course of the interviews as specific examples of safety 
concerns. According to Col. Bachmann, various concerns referenced in 
the report were based on information provided by interviewees who were 
eyewitnesses, and did not represent second- or third-hand hearsay. 
Moreover, the types of concerns raised by interviewees were consistent 
across a large proportion of the interviewees. As noted in the 
committee's report: ``Although they do not represent a random or 
exhaustive sample of the larger population of astronauts and family 
members, the issues raised were remarkably consistent and compelling 
and deserve focused attention.''
    The following represent some of the most notable findings in the 
external review report [a complete set of findings and recommendations 
can be found in the external review committee's report, which has been 
provided to Subcommittee Members]:

        <bullet>  ``Many anecdotes were related that involved risky 
        behaviors by astronauts that were well known to the other 
        astronauts and no apparent action was taken. Peers and staff 
        fear ostracism if they identify their own or others' 
        problems.''

        <bullet>  ``As the review progressed, it became apparent that 
        major vulnerabilities, underlying root causes, and contributing 
        factors extend well beyond the specific medical aspects of NASA 
        operations. . .These issues are so ingrained and longstanding 
        that it will take senior leadership action to remediate them.''

        <bullet>  ``Problems of communication were evident among the 
        four areas addressed: flight medicine, behavioral health, 
        flight medicine clinic, and the Astronaut Office. This theme 
        recurred in a variety of venues during the committee's visit to 
        JSC, and also extended to communication between these areas at 
        JSC and Headquarters.''

        <bullet>  ``Several senior flight surgeons expressed their 
        belief that their medical opinions regarding astronaut fitness 
        for duty, flight safety and mission accomplishment were not 
        valued by leadership other than to validate that all (medical) 
        systems were ``go'' for on-time mission completion. Instances 
        were described where major crew medical or behavioral problems 
        were identified to astronaut leadership and the medical advice 
        was disregarded. This disregard was described as 
        ``demoralizing'' to the point where they said they are less 
        likely to report concerns of performance decrement. Crew 
        members raised concerns, regarding substandard astronaut task 
        performance which were similarly disregarded.''

        <bullet>  ``Interviews with both flight surgeons and astronauts 
        identified some episodes of heavy use of alcohol in the 
        immediate pre-flight period, which has led to flight safety 
        concerns. Alcohol is freely used in crew quarters. Two specific 
        instances were described where astronauts had been so 
        intoxicated prior to flight that flight surgeons and/or fellow 
        astronauts raised concerns to local on-scene leadership 
        regarding flight safety. However, the individuals were still 
        permitted to fly. The medical certification of astronauts for 
        flight duty is not structured to detect such episodes, nor is 
        any medical surveillance program by itself likely to detect 
        them or change the pattern of alcohol use.''

        <bullet>  ``Astronaut medical and behavioral health care is 
        highly fragmented. . .''

        <bullet>  ``Psychological testing evaluation is conducted, and 
        is intended to identify applicants who can adapt most readily 
        and perform effectively in the extreme environment of space 
        flight. However, this information is rarely and inconsistently 
        used.''

        <bullet>  ``There is no periodic psychological evaluation or 
        testing conducted on astronauts. Once selected as an astronaut 
        candidate, astronauts have no psychological evaluation for the 
        remainder of their careers unless selected for long duration 
        missions.''

Risky Behaviors--``Many anecdotes were related that involved risky 
behaviors by astronauts that were well known to the other astronauts 
and no apparent action was taken. Peers and staff fear ostracism if 
they identify their own or others' problems.'' JSC officials described 
to staff several mechanisms that are in place for peers or staff to 
bring forward concerns about astronaut behavior, performance, or 
concerns about flight safety. Those mechanisms include anonymous safety 
reporting systems, approaching flight surgeons, the chief of the 
astronaut office, the crew commander, or other management. In addition, 
astronauts have access to the behavioral health clinic, the Employee 
Assistance Program, and to flight surgeons. However, Col. Bachmann 
indicated to staff that the external review heard instances of concerns 
about personal behavior that could be embarrassing and substandard 
performance during training and on-orbit, that could potentially impact 
a mission but for which no actions were taken. He noted that human 
factors issues were a consistent theme of the interviews, but that his 
committee was not equipped to determine how widespread those issues 
were across NASA and that determining the extent of the problem should 
be an important task for agency management.

Barriers to Communication--``Problems of communication were evident 
among the four areas addressed: flight medicine, behavioral health, 
flight medicine clinic, and the Astronaut Office. This theme recurred 
in a variety of venues during the committee's visit to JSC, and also 
extended to communication between these areas at JSC and 
Headquarters.'' JSC officials told staff that JSC is preparing an 
anonymous survey to explore the relationship between astronauts and 
flight surgeons and managers; to identify whether astronauts or flight 
surgeons have concerns in raising flight safety or crew suitability 
issues or whether barriers exist to doing so; and whether there are 
suggestions for changes to policies and procedures. A group from JSC 
Human Resources, including individuals with experience in survey 
design, is developing the survey and will analyze the results. The 
Flight Crew Operations Directorate and the Space Life Sciences 
Directorate, among others, are providing input on the questions to be 
included in the anonymous survey. (Staff has assembled a non-
comprehensive list of the key NASA and JSC offices, and associated 
office responsibilities, involved in Astronaut Health Care and Safety 
that is provided as Attachment 2.) The Flight Crew Operations 
Directorate told staff that it will hold a Town Hall meeting with 
astronauts to discuss the results of the survey. JSC plans to issue the 
survey in mid-September. The results will be summarized in a report 
that will be delivered to the JSC Director. While supporting the idea 
of an anonymous survey, Col. Bachmann told staff that he thinks that it 
is very important that the questions be structured to avoid being 
overly narrow in focus; rather, the questions need to be open-ended to 
encourage anonymous comment, and the questions should be comprehensive 
enough to cover all of the issues raised in the report. In that regard, 
NASA might benefit from having its proposed survey reviewed by external 
survey experts.

Disregard of Flight Surgeon and Crew Opinions--Several senior flight 
surgeons expressed their belief that their medical opinions regarding 
astronaut fitness for duty, flight safety and mission accomplishment 
were not valued by leadership other than to validate that all (medical) 
systems were ``go'' for on-time mission completion. Instances were 
described where major crew medical or behavioral problems were 
identified to astronaut leadership and the medical advice was 
disregarded. This disregard was described as ``demoralizing'' to the 
point where they said they are less likely to report concerns of 
performance decrement. Crew members raised concerns regarding 
substandard astronaut task performance which were similarly 
disregarded. JSC medical officials indicated that professional 
disagreements among flight surgeons and between flight surgeons and 
program officials could occur and were not suppressed. They described 
to staff several appeals mechanisms that flight surgeons can take 
should they choose to seek further consideration of a final medical 
decision that differs from the one they put forth. One official noted 
that he was unaware of cases where flight surgeons felt disregarded and 
was not aware of any cases in which a flight surgeon had made a medical 
decision that had been overruled by Shuttle or ISS program management. 
Col. Bachmann indicated that the interviewees themselves were the ones 
using the word ``disregarded,'' and that it was a theme that recurred 
in the interviews. Mention of ``flight safety'' and ``mission impact 
concerns came directly from the interviewees. He also noted that the 
committee heard from individuals who chose not to take concerns to the 
next level of management due to the ``demoralizing'' effects of being 
disregarded.

Use of Alcohol in Pre-flight Period--``Interviews with both flight 
surgeons and astronauts identified some episodes of heavy use of 
alcohol by astronauts in the immediate pre-flight period, which has led 
to flight safety concerns. Alcohol is freely used in crew quarters. Two 
specific instances were described where astronauts had been so 
intoxicated prior to flight that flight surgeons and/or fellow 
astronauts raised concerns to local on-scene leadership regarding 
flight safety. However, the individuals were still permitted to fly. 
The medical certification of astronauts for flight duty is not 
structured to detect such episodes, nor is any medical surveillance 
program by itself likely to detect them or change the pattern of 
alcohol use.'' As noted above, Col. Bachmann stressed that in its 
anonymous interviews the committee members did not use a prepared set 
of questions and did not ask about alcohol use. Instead the instances 
of alcohol use were offered up by the interviewees as examples of 
safety concerns they had witnessed. He later elaborated in the NASA 
press conference that one instance cited involved a T-38 aircraft and 
the other involved an ISS/Soyuz launch opportunity. Further, during the 
NASA press conference that accompanied the public release of the 
external review report, Col. Bachmann stated that ``the two specific 
incidents of alcohol use that we put into the report were specifically 
chosen to illustrate a larger problem, to call attention to the larger 
issue which is the role of the flight surgeon in protecting both the 
individual's health, flight safety, and mission completion, and the 
fact that the flight surgeons and other astronauts who described their 
role in these incidences and other which we did not obtain further 
details on were to say that they felt concerned that their professional 
input seemed to be disregarded, at least at the local level, and that 
they were demoralized by that disregard to the point that they felt 
like they would be less likely to report concerns or performance 
decrement in the future.'' Col. Bachmann indicated to staff that based 
on the information provided to the committee in the interviews, he 
considered the reports of alcohol use to be more credible than NASA's 
characterization of them as simply ``allegations.'' NASA Safety and 
Mission Assurance chief Bryan O'Connor conducted an investigation of 
the reported instances of alcohol use and concluded that ``within the 
scope and limitations of this review, I was unable to verify any case 
where a space flight crew member was impaired on launch day, or where 
there was a disregard by managers of a flight surgeon or co-crew member 
recommendation that a crew member not fly Shuttle or Soyuz.''

B. NASA Response to Recommendations of External Review
    According to a NASA ``Fact Sheet on the Findings of the Astronaut 
Health Care System Review Committee,'' that accompanied public release 
of the review committee report on July 27, 2007, NASA reported the 
following steps to respond to the committee's recommendations:

        <bullet>  ``Look for ways to enhance use of behavioral health 
        data in the astronaut selection process

        <bullet>  Take steps to ensure that flight surgeons, trainers, 
        and astronauts are free to communicate concerns of flight 
        safety to senior leadership and encourage such communication

        <bullet>  Adopt a formal code of conduct for the Astronaut 
        Corps

        <bullet>  Provide regular training to flight surgeons regarding 
        behavioral health assessments

        <bullet>  Promote better communication from flight surgeons to 
        all astronauts on their personal status with regard to medical 
        qualification for space flight assignments

        <bullet>  Work to enhance a program of external peer review of 
        NASA's medical and behavioral health staff

        <bullet>  Establish one credentialing and privileging authority 
        for both the flight medicine and behavioral health providers, 
        with documented processes for accountability

        <bullet>  Institute behavioral health assessments in 
        conjunction with annual astronaut flight physicals''

    During the press conference held on July 27, 2007, Ms. Shana Dale, 
NASA Deputy Administrator, stated that:

         ``NASA's existing T-38 Aircraft Alcohol Use policy that has 
        historically been applied to space flight has been explicitly 
        extended as an interim policy to flight on any space craft. 
        This interim policy prohibits alcohol use for 12 hours prior to 
        flight and further states that astronauts will neither be under 
        the influence nor the effects of alcohol at the time of launch. 
        A comprehensive review of alcohol use policy prior to aircraft 
        use or space flight is already underway.''

    In addition, on July 26, 2007, the Deputy Administrator of NASA, 
requested an internal review of ``reported allegations of heavy use of 
alcohol by astronauts in the immediate pre-(space) flight period.'' 
These incidences were identified in the report of the Astronaut Health 
Care System Review Committee. A summary of the selected issues, 
findings, and recommendations of the Space Flight Safety Review is 
provided below. NASA has indicated to staff that additional responses 
to the report and a recommendations implementation plan will be 
forthcoming later in the year.

Space Flight Safety Review
    The safety review was conducted by the Chief of the Safety and 
Mission Assurance, Mr. Bryan O'Connor. According to the final report, 
which was released to the public on August 29, 2007, the scope of the 
review ``focuses on the space flight safety implications of alcohol use 
or abuse. . .those things that could cause impairment during launch day 
flight preparation.'' The after effects of alcohol use, such as 
hangover, were included in the scope of the review. ``The relevant 
question. . .was, `Did we have a situation where a crew member 
presented on launch morning in an impaired state, was observed as such 
by flight surgeon or another crew member, and was then cleared to fly 
by operational management over the objections of the flight surgeon (or 
other crew member)?' Aircraft flying operations in general were out of 
scope.''
    According to the written report, the safety review involved 
inspection of crew quarters facilities at JSC and the Kennedy Space 
Center and a review of policies and procedures before launch. Records 
of JSC and Space Shuttle program hotlines, the NASA Safety Reporting 
System (NSRS), and NASA's close call and mishap reporting systems for 
``astronaut alcohol abuse and space or aircraft flight'' were also 
examined. The review examined this data over the past 20 years. In 
addition, the review encompassed voluntary interviews, held on a non-
confidential basis, with astronauts, flight surgeons, research and 
operations support nurses, Shuttle-suit technicians, close-out-crew 
technicians, and the mangers and staff of flight crew quarters.

Selected Findings and Recommendations

        <bullet>  Finding: ``Alcohol is available for crew use, and 
        although it is possible to abuse it during limited private 
        times, the culture of professionalism in today's Astronaut 
        Corps, along with the highly visible, structured and supervised 
        schedule during the last several days prior to launch provide 
        reasonable controls to avoid flying an alcohol-impaired crew 
        member.''

        <bullet>  Finding: ``In light of all the other controls in 
        place on launch day, the L-0 flight surgeon check provides a 
        reasonable likelihood of identifying signs of illness or 
        impairment of the level that would threaten flight safety, but 
        it could be supplemented by closer first hand observation prior 
        to crew departure for the pad.''

                  Recommendation: ``A flight surgeon should be located 
                in the suit room during suit up to allow more direct 
                contact with the crew members on launch day and reduce 
                the reliance on a suit tech (non-clinician) picking up 
                any last minute medical issue.''

    The report includes reference to the T-38 policy on alcohol use per 
Aircraft Operations and Training Procedures: T-38 Operating Procedures, 
Volume 1. JSC Aircraft Operations Division, 2005:

         ``5.4.3 Alcohol A crew member is not qualified for flight 
        (takeoff) within 12 hours of consuming alcoholic beverages. 
        NASA air crews are expected to conduct themselves in a common 
        sense manner. Excessive drinking even prior to 12 hours, enough 
        to cause a hangover, is outside the spirit of the regulations. 
        The policy is that air crews will neither be under the 
        influence nor the effects of alcohol at the time of takeoff.''

    As noted above, the NASA Deputy Administrator has stated that this 
policy has been expanded to include space flight. According to NASA 
medical personnel, the medical basis for applying the 12-hour rule to 
space flight operations has not yet been determined.

C. Johnson Space Center (JSC) Internal Review Findings
    As noted earlier in this hearing charter, ``In response to the 
actions of astronaut Lisa Nowak. . .NASA JSC conducted an internal 
review of records and of the workplace. There were two purposes for the 
internal review. First, NASA JSC looked to determine whether there were 
any indicators which could have prompted NASA to take actions that 
could have averted the sequence of events. In addition, astronaut 
selection and retention procedures were reviewed to see if there were 
any lessons learned that could be incorporated into the improved 
practice of behavioral medicine.''
    The assessment considered 1) existing psychological screening for 
admittance into the Astronaut Corps and the nature of any ongoing 
psychological evaluations during an astronaut's career, 2) any 
indicators, including interactions with Lisa Nowak and other astronauts 
or NASA employees that may have raised concerns, and 3) recommended 
changes to practices or procedures and lessons learned for the future.
    The review included the following recommendations:

        <bullet>  ``Conduct a 30-minute Behavioral Medicine assessment 
        in conjunction with annual medical flight physicals.

        <bullet>  Perform Behavioral Medicine flight assessments for 
        Shuttle crew members.

        <bullet>  Enhance aeronautical adaptability ratings (an 
        assessment of fitness for flying duties) in astronaut medical 
        selections.''

D. Activities of Other Oversight and Advisory Bodies
    The Aerospace Safety Advisory Panel (ASAP) has not issued a 
position on either the internal or external report.
    According a letter dated August 24, 2007 sent from the NASA 
Inspector General to the NASA Administrator, ``In September 2007, we 
plan to initiate a review of NASA's actions taken in response to 
reports of astronauts' pre-flight use of alcohol. . . Our review will 
evaluate the report of the Astronaut Health Care System Review 
Committee and the SMA [Safety and Mission Assurance] review, including 
their respective objectives and methodologies and determine whether 
additional work by our office is warranted.''

ATTACHMENT 1

                   External Review Committee Members

Chair--Richard E. Bachmann, Jr., Colonel, USAF, MC, CFS, Commander, 
        USAF School of Aerospace Medicine, specialist in aerospace 
        medicine

Timothy W. Sowin, Colonel, USAF, MC, SFS, Chief, Aviation 
        Neuropsychiatry Branch, USAF School of Aerospace Medicine, 
        specialist in psychiatry and aerospace medicine

James P. Bagian, Colonel, USAFR. MC, SFS, Chief Patient Safety Officer, 
        Department of Veterans Affairs, specialist in aerospace 
        medicine and former NASA astronaut-physician

Mark S. Bauer, Professor of Psychiatry, Brown University & Providence 
        Veterans Affairs Medical Center

James R. Fraser, Captain, MC, USN (ret), Deputy Federal Air Surgeon, 
        specialist in aerospace medicine

Sandra A. Yerkes, Captain, MC, USN (ret), Director, NAVMED Medical 
        Accessions, psychiatrist

Elizabeth K. Holmes, Captain, MSC, USN (ret), Stockdale Center for 
        Ethical Leadership, clinical psychologist

Paul M. DeLaney, Captain, JAGC, USN, Chief of Staff, Office of the 
        Judge Advocate General, Dept. of the Navy, medico-legal advisor

Ex officio members:

James M. Duncan, NASA Chief of Space Medicine Operations at JSC

Wayne R. Frazier, NASA Office of Safety and Mission Assurance

Consultant:

Ellen S. Baker, current NASA astronaut physician

Executive Secretary:

John R. Allen, NASA Program Executive, Crew Health and Safety

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Udall. I want to first welcome all of our 
witnesses to today's hearing. We appreciate your service to the 
Nation and your assistance to this subcommittee as we carry out 
our oversight responsibilities.
    In particular, I would like to thank Colonel Bachmann and 
his review committee for their efforts to provide NASA and the 
Congress with an independent assessment of NASA's astronaut 
health care system.
    I would also like to thank Administrator Griffin for his 
willingness to ask for such a review. I think it was a good 
decision that reflects well on the agency.
    It is clear to me, and I think all Americans, that NASA's 
astronauts represent the Nation's best and brightest. We all 
respect their skill and bravery. In carrying out their 
challenging missions they often make it look so easy that we 
sometimes forget that they are human beings who face the same 
medical and behavioral issues that the rest of us have to deal 
with, along with the added rigors of high-stress jobs, long 
hours of training, extended absences from families and friends, 
and high-risk space flights.
    It is thus critically important that NASA ensure that the 
astronauts be provided with the best possible medical and 
behavioral care throughout their careers.
    In addition, NASA astronauts, flight surgeons, and support 
personnel need to be confident that the lines of communication 
with the agency are open and responsive so that concerns can be 
quickly identified and addressed in a manner that maintains the 
level of trust so vital to safety and optimal performance. I 
don't think anyone inside NASA would disagree with those goals.
    That is why after reviewing Colonel Bachmann's committee's 
report I decided that this subcommittee needed to hold a 
hearing to examine the report's findings and recommendations. 
However, my decision was not made for the reasons that you 
might think.
    While there has been a great deal of attention given to the 
finding related to alcohol use, and I have little doubt that 
there will be discussion of that finding at today's hearing, 
too, I think we do a real disservice to the independent review 
committee if we ignore the warning flags they are raising about 
the state of communications within the agency on both medical 
and behavioral matters affecting the astronauts.
    Let me read just a few of the findings from the report that 
I think should concern us all. ``Many anecdotes,'' and I am now 
quoting from the report, ``were related that involved risky 
behaviors by astronauts that were well known to the other 
astronauts and no apparent action was taken. Peers and staff 
fear ostracism if they identify their own or others' 
problems.''
    To continue quoting from the report, ``Several senior 
flight surgeons expressed their belief that their medical 
opinions regarding astronaut fitness for duty, flight safety, 
and mission accomplishment were not valued by leadership other 
than to validate that all medical systems were go for an on-
time mission completion. Instances were described where major 
crew medical or behavior problems were identified to astronaut 
leadership, and the medical advice was disregarded. This 
disregard was described as demoralizing to the point where they 
said they are less likely to report concerns of performance 
decrement. Crew members raised concerns regarding substandard 
astronaut task performance which were similarly disregarded.''
    ``As the review progressed,'' again, I am quoting from the 
report, ``it became apparent that major vulnerabilities, 
underlying root causes, and contributing factors extend well 
beyond the specific medical aspects of NASA operations. These 
issues are so ingrained and longstanding that it will take 
senior leadership action to remediate them.
    ``There is no periodic psychological evaluation or testing 
conducted on astronauts. Once selected as an astronaut 
candidate, astronauts have no psychological evaluation for the 
remainder of their careers unless selected for long duration 
missions. Astronaut medical and behavioral health care is 
highly fragmented.'' That ends the quoting directly from the 
report itself.
    And I don't think anyone can listen to those findings and 
think all is well within NASA's astronaut health care system. 
This subcommittee needs to hear from Colonel Bachmann the basis 
for his review panel's findings.
    Equally important, this subcommittee needs to hear from 
NASA management their plans for addressing the concerns raised 
by the independent review, not just the alcohol-related ones.
    Whatever the merits of focusing the agency's attention on 
trying to get employees to publicly verify or refute reports of 
alcohol use that those employees had provided in confidence to 
the independent review committee, I think it runs the risk of 
unintentionally worsening a communications environment at NASA 
in which, to quote the independent review committee, ``Peers 
and staff fear ostracism if they identify their own or others' 
problems.''
    Instead, it may be more appropriate to the disconnect, what 
is being said in private and what is being said in public by 
NASA personnel and another indicator that the broader issues 
raised by the independent review committee warrant close and 
sustained attention. And I certainly hope that that will be the 
approach taken in the days and weeks ahead.
    Well, we have a great deal to examine today. I again want 
to welcome our witnesses, and I look forward to your testimony.
    [The prepared statement of Chairman Udall follows:]
               Prepared Statement of Chairman Mark Udall
    Good morning. I first want to welcome all of our witnesses to 
today's hearing.
    We appreciate your service to the Nation and your assistance to 
this subcommittee as we carry out our oversight responsibilities.
    In particular, I would like to thank Col. Bachmann and his review 
committee for their efforts to provide NASA and the Congress with an 
independent assessment of NASA's astronaut health care system.
    I'd also like to thank Administrator Griffin for his willingness to 
ask for such a review--I think it was a good decision that reflects 
well on the agency.
    It is clear to me that NASA's astronauts represent the Nation's 
best and brightest. We all respect their skill and bravery.
    In carrying out their challenging missions, they often make it look 
so easy that we can sometimes forget that they are human beings who 
face the same medical and behavioral issues that the rest of us have to 
deal with, along with the added rigors of high-stress jobs, long hours 
of training, extended absences from families and friends, and high-risk 
space flights.
    It thus is critically important that NASA ensure that the 
astronauts be provided the best possible medical and behavioral care 
throughout their careers.
    In addition, NASA astronauts, flight surgeons, and support 
personnel need to be confident that the lines of communication within 
the agency are open and responsive so that concerns can be quickly 
identified and addressed in a manner that maintains the level of trust 
so vital to safety and optimal performance.
    I don't think anyone inside NASA would disagree with those goals.
    That is why after reviewing Col. Bachmann's committee's report, I 
decided that this subcommittee needed to hold a hearing to examine the 
report's findings and recommendations. However, my decision was not 
made for the reason you might think.
    While there has been a great deal of attention given to the finding 
related to alcohol use--and I have little doubt that there will be 
discussion of that finding at today's hearing too--I think we do a real 
disservice to the independent review committee if we ignore the warning 
flags they are raising about the state of communications within the 
agency on both medical and behavioral matters affecting the astronauts.
    Let me read just a few of the findings from the report that I think 
should concern us all:

        <bullet>  ``Many anecdotes were related that involved risky 
        behaviors by astronauts that were well known to the other 
        astronauts and no apparent action was taken. Peers and staff 
        fear ostracism if they identify their own or others' 
        problems.''

        <bullet>  ``Several senior flight surgeons expressed their 
        belief that their medical opinions regarding astronaut fitness 
        for duty, flight safety and mission accomplishment were not 
        valued by leadership other than to validate that all (medical) 
        systems were ``go'' for on-time mission completion. Instances 
        were described where major crew medical or behavioral problems 
        were identified to astronaut leadership and the medical advice 
        was disregarded. This disregard was described as 
        ``demoralizing'' to the point where they said they are less 
        likely to report concerns of performance decrement. Crew 
        members raised concerns regarding substandard astronaut task 
        performance which were similarly disregarded.''

        <bullet>  ``As the review progressed, it became apparent that 
        major vulnerabilities, underlying root causes, and contributing 
        factors extend well beyond the specific medical aspects of NASA 
        operations. . .These issues are so ingrained and longstanding 
        that it will take senior leadership action to remediate them.''

        <bullet>  ``There is no periodic psychological evaluation or 
        testing conducted on astronauts. Once selected as an astronaut 
        candidate, astronauts have no psychological evaluation for the 
        remainder of their careers unless selected for long duration 
        missions.''

        <bullet>  ``Astronaut medical and behavioral health care is 
        highly fragmented. . .''

    I don't think anyone can listen to those findings and think all is 
well with NASA's astronaut health care system.
    This subcommittee needs to hear from Col. Bachmann the basis for 
his review panel's findings.
    Equally importantly, this subcommittee needs to hear from NASA 
management their plans for addressing the concerns raised by the 
independent review--not just the alcohol-related ones.
    Whatever the merits of focusing the agency's attention on trying to 
get employees to publicly verify or refute reports of alcohol use that 
those employees had provided in confidence to the independent review 
committee, I think it runs the risk of unintentionally worsening a 
communications environment at NASA in which, to quote the independent 
review committee: ``Peers and staff fear ostracism if they identify 
their own or other's problems.''
    Instead, it may be more appropriate to take the ``disconnect'' 
between what is being said in private and what is being said in public 
by NASA personnel as another indicator that the broader issues raised 
by the independent review committee warrant close and sustained 
attention.
    I hope that will be the approach taken in the days and weeks ahead.
    Well, we have a great deal to examine today. I again want to 
welcome our witnesses, and I look forward to your testimony.

    Chairman Udall. The Chair now is pleased to recognize the 
gentleman from Florida, the Ranking Member, Mr. Feeney, for an 
opening statement.
    Mr. Feeney. Well, thank you, Mr. Chairman, and thank you 
for having this important hearing. I want to tell you that it 
is important enough that the Ranking Member of the Full 
Committee, the esteemed Mr. Hall, is here. I offered to defer 
to let him give the first opening speech, but he thought our 
weakest link ought to go first.
    But we take the challenges that NASA has in the behavioral 
and the physical and the psychological well being as very, very 
important, and this is an opportunity, both for oversight 
committees of Congress and NASA and other outside experts to 
find ways to dramatically improve as we go forward the well 
being of astronauts in a wide variety of areas.
    After the Lisa Nowak incident earlier this year, NASA 
Administrator Mike Griffin, to his credit, convened the NASA 
Astronaut Health Care System Review Committee. I want to thank 
this distinguished panel of aerospace medical experts for their 
service. I also want to commend Administrator Griffin for 
inviting independent review of the health care system.
    We can put the report's sensationalistic element aside for 
a moment. The committee provided several thoughtful 
recommendations to heighten the importance of human factors to 
improve the monitoring of each astronaut's physical and mental 
well being. After the Shuttle is retired, NASA's Constellation 
program will return Americans to the Moon for extended stays. 
An astronaut's physical and psychological well being will be 
more important in the future of America's space program and not 
less important.
    So it is imperative to thoroughly examine this issue and 
establish an astronaut health care system that properly 
addresses future and not just current medical concerns. I note 
that one of the challenges in going beyond low-Earth orbit with 
human beings, even bigger perhaps than the mechanical and 
technical and scientific challenges, are the physiological 
challenges on astronauts that will spend extended periods in 
space.
    Unfortunately, the report's sensationalistic element, 
specifically allegations of astronaut intoxication shortly 
before space flight, drowned out the remainder of the report. 
Since the report's issuance in late July, these allegations 
remain uncorroborated. No eye witness has come forward to 
specifically state who, what, when, and where.
    So far the search for corroboration reveals the 
shortcomings of relying on anonymous allegations, and I know 
that the Colonel Bachmann's committee had its mission, and it 
did it well, and there are advantages to having anonymous and 
voluntary people come forward, but there are disadvantages, 
too. While anonymity can certainly promote candor, but without 
corroboration such allegations often unfairly force good men 
and good women to prove a negative.
    My office has heard from astronauts and NASA officials all 
deeply devoted to human space flight and highly credible who 
adamantly deny this misbehavior represents current or recent 
conduct. These people have longstanding, firsthand knowledge of 
the astronaut program and simply state that alcohol influence 
during the immediate pre-flight period does not exist. Because 
an astronaut interacts with so many people during this period, 
I find it difficult to believe that such behavior could go 
undetected.
    But I don't want the alcohol issue to detract from a more 
troublesome finding that flight surgeons and astronauts in 
general may be hesitant to report major crew medical or 
behavioral problems because their concerns would be disregarded 
or ignored.
    And James Oberg, a distinguished and respected space 
commentator, followed up last month with a very thoughtful 
story detailing inconsistent approaches to significant 
astronaut health concerns.
    I want to applaud NASA for being open to the committee's 
recommendations, and I join the distinguished Chairman of this 
subcommittee in suggesting that we focus on the future and how 
we can improve astronaut safety and well being, and I think 
that is the approach NASA should and will take.
    This type of culture, normally called a normalization of 
deviance after the first Shuttle disaster, has contributed now 
to two Shuttle accidents. It cannot be allowed to flourish in 
the most demanding of human endeavors, that is human space 
flight. We have to be ever vigilant against such behavior, and 
I am very much appreciative for Chairman Udall for calling this 
hearing.
    [The prepared statement of Mr. Feeney follows:]

            Prepared Statement of Representative Tom Feeney

    After the Astronaut Lisa Nowak incident earlier this year, NASA 
Administrator Mike Griffin convened the NASA Astronaut Health Care 
System Review Committee. I want to thank this distinguished panel of 
aerospace medical experts for their service. I also want to commend 
Administrator Griffin for inviting independent review of this health 
care system.
    If we can put the report's sensationalistic element aside for a 
moment, the committee provided several thoughtful recommendations to 
heighten the importance of human factors and to improve the monitoring 
of each astronaut's physical and mental well-being.
    After the Shuttle is retired, NASA's Constellation program will 
return Americans to the Moon for extended stays. An astronaut's 
physical and psychological well-being will be more and not less 
important. So it is imperative to thoroughly examine this issue and 
establish an astronaut health care system that properly addresses 
future and not just current medical concerns.
    Unfortunately, the report's sensationalistic element--allegations 
of astronaut intoxication shortly before space flight--drowned out the 
remainder of the report.
    Since the report's issuance in late July, these allegations remain 
uncorroborated. No eyewitness has come forward to specifically state 
who, what, when, and where.
    So far, this search for corroboration reveals the shortcomings of 
relying on anonymous allegations. Anonymity can certainly promote 
candor. But absent corroboration, such allegations unfairly force good 
men and women to prove a negative.
    My office has heard from astronauts and NASA officials--all deeply 
devoted to human space flight and highly credible--who adamantly deny 
this misbehavior represents current or recent conduct. These people 
have longstanding first-hand knowledge of the astronaut program and 
simply state that alcohol influence during the immediate pre-flight 
period doesn't exist. Because an astronaut interacts with so many 
people during this period, I find it difficult to believe that such 
behavior could go undetected.
    But I don't want the alcohol issue to detract from a more 
troublesome finding that flight surgeons and astronauts are hesitant to 
report ``major crew medical or behavioral problems'' because their 
concerns would be disregarded or ignored. And James Oberg--a 
distinguished and respected space commentator--followed up with last 
month's thoughtful story detailing inconsistent approaches to 
significant astronaut health concerns.
    This type of culture--called a normalization of deviance--
contributed to the Challenger and Columbia accidents. It cannot be 
allowed to flourish in the most demanding of human endeavors--human 
space flight. We must be ever vigilant against such behavior.
    Today's hearing is part of that vigilance.

    Chairman Udall. Thank you, Mr. Feeney. At this point I am 
pleased to acknowledge the presence of the Chairman of the Full 
Committee, Chairman Bart Gordon, at the hearing, and I would 
like to ask unanimous consent to recognize him for any remarks 
he would like to make.
    Without objection so ordered. Mr. Gordon.
    Chairman Gordon. Thank you, Chairman Udall. Let me say that 
you and Ranking Member Feeney have made my job a lot easier. 
You have summed it up very well. I think there is a bipartisan 
interest obviously in this issue, and although the alcohol 
issues got a lot of the early publicity and certainly is 
something to be concerned about, in all reports I think it 
indicates that that was a very, a situation that was an 
anomaly.
    The bigger concern is, is there an openness, is there a 
comfortableness within the NASA organization to other issues of 
flight safety? And we have different, I mean, we just have 
different testimony here, and I think that what I know is that 
there is certainly smoke. Whether there is fire, we won't be 
able to determine that today. I have no question that both 
panels are individuals of integrity, trying to do the right 
thing, and I think this will be a healthy exercise for NASA.
    But the real question is, you know, is there that 
comfortableness within the NASA flight safety operation that 
allows everyone to step forward without feeling somehow they 
are ostracized, without feeling somehow they have been 
demoralized, quoting the report, about prior overlooks?
    So, again, I welcome, and I think Mr. Feeney and Mr. Udall 
have summed up our charge today, and I look forward to hearing 
this testimony and some interaction between the members of the 
panels.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    Thank you, Chairman Udall, for yielding to me. I will be brief.
    When NASA released the report of the independent review panel that 
examined NASA's astronaut health care system, it provoked a bit of a 
firestorm due to the report's references to astronauts and alcohol use.
    Unfortunately, that firestorm has all but eclipsed what to me are 
some of the most important findings in the report--namely, the findings 
that indicate that flight surgeons and astronauts have faced 
difficulties in getting adequate attention paid to medical and 
behavioral problems.
    When I read statements in the report such as:

         ``Many anecdotes were related that involved risky behaviors by 
        astronauts that were well known to the other astronauts and no 
        apparent action was taken. Peers and staff fear ostracism if 
        they identify their own or other's problems.''

         And ``Instances were described where major crew medical or 
        behavioral problems were identified to astronaut leadership and 
        the medical advice was disregarded. This disregard was 
        described as `demoralizing' to the point where they are less 
        likely to report concerns of performance decrement. . .''

    . . .those statements trouble me.
    Getting to the bottom of the concerns raised by the panel is what I 
think NASA leadership needs to focus its attention on. And in getting 
to the bottom of those concerns, I hope NASA will heed the advice 
contained in Col. Bachmann's written testimony:

         ``NASA must ensure that people can identify such safety and 
        human performance concerns within NASA without fear of reprisal 
        or career injury. Public statements that such things are simply 
        impossible, challenging the veracity of these findings rather 
        than acknowledging how difficult raising such concerns can be, 
        do not encourage openness and safety.''

    To my way of thinking--and with all due respect to Administrator 
Griffin--disparaging a finding in the independent review panel's report 
as an ``urban legend'' doesn't do much to encourage that needed 
openness. . .especially when the Chair of that same independent panel 
is prepared to testify that the finding is based on voluntary 
interviews with eyewitnesses to the incidents.
    I hope NASA can move beyond such statements and instead turn its 
attention to giving the findings and recommendations of Col. Bachmann's 
panel the attention that they deserve.
    He and his committee have done NASA and the Nation a service in 
identifying a number of issues that need attention and in offering 
recommendations to improve NASA's astronaut health care system.
    NASA certainly doesn't have to agree with all of those findings and 
recommendations. But I hope that the agency will take them seriously.
    We all recognize the bravery and dedication of the Nation's 
astronauts. We need to do our part to ensure that we give them the best 
astronaut medical and behavioral health care system possible.
    Thank you, and I yield back my time.

    Chairman Udall. Thank you, Chairman Gordon. As Mr. Feeney 
noted, the Ranking Member, Mr. Hall, is also present. I would 
like to ask unanimous consent that he also be recognized for 
any opening remarks he would care to make.
    Without objection, so ordered.
    Mr. Hall. Mr. Chairman, thank you, and I thank you for 
doing what you are doing. I realize that you had to do it, and 
Bart Gordon is a fine Chairman and great native Tennessean, and 
I admire him very much, enjoy working with him.
    But, you know, I am so pro-NASA and pro-space and pro-Mike 
Griffin that it is just really something that, accusations 
sound more to me like someone that is wanting to be quoted 
rather than something that might have happened by our most red, 
white, and blue members of public service at any stage here. 
Our very finest educated men and women that put their life in 
the hands of those of us who light the stick of dynamite that 
sends them off. Above and beyond public servants and I hate to 
even see a hearing on something like this, but I understand the 
Chairman, that it is something when you have these allegations 
you have to hear it, and you have to, it is best to clear the 
air, and I hope we can do that here.
    I do want to thank you, Mr. Chairman, for--and I thank the 
panelists for being here today to speak on this health reports, 
what I would like to look at it as is most of you know I have 
been a long-time supporter of astronaut safety, and indeed, it 
has been my primary goal in relation to the U.S. space program. 
And I have argued for years that we need to do everything we 
can to insure that the men and women who are launched into 
outer space are prepared and equipped with everything they need 
to do the job and return to Earth safely. I believe this is 
also the goal of each and every person working on the Shuttle 
program at NASA.
    In the wake of the Columbia disaster, Congress held a 
series of investigations aimed at addressing the problems that 
led to the accident, and these investigations culminated with 
the CAIB report that outlined suggestions for NASA. So I know 
that Administrator Griffin and his team have taken these 
suggestions seriously and have implemented a series of changes 
at NASA to address the concerns.
    I don't look forward to the hearing, but I do look forward 
to staying here and listening to the testimony, particularly 
from the Administrator on the progress of these changes and 
what NASA can do to continue to improve as we move forward. And 
as my good friend, Representative Feeney, points out, we need 
to continue to be vigilant, and as this Chairman is going to 
do, I know from knowing him and his family before him that they 
will address problems and they meet problems head on at NASA 
and everywhere else so that there is a culture of safety that 
prevails.
    I look forward to the hearing, and I yield back my time, 
and I thank the Chair.
    Chairman Udall. I thank the Ranking Member for his always 
insightful remarks and look forward to his participation 
further in the hearing.
    If there are other Members who wish to submit additional 
opening statements, your statements will be added to the 
record.
    Without objection, so ordered.
    At this time I would like to turn to the panel and 
recognize our first panel witnesses. I would like to introduce 
everybody in the panel, and then we will come back and start 
with Colonel Bachmann. And I did want to initially introduce 
Colonel Richard E. Bachmann, who is appearing before the 
Subcommittee today in his capacity as the Chair of the NASA 
Astronaut Health Care System Review Committee.
    To Colonel Bachmann's left is Dr. Richard S. Williams, who 
is the Chief Health and Medical Officer at NASA. Further to the 
left on the table is Dr. Ellen Ochoa, who is the Director of 
Flight Crew Operations at NASA, and our last witness on the 
first panel we have Mr. Bryan O'Connor, the Chief of Safety and 
Mission Assurance at NASA, a very esteemed and highly-qualified 
panel. Welcome to all of you.
    As our witnesses should know, spoken testimony is limited 
to five minutes each, after which Members of the Subcommittee 
and in this case the Full Committee will have five minutes each 
to ask questions.
    So we will begin with Colonel Bachmann. Thank you for being 
here, and the floor is yours, Colonel.

                                Panel 1

  STATEMENT OF COLONEL RICHARD E. BACHMANN, JR., CHAIR, NASA 
 ASTRONAUT HEALTH CARE SYSTEM REVIEW COMMITTEE; COMMANDER AND 
    DEAN OF THE U.S. AIR FORCE SCHOOL OF AEROSPACE MEDICINE

    Colonel Bachmann. Mr. Chairman and distinguished Members of 
the Committee, good morning. It is truly an honor for me to 
speak to you today about the findings of the NASA Astronaut 
Health Care System Review Committee.
    NASA chartered this committee and selected the members to 
review the medical and behavioral health care that is provided 
to astronauts, provide opinions as to what, if any, procedures 
or testing could be put in place to predict disordered conduct 
or acts of passion. The entire report, each finding and 
recommendation, was approved and is supported unanimously by 
the entire committee.
    The work of further evaluation and action on the 
information contained within the report falls to NASA. The 
committee reviewed documents and conducted interviews of 
behavioral health medical professionals, astronauts, and family 
members. Because we were focused on systems issues rather than 
the behavior of specific individuals, we encouraged NASA 
personnel to speak freely and assured them that the report 
would not include any personally-identifiable information.
    As the review progressed it became apparent that major 
vulnerabilities, underlying root causes, and contributing 
factors extend well beyond the specific medical aspects of NASA 
operations.
    The report's most important issues and risks can be 
summarized in the following three areas: First, NASA personnel 
feels strongly that human factors concerns are disregarded to 
the point where they are reluctant to identify such concerns in 
the future.
    Second, the supervisors, peers, and other NASA personnel 
must be empowered and expected to enforce standards of conduct.
    And third, that medical and behavioral health services 
should be integrated and focused on astronaut performance 
enhancement. The perceived disregard of human factors concerns 
has the greatest safety implications and demands immediate 
attention.
    Unfortunately, a disproportioned amount of attention has 
been focused on astronaut alcohol use. Separately, NASA 
astronauts and medical personnel describe two specific 
instances of alcohol use to the committee as examples of a much 
larger issue. The NASA personnel felt that human factors 
concerns with significant safety implications had been 
disregarded when raised to local on-scene leadership.
    The interviewees were eyewitnesses to the events and 
provided the information voluntarily and unprompted to the 
committee. We wish to emphasize again that the specifics of the 
incidents should not be the focus of the attention. The general 
sense of disregard for human factors described as demoralizing 
to the point where NASA personnel are less likely to report 
concerns of performance decrement is the fundamental concern 
NASA must investigate and remedy.
    We understand the outrage that some members of NASA have 
expressed at this particular finding. However, public 
statements that such things are simply impossible, challenging 
the veracity of the findings, referring to them as unproven 
allegations or urban legends rather than acknowledging how 
difficult raising such concerns can be, do not encourage 
openness and safety, make future reporting even less likely, 
and increase the risk of future mishaps or incidents.
    The recently-released NASA space flight safety review did 
not prove that the evidence described to us did not happen, 
only that NASA personnel who shared their concerns with the 
committee during the interviews did not bring these same 
concerns forward during the safety review. We believe this may 
represent continued fear and barriers to communication and may 
be a cause for greater, not less, concern.
    The committee identified a number of structural and 
cultural issues that currently exist in NASA that make it even 
more difficult to predict an episode of disordered conduct and 
made recommendations to ameliorate them. These recommendations 
include instituting a formal written code of conduct, creating 
enduring supervisory mentoring relationships with effective 
feedback and evaluation, and empowering supervisors, peers, and 
support staff to bring forward concerns.
    Solutions will require a systems-based approach. NASA has 
acknowledged the intent to act upon most, if not all, of these 
recommendations. Each finding and recommendation should be 
explicitly addressed and tracked to resolution with both 
internal and external oversight.
    We believe the first and most important step that needs to 
be taken by NASA is to conduct a thorough, appropriately-
constructed, anonymous survey of the relevant populations 
covered by this report. This survey must be carefully worded in 
order to obtain valid, actionable information. NASA senior 
leadership must provide vocal support for the survey and 
encourage NASA personnel to be open, honest, and thorough in 
their replies. They must be assured of anonymity, freedom from 
reprisal, and that the information will be used appropriately. 
Otherwise the concerns will be driven further underground.
    Only with such a comprehensive, anonymous, valid, and 
visibly-supported survey can NASA truly determine the scope of 
the problems and drive toward system solutions.
    Thank you.
    [The prepared statement of Colonel Bachmann follows:]

         Prepared Statement of Colonel Richard E. Bachmann, Jr.

    Mr. Chairman, Honorable Members of the Science and Technology 
Committee, good afternoon.
    My name is Colonel Richard Bachmann. I am the Chairman of the NASA 
Astronaut Health Care System Review Committee. This committee was 
chartered by NASA in February 2007 to conduct a review of the medical 
and behavioral health care provided to astronauts and to provide 
opinions as to what, if any, procedures or testing could be put in 
place to predict disordered conduct or acts of passion.
    In order to accomplish this review, the NASA Chief Health and 
Medical Officer contacted the senior medical officers of various 
federal agencies, such as the Department of Veterans Affairs, the 
Department of Defense, and the Federal Aviation Administration, and 
solicited nominations of ``appropriately credentialed physicians and 
mental health professionals, employed by the Federal Government or on 
active duty in the military services, and experienced in medical and 
behavioral health support to organizations and personnel engaged in 
critical or hazardous operations.'' The NASA Chief Health and Medical 
Officer selected the committee members from the pool of nominees based 
on professional credentials, operational experience and availability. 
Assignment and notification to the committee members occurred in late 
February 2007.
    I was asked by the NASA Chief Health and Medical Officer to serve 
as Chairman. I am an Air Force flight surgeon, specialist in Aerospace 
and Occupational Medicine, and until last week, I was the Commander and 
Dean of the US Air Force School of Aerospace Medicine. I am now the 
Special Assistant to the Air Force Research Laboratory Commander, and 
the new Commander of the US Air Force School of Aerospace Medicine 
works for me.
    The committee members are as follows:

         Colonel Timothy Sowin, Air Force flight surgeon, specialist in 
        both psychiatry and aerospace medicine, and currently the Chief 
        of the Aviation Neuropsychiatry branch at the U.S. Air Force 
        School of Aerospace Medicine.

         Colonel James Bagian, Air Force Reserve flight surgeon, 
        specialist in aerospace medicine, former NASA astronaut-
        physician, and currently Chief Patient Safety Officer, 
        Department of Veterans Affairs.

         Mark Bauer, specialist in psychiatry, Professor of Psychiatry, 
        Brown University and Providence Veterans Affairs Medical 
        Center.

         James Fraser, Captain U.S. Navy retired, specialist in 
        aerospace medicine, currently Deputy Federal Air Surgeon, 
        Federal Aviation Administration.

         Sandra Yerkes, Captain U.S. Navy retired, specialist in 
        psychiatry, currently Director, NAVMED Medical Accessions.

         Elizabeth Holmes, Captain U.S. Navy retired, clinical 
        psychologist, currently on faculty at the Stockdale Center for 
        Ethical Leadership.

         Paul DeLaney, Captain U.S. Navy Judge Advocate General Corps, 
        currently assigned to the U.S. Navy Chief of Staff, Office of 
        the Judge Advocate General.

    Ex officio members of the committee are:

         James Duncan, NASA Chief of Space Medicine Operations at 
        Johnson Space Center

         Wayne Frazier, NASA Office of Safety and Mission Assurance

    Consultant--Ellen Baker, current NASA astronaut physician

    Executive Secretary--John Allen, NASA Program Executive, Crew 
Health and Safety.

    The committee members were nominated by their respective federal 
agencies and selected by NASA because of their diverse backgrounds, 
extensive experience, and professional credentials. The committee's 
overarching goal is to enhance the ability of NASA to perform its 
mission safely and effectively. All the members of the committee feel 
greatly honored to have been selected for this task, and look upon it 
as a civic duty to the Nation.
    It is important to reiterate that the committee's findings, 
recommendations and opinions provided to NASA in this report do not 
reflect the official positions of the Air Force, Navy, Department of 
Defense, FAA, or VA. The committee was called into being by NASA to 
provide this report, and with the delivery of the report, the 
committee's mission is complete. The committee members will continue to 
be available to NASA to provide clarification or explanation on the 
report itself, but the work of further evaluation, deliberation and 
action on the information contained in the report falls to NASA. The 
committee was not intended to provide ongoing oversight or assess 
NASA's response to any issues raised in the report.
    Our task was to identify potential vulnerabilities in NASA's 
medical and behavioral health system and to recommend to NASA potential 
corrective actions or areas requiring further study.
    The committee convened for its first meeting at NASA Headquarters 
in Washington, DC, on March 28, 2007 and received informational 
briefings from a wide variety of NASA functional experts. NASA provided 
the committee with an extensive set of policy documents and reports for 
review and future reference.
    After several weeks of document review, research and meetings via 
teleconference, the committee met at Johnson Space Center from 23 to 26 
April, 2007. During this period, Johnson Space Center personnel 
presented informational briefings and were interviewed by the 
committee. Then the committee divided into small teams and conducted 
on-site reviews throughout the medical and behavioral health areas. 
These reviews consisted of document reviews and interviews with 
individuals and groups. NASA astronaut, medical and family support 
office personnel assisted in soliciting astronauts and family member 
volunteers to be interviewed by the committee. During the interviews, 
NASA personnel were encouraged to speak freely, and were assured that 
no personally identifiable information would be included in the report. 
Although the astronauts and family members interviewed do not represent 
a random or exhaustive sample of the larger population, the issues they 
raised during these unstructured interviews were remarkably consistent 
and compelling and deserve focused action.
    The committee members met at the end of each day and reviewed their 
findings and observations with the entire committee. After the 
committee's departure from Johnson Space Center, astronauts and family 
members continued to contact and were interviewed by individual 
committee members.
    Following the visit to JSC and subsequent interviews, each 
committee member wrote up his or her findings and recommendations and 
shared them with the entire committee via e-mail and telephonic 
discussions. The NASA astronaut advisor and ex-officio members of the 
committee were not included in the development of findings and 
recommendations, but were available to the committee to answer 
questions regarding NASA policies and procedures. The committee 
gathered at the U.S. Air Force School of Aerospace Medicine from 30-31 
May to draft the report. The committee decided to organize the report's 
findings and recommendations according to the specific questions given 
to the committee by the NASA CHMO at our initial formative meeting.
    Each member was free to determine the level of significance 
required for any particular piece of information to be considered a 
finding. Each member's proposed findings and recommendations were 
grouped under the appropriate subject area and combined whenever 
possible. Each finding and recommendation was considered, discussed and 
carefully written to ensure significance, validity and clarity. The 
committee's criteria for a finding to be included in the report were 
based on whether the finding addressed a specific question NASA asked 
the committee to evaluate, and/or whether the issue identified 
significant concerns regarding astronaut health, flight safety or 
mission completion. During the initial phase of deliberations, we 
recognized that dissenting opinions might arise and allowed for a 
minority report to be included, but this proved to be unnecessary. The 
entire report, all findings and recommendations, were approved 
unanimously by the entire committee.
    Work continued on the final wording for the next few weeks, with 
each proposed refinement reviewed and approved by the entire committee. 
A draft of the report was provided to NASA on June 21st for correction 
of any factual errors and we received their response on July 3rd. The 
committee formally presented the findings and recommendations to the 
NASA Administrator and senior NASA staff on July 16th. After some very 
minor revisions to provide additional clarity, the report was finalized 
and delivered to NASA on July 25th. NASA released the report to the 
public in concert with a news conference on July 27th.
    The committee received outstanding support from NASA at every level 
of the organization. It was clear from every interview that NASA 
personnel are dedicated to accomplishing their mission--the interviews 
were characterized by openness, honesty, cooperation and a palpable 
desire to make things better. As the review progressed, it became 
apparent that major vulnerabilities, underlying root causes and 
contributing factors extend well beyond the specific medical aspects of 
NASA operations. Many of the cultural and structural issues identified 
in the report have existed for many years, pre-dating the current 
leadership team, are deeply ingrained and will take senior leadership 
action to remediate them.
    The committee concluded that NASA's astronaut health care system 
provides easily accessible services to astronauts and their families, 
which were consistent with accepted standards of care. There is room 
for improvement in the provision of behavioral health services, 
particularly in selection, training, evaluation and support of 
astronauts preparing for and participating in space missions. The 
medical and behavioral health systems could be better integrated and 
focused on astronaut performance enhancement.
    During the interviews, members of the NASA medical and astronaut 
communities raised significant concerns regarding barriers to 
communication. As examples of these barriers to communication, they 
described instances where medical personnel or fellow astronauts raised 
concerns about an astronaut's fitness for flight due to alcohol use in 
the immediate pre-flight period, and these concerns appeared to them to 
be disregarded or overridden. The committee is very concerned about 
this perception of disregard for human factors inputs, and strongly 
recommends that NASA conduct further evaluation using tools such as 
anonymous surveys, to determine the extent of such perceptions, and 
ensure that human factors concerns are appropriately identified and 
dealt with.
    Unfortunately, since the release of the committee's report, a 
disproportionate amount of media attention has been focused on the 
section of the report discussing specific incidents of astronauts and 
alcohol use. In separate interviews, NASA astronaut and medical 
personnel described two specific instances of alcohol use to the 
committee as examples of a much larger issue: that NASA personnel felt 
that human factors concerns with significant safety implications had 
been disregarded when raised to local on-scene leadership. These 
incidents were described by eyewitnesses to the events, and were 
provided voluntarily and unprompted by NASA personnel to the committee. 
In order to encourage them to speak freely, the committee assured the 
interviewees that we would make every effort to keep names, dates and 
other specifics out of our notes and out of the report. The general 
sense of disregard for human factors, described as ``demoralizing'' to 
the point where NASA personnel are less likely to report concerns of 
performance decrement, is the fundamental concern NASA must investigate 
and address.
    We understand the outrage that some members of NASA have expressed 
at this particular finding. The fact remains that the incidents 
described in the report that have generated so much concern and anger 
were told to the committee voluntarily by NASA personnel who were 
eyewitnesses to the incidents. NASA must ensure that people can 
identify such safety and human performance concerns within NASA without 
fear of reprisal or career injury. Public statements that such things 
are simply impossible, challenging the veracity of these findings 
rather than acknowledging how difficult raising such concerns can be, 
do not encourage openness and safety.
    Human behavior is complex. Prediction of future behavior, even by 
behavioral health experts, is extremely difficult to perform 
accurately. Systemic procedures alone cannot predict disordered 
conduct, but human factors concerns or issues that arise or are 
identified in one realm could be more effectively shared with others 
and potentially result in earlier intervention. The committee 
identified a number of structural and cultural issues that currently 
exist in NASA that make it even more difficult to predict an episode of 
disordered conduct, and made recommendations to ameliorate them. These 
recommendations include instituting a formal, written code of conduct, 
creating enduring supervisory/mentoring relationships with effective 
feedback and evaluation, and empowering supervisors, peers and support 
staff to bring forward concerns. Using similar processes, organizations 
as diverse as the military, the FAA and the VA have made great 
progress, with active supervisory and peer involvement, in changing 
cultural attitudes towards safety, accountability, empowerment and 
alcohol.
    This report contains a wide range of findings and recommendations. 
Some of these recommendations will be relatively simple to implement, 
such as writing standard operating procedures to document processes, 
which are already in place. Some will take substantially more time and 
effort to implement, such as restructuring astronaut supervisory 
relationships or focusing the attention of psychologists on astronaut 
performance enhancement. Some recommendations entail changing deep 
seated, long standing aspects of astronaut, flight surgeon and safety 
cultures regarding alcohol use, code of conduct, acknowledgement of 
human performance issues, selection, training, evaluation and 
professional development, communication and privacy. None of these 
issues lend themselves to easy analysis or correction of a single 
factor. All of them require further study and evaluation by NASA. 
Solutions will require a systems-based approach and will take time to 
achieve.
    We believe the three most important issues and risks in this report 
can be summarized in the following areas: First, NASA personnel's sense 
that human factors concerns are disregarded and that this has made them 
reluctant to identify such concerns in the future: second, that 
supervisors, peers and other NASA personnel must be empowered and 
expected to enforce standards of conduct; and third, that medical and 
behavioral health services should be integrated and focused on 
astronaut performance enhancement. The issue of perceived disregard of 
human factors concerns is by far the most worrisome and demanding of 
immediate attention.
    To restate, the committee believes the first and most important 
step that needs to be taken by the NASA senior leadership is to conduct 
a thorough, anonymous survey of the relevant NASA populations covered 
by this report--medical personnel, astronauts, and training personnel. 
This survey should be carefully worded in order to obtain valid, 
actionable information. NASA senior leadership should provide vocal 
support for the survey and encourage NASA personnel to be open, honest 
and thorough in their replies. They must be assured of anonymity, 
freedom from reprisal and that the information will be used 
appropriately, otherwise the concerns will be driven further 
underground. The committee's report identified many areas of concern to 
NASA--only with such a comprehensive, anonymous, valid and visibly-
supported survey can NASA determine the scope of the problems and drive 
toward systems solutions.
    The committee appreciates the openness of and the assistance 
provided by NASA leadership, astronauts, medical personnel and family 
members. They clearly share the overarching goal of the committee--to 
enhance the ability of NASA to perform its mission safely and 
effectively.
    Thank you.

             Biography for Colonel Richard E. Bachmann, Jr.

    Colonel Richard E. Bachmann, Jr. is Commander and Dean of the U.S. 
Air Force School of Aerospace Medicine (USAFSAM), 311th Human Systems 
Wing, Brooks City-Base, Texas. This organization is the center for 
aeromedical education, training, and consultation in direct support of 
Air Force, Department of Defense and allied nations, providing 
peacetime and contingency support in hyperbaric medicine, human 
performance enhancement, dental investigations, aeromedical evacuation 
and environmental quality. It trains more than 5,000 students annually, 
maximizing more than $171 million in educational assets.
    Colonel Bachmann was born in Grand Forks, ND and was commissioned 
through the Health Professions Scholarship Program. He served twice as 
a squadron flight surgeon and has previously commanded at the squadron 
and group level. He served as the USAFE Chief of Aerospace Medicine 
during Operation ENDURING FREEDOM and was the Joint Task Force Surgeon 
for Operation ATLAS RESPONSE (Africa flood relief).
    Colonel Bachmann is a chief physician and chief flight surgeon, 
board certified in both Aerospace Medicine and Occupational Medicine by 
the American Board of Preventive Medicine. He has flown over 1,400 
hours in 28 aircraft types and was the first flight surgeon to fly the 
B-2.

EDUCATION

1982--Bachelor of Science in Biomedical Science (with High Honors), 
        University of Michigan College of Literature, Science and the 
        Arts, Ann Arbor, MI

1985--Aerospace Medicine Primary Course (Distinguished Graduate), USAF 
        School of Aerospace Medicine, Brooks AFB, TX

1985--Doctorate of Medicine, University of Michigan Medical School, Ann 
        Arbor, MI

1995--Master's degree in Public Health (Occupational Medicine), 
        University of Michigan School of Public Health, Ann Arbor, MI

1996--Air Command and Staff College (correspondence)

1997--Residency in Aerospace and Occupational Medicine, USAF School of 
        Aerospace Medicine, Brooks AFB, TX

1997--Air War College (correspondence), Outstanding Graduate

2001--Interagency Institute for Federal Health Care Executives, George 
        Washington University, Washington, D.C.

2003--Master's degree in Strategic Studies (with distinction), Air War 
        College, Air University, Maxwell AFB, AL

ASSIGNMENTS

 1.  June 1985-June 1986, Transitional Intern, David Grant Medical 
Center, Travis AFB, CA

 2.  July 1986-July 1989, Squadron Flight Surgeon, 48th Fighter 
Squadron, Langley AFB, VA

 3.  July 1989-July 1994, Chief of Flight Medicine, USAF Regional 
Hospital; later Squadron Flight Surgeon, 90th Fighter Squadron, 
Elmendorf AFB, AK

 4.  August 1994-June 1995, Resident in Aerospace and Occupational 
Medicine, Phase I, University of Michigan School of Public Health, Ann 
Arbor, MI

 5.  July 1995-June 1997, Resident in Aerospace and Occupational 
Medicine, Phases II and III, USAF School of Aerospace Medicine, Brooks 
AFB, TX

 6.  July 1997-July 1999, Commander, 48th Aerospace Medicine Squadron, 
RAF Lakenheath, UK

 7.  July 1999-July 2002, Chief, Aerospace Medicine Division, Office of 
the Command Surgeon, HQ USAFE, Ramstein AB, Germany

 8.  July 2002-June 2003, graduate student, Air War College, Air 
University, Maxwell AFB, AL

 9.  July 2003-July 2005, Commander, 509th Medical Group, Whiteman AFB, 
MO

10.  July 2005-present, Commander and Dean, USAF School of Aerospace 
Medicine, Brooks City-Base, TX

FLIGHT INFORMATION

Rating: Chief Flight Surgeon, FAA private pilot

Flight Hours: More than 1,400

Aircraft flown: B-2, F-15B/D/E, C-9, E-3, E/K/RC-135, T-38 and 22 other 
        major aircraft types

MAJOR AWARDS AND DECORATIONS

Legion of Merit

Meritorious Service Medal with three oak leaf clusters

Joint Service Commendation Medal

Air Force Achievement Medal

Global War on Terrorism Service Medal

Humanitarian Service Medal

Air and Space Campaign Medal

OTHER ACHIEVEMENTS/REGISTRY

Phi Beta Kappa Honor Society (1982)

Alpha Omega Alpha Medical Honor Society (1984)

Tactical Air Command Flight Surgeon of the Year (1988)

Diplomate of American Board of Preventive Medicine in Aerospace 
        Medicine (1997)

Diplomate of American Board of Preventive Medicine in Occupational 
        Medicine (1998)

Medical Licenses--Virginia, Michigan

PROFESSIONAL AFFILIATIONS

Aerospace Medical Association (Fellow and Life Member)

American College of Occupational and Environmental Medicine

EFFECTIVE DATES OF PROMOTION

Captain--10 Jun 85

Major--30 May 91

Lieutenant Colonel--30 May 97

Colonel--30 May 03

    Chairman Udall. Thank you, Colonel Bachmann.
    Dr. Williams is recognized.

STATEMENT OF DR. RICHARD S. WILLIAMS, CHIEF HEALTH AND MEDICAL 
     OFFICER, NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Williams. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to appear today to discuss the 
NASA Astronaut Medical and Behavioral Health Care Program. I am 
pleased to provide you with insight into this comprehensive 
program and discuss our plans regarding the findings of the 
NASA Astronaut Health Care System Review Committee and the 
internal review conducted at Johnson Space Center.
    The NASA Astronaut Medical Behavioral Health Care Program 
has succeeded in keeping our astronauts healthy and ready to 
perform the challenging tasks that NASA asks of them. Over the 
course of our nation's 40-year human space flight endeavor, the 
health care system has contributed to the success of all NASA 
human space flight missions. No mission has thus far been 
abbreviated or terminated because of a health care issue. 
Longer duration exploration missions will provide new 
challenges, and we are committed to ensuring our program 
continues to provide the best medical and behavioral health 
care.
    The health related recommendations of the Astronaut Health 
Care System Review Committee are thoughtful and will contribute 
to meeting the behavioral health challenges that lie ahead. I 
take the recommendations of the review committee seriously, and 
we thank the committee for all the time and effort involved in 
their study. Our overarching goal is to improve behavioral 
health and medical care for the astronauts.
    Several of the committee recommendations were accepted 
immediately, and many more will be accepted in the coming 
months. Specifically, NASA accepts the recommendations 
concerning analysis and use of behavioral health data and will 
convene experts to address psychological testing as 
recommended.
    Briefings by the flight surgeons to crew members concerning 
medical monitoring activities and briefings by principle 
investigators concerning research data collection and the 
context of obtaining informed consent will be re-emphasized. 
Effective communication between astronauts and flight surgeons 
will be addressed. We will ensure both groups are aware of the 
multiple pathways to communicate safety and health concerns, 
and we will be working together in support of NASA senior 
leadership to reinforce these concepts.
    Flight surgeon scheduling and task assignment and flight 
medicine clinic operations will be closely examined with the 
goal of enhancing continuity of care to the greatest extent 
feasible. Options for providing effective behavioral health 
services to all flight assignable astronauts for the purposes 
of performing enhancement, performance enhancement will be 
reviewed, and a behavioral health assessment will be conducted 
as part of the annual astronaut physical examination. Options 
for flight surgeon behavioral health assessment training will 
also be identified.
    A common credentialing and privileging process will be 
applied to behavioral health and aeromedical services, and a 
peer review of practice will be enhanced for both. NASA's 
electronic medical records system will be reexamined to provide 
maximum privacy consistent with safe medical practice in 
compliance with all applicable statutes and regulation 
governing privacy of medical information will be assured.
    Process linkages between the behavioral health records 
system and the electronic medical record will be reviewed and 
established, and all appropriately-credentialed and privileged 
practitioners will be granted records access as appropriate. 
NASA will examine options for assuring quality of care 
delivered by community consultants and practitioners. Written 
operational instructions and procedures for the behavioral 
health clinic will be examined and enhanced as appropriate.
    The Aerospace Medicine Board charter will be reviewed and 
updated to reflect appropriate membership, authority, and 
accountability. Regular meetings will be scheduled between 
behavioral health staff and flight surgeons to enhance clinical 
communication.
    Our initial responses to the committee's recommendation 
were reviewed and endorsed by the NASA Medical Policy Board on 
August 21, 2007. The Medical Policy Board consisting of medical 
experts both external and internal to NASA is available to me 
for consultation on all NASA and medical policy.
    The Medical Policy Board will provide ongoing 
implementation oversight, and I will provide progress reports 
to the NASA Administrator.
    Commitment to flight safety remains the foundation of our 
effort, and we look forward to system improvements that will be 
realized as a result of this report.
    I look forward to answering any questions you may have this 
morning.
    [The prepared statement of Dr. Williams follows:]

               Prepared Statement of Richard S. Williams

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today to discuss the NASA Astronaut Medical and 
Behavioral Health Care Program. I am privileged to serve as the NASA 
Chief Health and Medical Officer. The Office of the Chief Health and 
Medical Officer was established as a new office in 2000 based on the 
recommendations of external advisory groups. The purpose was to provide 
an expanded oversight and policy role for the NASA's health care 
system. I am pleased to provide you with insight into NASA's 
comprehensive health care system and discuss our plans regarding the 
findings of the NASA Astronaut Health Care System Review Committee and 
the internal review conducted at Johnson Space Center (JSC).
    Over the last two decades, the Johnson Space Center Space Medicine 
Division has developed an excellent relationship with the astronauts 
through astronaut and flight surgeon cooperation. The NASA Astronaut 
Medical and Behavioral Health Care program has succeeded in keeping our 
astronauts healthy and ready to perform the challenging tasks that NASA 
asks of them. Over the course of our nation's 40-year human space 
flight endeavor, the health care system has contributed to the success 
of all NASA human space flight missions. No NASA mission has thus far 
been shortened or terminated because of a health care issue. Longer-
duration exploration missions will provide new challenges and we are 
committed to ensuring our program continues to provide the best medical 
and behavioral health care to the Astronaut Corps. The health-related 
recommendations of the Astronaut Health Care System Review Committee 
are thoughtful and will contribute to meeting the behavioral health 
challenges that lie ahead.

NASA Astronaut Medical and Behavioral Health Care Program

    The NASA Astronaut Medical, Dental, and Behavioral Health Care 
program was established almost 50 years ago by NASA to ensure the 
health and well being of astronauts and their dependents. The program 
provides a comprehensive health care system for astronauts. Health care 
services are provided to ensure that astronauts meet established human 
health standards in support of mission needs.
    Policy governing astronaut medical and behavioral health is set by 
NASA Headquarters. My office, the Office of the Chief Health and 
Medical Officer (OCHMO), is responsible for establishing policy and 
providing oversight of all NASA health and medical operations. The 
Johnson Space Center is responsible for management of all NASA space 
medical activities in support of human space flight. Astronauts and 
dependents have traditionally received health care services at the NASA 
Johnson Space Center Flight Medicine Clinic that included medical and 
dental care, as well as psychiatric and psychological services. As the 
focus of space flight changed to longer-duration missions, a separate 
behavioral clinic was established and behavioral health support was 
added to the pre-, in and post-flight support of astronauts flying on 
the International Space Station (ISS) and their families.
    The Astronaut Medical, Dental and Behavioral Health Care program 
has evolved over time to meet changing mission needs and has 
incorporated enhancements that were a direct result of internal and 
external review. Notably, the Institute of Medicine (IOM) released a 
report in 2001 entitled ``Safe Passage, Astronaut Care for Exploration 
Mission.'' This report led NASA to adopt an occupational health model 
for the health care of astronauts.
    The findings of the Columbia Accident Investigation Board (CAIB) 
had an important impact on the NASA culture and this certainly touched 
the health care system. A governance structure including independent 
technical authorities was established to set technical standards and 
assure programmatic adherence to technical requirements. The Health and 
Medical Technical Authority was established in 2006 to take 
responsibility for health and medical program requirements and 
standards, and ensure NASA program compliance with them. The Health and 
Medical Technical Authority also provides a path for issues and 
concerns to be raised relating to crew health issues, and works very 
well with our occupational health model for astronaut health care 
delivery.

Roles, Responsibilities and Decision-making

    Flight surgeons in the Space Medicine Division provide medical care 
to the astronauts utilizing the Flight Medicine Clinic at the Johnson 
Space Center. Primary medical care and annual physical examinations for 
aeromedical certification for space flight are performed by the flight 
surgeons. Medical conditions may arise that necessitate referral or 
consultation with external expert practitioners. Conditions that 
violate an established medical standard may require that an astronaut 
be relegated to duties not involving flying (DNIF) until the condition 
resolves. This is referred to as ``grounding'' an astronaut. Flight 
surgeons have the authority to ground astronauts who have developed 
health conditions that prevent them from meeting medical standards. Any 
grounding decision is reviewed by the Chief of the Flight Medicine 
Clinic (FMC), and the Chair of the Aerospace Medicine Board (AMB), who 
must provide concurrence.
    Waivers may be granted for many medical conditions if they are 
deemed stable and of no significance to the mission. Medical waivers 
must be based on best medical evidence and professional opinion and 
supported by sound aeromedical rationale. All cases for medical waiver 
consideration are reviewed by the Aerospace Medicine Board. In the case 
of permanent waivers, a recommendation is forwarded to me for review 
and disposition. The NASA Medical Policy Board (MPB), consisting of 
internal and external medical experts, is available to me for 
consultation on waiver decisions as well as all NASA medical policy 
matters.
    Behavioral health specialists have been primarily responsible for 
evaluation of astronaut candidates for selection and for support of 
long-duration space flight astronauts and their family members. 
Astronauts are evaluated by psychiatrists or psychologists and are 
provided education and training on the rigors of long-duration space 
flight and confinement. This training enables the astronaut to 
recognize personal reactions to the isolated environment and aids the 
astronaut in maximizing performance and mission success. Counseling and 
therapy services are provided upon request to all astronauts and to all 
dependents. Behavioral health providers have the same authority to 
ground an astronaut (issue a DNIF status) and to bring a case to the 
AMB for evaluation and recommendation for waiver or disqualification.
    Any astronaut wishing to contest a flight surgeon grounding 
decision can appeal to the Chief, Flight Medicine Clinic, or the Chief, 
Space Medicine Division. The appeal is reviewed by the Aerospace 
Medicine Board with a recommendation forwarded to me as indicated. 
Appeals can be raised directly to my attention by the astronaut for 
review and final decision.
    Medical issues that arise immediately pre-flight or in-flight are 
discussed between operational, medical, and astronaut management 
authorities on a need-to-know basis giving due consideration to 
privacy, crew member health and safety, and mission impact. The Agency 
governance structure provides a path for dissenting opinions to be 
raised through the Health and Medical Technical Authority chain of 
command.
    I made earlier reference to medical standards. They are defined to 
establish fitness for flight and fitness for duty. Under the leadership 
of the Space Medicine Division of the Space Life Sciences Directorate 
at the NASA Johnson Space Center, standards are developed by teams of 
experts in various fields of clinical medicine and aerospace medicine. 
The standards are reviewed and approved by the Aerospace Medicine Board 
at the NASA Johnson Space Center. The standards are then submitted to 
the OCHMO at NASA Headquarters, which authorizes a review by the 
Medical Policy Board (MPB) and final approval is granted for 
implementation. These standards were first developed in 1978 and have 
undergone several revisions since that time. The most recent revision 
was completed in July 2007.

Internal and External Review of Medical Practice

    Biennial internal audits of the Flight Medicine Clinic are 
performed by my office. The objective of these audits is to review 
clinical practice, record-keeping, and compliance with applicable 
regulations. The most recent audit was conducted February 5-9, 2007. 
The findings of this review cited a number of Flight Medicine Clinic 
(FMC) practices as Agency Best Practices.
    In addition, quarterly self-evaluations are performed to review 
standards of care, medical record documentation, and adherence to 
clinic policies and procedures. Documentation deficiencies that are 
identified are reviewed and corrected. In addition, the Chief of the 
Flight Medicine Clinic reviews all physical examinations for accuracy, 
consistency, and adherence to established policies.
    External review of our behavioral medicine services was performed 
in February 2007. This review determined that NASA provided a competent 
group of behavioral health providers (BHP) rendering excellent clinical 
and occupational care. Recommendations were also made for improvement, 
and actions were in place to address many of these areas at the time of 
Dr. Bachmann's review. These actions specifically included 
credentialing of NASA BHP providers, privileging of BHP providers by 
the FMC, plans for external consultant peer review biannually by an 
aerospace psychiatry consultant, and implementation of a formalized, 
quarterly, internal peer review process.

Summary

    NASA takes the recommendations of the Committee seriously, and we 
thank the Committee for all the time and effort involved in their 
study. We are evaluating each recommendation and are in the early 
planning stages of responding to them. This task is made more difficult 
by the anecdotal nature of some of the findings of the report. Our 
overarching goal is to improve behavioral health and medical care for 
the astronauts. Several of the Committee recommendations were accepted 
immediately, and many more will be accepted in the coming months.
    Specifically, NASA accepts the recommendations concerning analysis 
and use of behavioral health data, and will convene experts to address 
psychological testing as recommended. Briefings by the flight surgeons 
to crew members concerning medical monitoring activities and briefings 
by principal investigators concerning research data collection, in the 
context of obtaining informed consent, will be reemphasized. Effective 
communication between astronauts and flight surgeons will be addressed; 
we will ensure both groups are aware of the multiple pathways to 
communicate safety and health concerns; and we will be working together 
in support of NASA senior leadership to reinforce these concepts. 
Flight surgeon scheduling and task assignment and flight medicine 
clinic operations will be closely examined, with the goal of enhancing 
continuity of care to the greatest extent feasible. Options for 
providing effective behavioral health services to all flight assignable 
astronauts for the purposes of performance enhancement will be 
reviewed, and a behavioral health assessment will be conducted as part 
of the annual astronaut physical examination. Options for flight 
surgeon behavioral health assessment training will also be defined.
    A common credentialing and privileging process will be applied to 
behavioral health and aeromedical services, and peer review of practice 
will be enhanced for both. NASA's electronic medical records system 
will be re-examined to provide maximum privacy consistent with safe 
medical practice, and compliance with all applicable statutes and 
regulations governing privacy of medical information will be assured. 
Process linkages between the behavioral health records system and the 
electronic medical record will be reviewed and established, and all 
appropriately credentialed and privileged practitioners will be granted 
records access as appropriate. NASA will examine options for assuring 
quality of care delivered by community consultants and practitioners. 
Written operational instructions and procedures for the behavioral 
health clinic will be examined and enhanced as appropriate. The 
Aerospace Medicine Board charter will be reviewed and updated to 
reflect appropriate membership, authority and accountability, and 
regular meetings will be scheduled between behavioral health staff and 
flight surgeons to enhance clinical communication.
    These initial responses were reviewed and endorsed by the Medical 
Policy Board on August 21, 2007. The Medical Policy Board will provide 
ongoing implementation oversight. I will continue to coordinate and 
provide feedback to the Office of Safety and Mission Assurance and the 
Flight Crew Operations Directorate at the Johnson Space Center. 
Together we will provide regular progress reports to the NASA 
Administrator.
    Commitment to the health and welfare of the astronauts and all NASA 
employees and to flight safety remains the foundation of our effort, 
and we look forward to system improvements that will be realized as a 
result of this report.

    Chairman Udall. Thank you, Dr. Williams.
    Dr. Ochoa, the floor is yours for five minutes.

STATEMENT OF DR. ELLEN OCHOA, DIRECTOR, FLIGHT CREW OPERATIONS, 
                   NASA JOHNSON SPACE CENTER

    Dr. Ochoa. Thank you. Good morning, Mr. Chairman, and 
Members of the Subcommittee. Thank you for the opportunity to 
appear before you today.
    I have the privilege of managing the organization that 
includes the Astronaut Office and the Aircraft Operations 
Division at NASA Johnson Space Center. Prior to becoming 
Director of Flight Crew Operations a year ago and Deputy 
Director four years before that I was a member of the astronaut 
office for 12 years and was fortunate enough to fly on four 
Space Shuttle missions.
    In my experience, astronauts prepare thoroughly and 
uncompromisingly for their missions. One of my crew mates 
compared it to preparing for the Olympics. Every act, every day 
is designed to make sure that you are at your peak, both 
mentally and physically, when you launch into space.
    About 10 years ago as we began assembly of the 
International Space Station, it became clear that astronaut 
preparation needed to be raised to a new level to accomplish 
the increased complexity of establishing and maintaining a 
permanent human presence in space. Along with the Missions 
Operations Directorate, whose job is to plan, train, and fly 
missions, and the Space Life Sciences Directorate, who insures 
the crew health, the Flight Crew Operations Directorate 
developed new processes, training, evaluation methods, and 
fitness standards to meet the challenge of assembling and 
operating the Space Station.
    Standards for fitness for duty are determined, measured, 
and documented using a number of processes and tools. Comments 
and quantitative evaluations by instructors are documented in 
every phase of training and included in each astronaut's 
personnel file. In addition to training in many areas ranging 
from spacecraft systems to robotics and space walking to 
expedition preparation, NASA uses other processes to prepare 
and evaluate astronauts, including the Instructor Astronaut 
Program, the Commander Upgrade Program, and the Astronaut 
Evaluation Board. All of these are used by the Chief of the 
Astronaut Office in the Flight Assignment Recommendation 
Process.
    Medical standards for flight are used by the Aerospace 
Medicine Board to make certification decisions. Certification 
results are addressed during bi-weekly meetings between 
astronaut and flight surgeon management. The communication and 
relationship between flight crew operations and the space 
medicine community is strong, allowing NASA to effectively 
address concerns regarding crew health and fitness. Flight 
surgeons are aware of their responsibility to assure that an 
astronaut's health or behavior does not present a risk to 
themselves or the mission, and the flight crew management, as 
well as NASA's leadership, support their efforts to do so.
    Flight crews are very fortunate to have a group of flight 
surgeons who are not only excellent physicians but who 
understand the training and the operational environment of an 
astronaut and the implications of that astronaut, of that 
environment to astronaut health. The flight surgeons are 
dedicated to maintaining or returning astronauts to flight 
status when at all possible, keeping within the medical 
standards that protect health and mission success.
    Following the events of last February, Johnson Space Center 
conducted an internal assessment, and NASA headquarters charted 
the Astronaut Health Care System Review Committee. While 
behavioral health recommendations were the focus of the health 
care committee report, the report also included a number of 
comments related to Astronaut Office behavior and processes. As 
the committee itself noted, they did not attempt to determine 
the veracity of those comments, nor was there any request for 
information on Astronaut Office processes, policies, or 
anything that could be characterized as Astronaut Office 
culture.
    In response to the committee report NASA has taken decisive 
steps. Bryan O'Connor's thorough investigation confirmed my own 
personal experiences both as a crew member and a manager of 
flight crew. We have found no instance where astronauts have 
used alcohol in immediate pre-flight period or were under the 
effects or influence of alcohol at launch. And no case where a 
flight surgeon or astronaut raised a concern about this to 
management.
    NASA has also responded to the committee's report by 
developing an anonymous survey to determine what issues 
actually exist and their scope. This survey will be provided to 
the Astronaut Corps and flight surgeons this month. Both groups 
will be asked to respond to questions regarding communication, 
trust, and responsibilities and regarding potential concerns or 
barriers to raising issues with flight safety or crew 
suitability for flight.
    Additionally, astronauts will be asked about policies and 
procedures dealing with astronaut performance and feedback, 
crew assignment, and space flight alcohol use. NASA will then 
develop a plan to address any issues identified by the survey 
report, a course of action that the committee indicated they 
intended as NASA's response.
    In conclusion, I am extremely proud to represent the 
Astronaut Office, both within NASA and externally to Members of 
this committee, to the media, and to the public. Our astronauts 
are well prepared to carry out the Nation's Human Space Flight 
Program. They take their responsibility very seriously.
    The same can be said of the entire NASA team that prepares 
and executes human space flight missions. The real proof of 
that lies in the tremendous accomplishments of our Human Space 
Flight Programs, accomplishments made possible by the dedicated 
people at NASA; our engineers, flight controllers, scientists, 
doctors, and astronauts.
    I would be happy to respond to any questions.
    [The prepared statement of Dr. Ochoa follows:]

                   Prepared Statement of Ellen Ochoa

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the Astronaut Health 
Care System Review Committee report. I have the privilege of managing 
the organization that includes the Astronaut Office and the Aircraft 
Operations Division at the NASA Johnson Space Center in Houston, Texas. 
Prior to becoming Director of Flight Crew Operations one year ago, and 
serving as Deputy Director for four years before that, I was a member 
of the astronaut office for 12 years, and was fortunate enough to fly 
on four Space Shuttle missions.
    The NASA Astronaut Office is made up of very talented and motivated 
people, who--after years of hard work, exceptional achievement in 
science and engineering education, and dedication to excellence in 
their careers--joined the corps through a rigorous and highly 
competitive selection process. Selection as an astronaut candidate is 
followed by years of intense preparation, including many types of 
training as well as work in support of all phases of the development 
and operations of NASA's human space flight programs. In my experience, 
astronauts prepare thoroughly and uncompromisingly for their missions. 
One of my crew mates compared it to preparing for the Olympics: every 
act that you do every day is designed to make sure that you are at your 
peak both mentally and physically when you launch into space. But at 
NASA, we hold our equivalent of the Olympics every few months, every 
time we launch a crew into space.
    About 10 years ago, as we began assembly of the International Space 
Station (ISS), it became clear that astronaut preparation needed to be 
raised to a new level in order to accommodate the increased complexity 
and difficulty of our new mission: establishing and maintaining a 
permanent human presence in space. Both Shuttle missions to the 
Station, which can be thought of as ``sprints,'' and the ``marathon'' 
long-duration stays on-board ISS, brought new challenges. Along with 
the Mission Operations Directorate--whose job is to ``plan, train, and 
fly'' missions--and the Space Life Sciences Directorate--who ensures 
the crew's health before, during, and after flight--the Flight Crew 
Operations Directorate developed new procedures, processes, training, 
evaluation methods, and fitness standards to meet the challenge of 
successfully assembling and operating the ISS. These processes and 
tools have evolved over the past decade, and have served us well in 
preparing the corps for the rigors of space operations.

Astronaut Training and Evaluation

    Standards for fitness for duty and for flight assignment are 
determined, measured, and documented using a number of processes and 
tools. Formal training, which is subject to both qualitative and 
quantitative evaluation, is accomplished by each astronaut in many 
different fields. Most of the training is conducted by the Space Flight 
Training Division within the Mission Operations Directorate at the 
Johnson Space Center. Comments and evaluations by instructors about 
each astronaut are documented in every phase of training and included 
in each astronaut's personnel file. These training records are 
accessible by the individual astronaut, and reviewed by the astronaut's 
branch chief, and the Chief of the Astronaut Office.
    The main areas of training include the following:

         Space Shuttle Systems and Operations, International Space 
        Station System and Operations (including all International 
        Partners' systems), and Crew Resource Management training 
        ranges from tests of basic systems knowledge, to life-like 
        simulations that test a crew's ability to work together to 
        solve challenging failure scenarios.

         Robotics (including the Shuttle 6-joint arm, the ISS 7-joint 
        arm and new robotic arms from Japan and Europe), Spacewalking 
        (which we refer to as Extra-vehicular Activity or EVA), and 
        Rendezvous training follow formal curricula objectives; 
        quantitative evaluations of astronauts during qualification 
        simulations are documented in a database as part of the 
        training records.

         Aircraft training, including periodic check flights, prepares 
        all astronauts for the high-stress, multi-task space 
        environment, and Shuttle commanders and pilots receive detailed 
        feedback on the hundreds of simulated Shuttle landing 
        approaches that they fly.

         Expedition Interpersonal Training is a program conducted by 
        the Astronaut Office to provide an in-depth awareness of issues 
        that may develop in an isolated and confined environment, such 
        as during an extended stay on the ISS. Training includes 
        workshops, outdoor team building and supervised leadership 
        courses, and missions in extreme environments such as an 
        undersea facility that place astronauts in the most realistic 
        space analog environment available. These operational 
        opportunities are integrated into the astronaut training 
        program and used to provide feedback both to the astronauts and 
        to astronaut management.

         NASA also conducts various other types of training, such as 
        Russian language training. Like the operational training 
        discussed above, astronauts are rated and their evaluations are 
        provided to each crew member and the Chief of the Astronaut 
        Office on a periodic basis.

    Other processes that NASA uses to prepare and evaluate astronauts 
include the following:

         The Space Shuttle Instructor Astronaut Program provides 
        standardization and evaluation of astronaut candidate training, 
        continuing currency training (with a special emphasis on 
        robotics and EVA), and assigned crew training. This program 
        also reinforces an environment in which mentoring and knowledge 
        sharing thrive.

         The Commander Upgrade Program prepares mission commanders to 
        manage crew and mission issues pre-flight, during flight, and 
        post-flight. This program has been implemented for all Shuttle 
        commanders since 2000; NASA plans to implement a formal program 
        for ISS commanders to support the six-person crews that will 
        start in 2009.

         The Astronaut Evaluation Board is periodically convened by the 
        Astronaut Office to review astronauts completing flight 
        assignments, astronaut candidate training, or other astronauts 
        recommended for review. The purpose of the Astronaut Evaluation 
        Board is to determine the flight status of each astronaut, to 
        decide upon corrective actions if necessary, and to pass 
        recommendations of flight status and corrective actions to the 
        Chief, Astronaut Office for final disposition. Astronauts who 
        have been reviewed by the board are debriefed by the Chief of 
        the Astronaut Office, and the results are documented in their 
        personnel file.

         Mission performance feedback is provided by Commanders to each 
        crew member after completion of a space mission. This personnel 
        information on each crew member's performance includes 
        strengths and any areas for improvement. Suggested areas of 
        feedback include interpersonal interactions, knowledge base, 
        attitude and work ethic, skills, and ability to balance 
        technical assignments with training.

Flight Assignments

    All of the policies, processes, and feedback described above are 
used by the Chief of the Astronaut Office in the flight assignment 
recommendation process. A particular crew assignment is based foremost 
on the specific mission requirements, and crew members are recommended 
based on their performance during training, systems knowledge and their 
ability to apply it in an operational environment, previous flight 
performance, effectiveness in technical job assignments, and 
assessments of leadership capability, teamwork, and judgment.
    Other factors considered in flight assignment include international 
partner agreements, skill mix, appropriate mix of veteran and rookie 
crew members, anthropometric constraints due to EVA suit and vehicle 
sizing, and medical eligibility.

Medical Fitness for Flight and Duty

    As noted in Dr. Williams' testimony, medical standards for fitness 
for flight and fitness for duty are developed by the Space Medicine 
Division of the Space Life Sciences Directorate at the NASA Johnson 
Space Center, in concert with experts in various medical fields 
internal and external to NASA. The standards are reviewed and approved 
at several levels, and are used by the Flight Medicine Clinic and 
Aerospace Medicine Board to make certification decisions. Certification 
results are reported to the Astronaut Office in weekly and monthly 
reports.
    Astronaut medical issues affecting flight status for aircraft, and 
short and long duration space flight are also addressed during biweekly 
meetings between the Chief of the Astronaut Office and the Chief of the 
Space Medicine Division. Any medical issues that affect a member of an 
assigned crew are also coordinated with me and the Director of Space 
Life Sciences.
    The communication and relationship between Flight Crew Operations 
and the Space Medicine community is strong and effective, allowing NASA 
to effectively address concerns regarding safety and crew health. 
Flight surgeons are aware of their responsibility to assure that an 
astronaut's health or behavior does not present a risk to themselves or 
the mission, and the Flight Crew Operations management, as well as 
NASA's leadership, support their efforts to do so. Medical issues that 
arise immediately pre-flight or in-flight are discussed among 
operational, medical, and astronaut management on a need-to-know basis, 
giving due consideration to privacy, crew member health and safety, and 
mission impact. NASA currently employs a system for reporting any 
situation requiring attention that may impact safety of flight that 
utilizes multiple and independent technical authority pathways outside 
of the flight program management to elevate and resolve concerns. 
Similar to the independent technical authority chain of command that 
deals with any technical issues related to flight safety, the agency 
governance structure provides a path for dissenting opinions to be 
raised through the Health and Medical Technical Authority chain of 
command. Additional program independent pathways for elevating concerns 
include the Johnson Space Center Safety and Mission Assurance Director 
or Center Director, the Center Ombuds, or to NASA Headquarters via the 
Chief Safety and Mission Assurance Officer, Bryan O'Connor. This 
governance structure is often reiterated to our employees and we have 
again re-emphasized these pathways to our astronauts and flight 
surgeons.
    The flight crews are very fortunate to have a group of flight 
surgeons who are not only excellent physicians, but who understand the 
training and operational environment of an astronaut and the 
implications of that environment to astronaut health. The flight 
surgeons are tireless in their efforts to obtain the best possible care 
for an astronaut, during training anywhere in the world as well as in 
space, and they work long hours to ensure that any issue is thoroughly 
addressed. They are dedicated to maintaining or returning astronauts to 
flight status when at all possible, keeping within the medical 
standards that protect astronaut health and mission success.

NASA's Response to the Astronaut Health Care Review Committee Report

    Following the events of last February, Johnson Space Center 
conducted an internal assessment to review and recommend changes to 
astronaut behavioral health screening and assessment, and NASA 
Headquarters chartered an Astronaut Health Care Review Committee in 
order to more broadly review astronaut medical care, including 
behavioral health. There were some recommendations common to both 
reviews, including adding a behavioral health assessment as part of the 
annual astronaut physical examination. In addition, the Health Care 
Review Committee made a number of suggestions concerning behavioral 
health care, which are being followed up on by the Space Medicine 
Division.
    While those recommendations were the focus of the review and the 
report, the report also included a number of comments related to 
astronaut office behavior and processes, based on meetings between some 
Committee members and some astronauts, astronaut dependents, and flight 
surgeons. The Committee did not attempt to determine the veracity of 
any statement, nor was there any request for information on astronaut 
office processes, procedures, policy, or anything that could be broadly 
characterized as astronaut office culture.
    In response to the Committee report, NASA has taken decisive steps. 
As Bryan O'Connor has already testified, his thorough investigation 
confirmed my own personal experience as both a crew member and a 
manager of flight crew: we have found no instance where astronauts have 
used alcohol in the immediate pre-flight period, no instances of 
astronauts being under the effects or influence of alcohol at launch, 
and no case where a flight surgeon or astronaut has raised a concern 
about this to management, and, therefore, in no case was that concern 
ignored. To ensure that there is no future question regarding use of 
alcohol, I have taken the opportunity to clarify our space flight 
alcohol policy, and, based on Bryan O'Connor's review, will determine 
whether any revision or expansion of the policy is warranted.
    NASA has also responded to the Committee's report by developing a 
systematic, comprehensive, and anonymous survey to determine what, if 
any, issues actually exist, which will be provided to the Astronaut 
Corps and flight surgeons later this month. Both astronauts and flight 
surgeons will be asked to respond to questions probing the relationship 
between the two groups and their respective managers as determined by 
level and quality of communication, trust, and clarity of 
responsibilities and authorities. Another objective is to understand 
any potential concerns in raising or responding to issues with flight 
safety or crew suitability for flight or any barriers that might exist 
to raising concerns. Additionally, astronauts will be asked about their 
understanding of and suggested changes or clarifications to policies 
and procedures dealing with astronaut performance and feedback, crew 
assignment, and space flight alcohol use. After a preliminary analysis 
of the survey responses has been conducted, the Chief of the Astronaut 
Office will hold astronaut all-hands meetings to clarify and validate 
the analysis in preparation for a final report. NASA will then develop 
a plan to address any issues identified through the survey. This is a 
course of action that the committee itself has indicated they intended 
as NASA's response to their report.
    I am committed to understanding and addressing any issues that are 
identified by the survey, as are the Chief of the Astronaut Office, 
Steve Lindsey, the Chief of the Space Medicine Division, Dr. Mike 
Duncan, and the Director of Space Life Sciences, Dr. Jeff Davis. We are 
fully accountable to the Director of Johnson Space Center, Mike Coats, 
who in turn is accountable to the NASA Administrator. We will 
accomplish this while appropriately balancing these efforts with our 
primary duties of ensuring mission success and safety of round-the-
clock flight operations on-board the ISS Program, and the planning and 
execution of the challenging Space Shuttle missions to complete the 
assembly of ISS.

Conclusion

    I am extremely proud to represent the Astronaut Office, both within 
NASA at many different agency and program forums including flight 
readiness reviews and mission management team meetings, as well as 
externally--to the Members of this committee, to the media, and to the 
public. I admire and respect what America's astronauts accomplish day 
in and day out, while in space, in the air, and on the ground. Their 
hard work, dedication, and continual commitment to excellence and 
flight safety are the hallmarks of their profession.
    I am confident that our astronauts are well-prepared to carry out 
the Nation's human space flight program and our next great era of 
Exploration; they take their responsibility very seriously. The same 
can be said of the entire NASA team that prepares and executes human 
space flight missions. The real proof of that lies in the tremendous 
accomplishments of our human space flight programs.
    We just successfully completed STS-118, our 119th Shuttle mission, 
and the 22nd Shuttle mission to the ISS. Through 92 EVAs totaling 548 
hours, we have learned to successfully construct complex structures, 
and repair and maintain them, even when the individual parts have been 
built and tested in several different countries with no opportunity to 
do end-to-end tests prior to launch. A total of 13 countries have sent 
140 people to the ISS. With the European and Japanese laboratories 
scheduled to launch in the near future, international cooperation will 
extend beyond the operational communities to the science communities. 
We are able to accomplish these extraordinary feats because of the 
extraordinary people at NASA, our engineers, flight controllers, 
scientists, doctors, and our astronauts.
    I would be happy to respond to any questions that you have.

    Chairman Udall. Thank you, Dr. Ochoa.
    Mr. O'Connor.

 STATEMENT OF MR. BRYAN D. O'CONNOR, CHIEF, SAFETY AND MISSION 
    ASSURANCE, NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. O'Connor. Mr. Chairman, Members of the Subcommittee and 
the Committee, thank you for this opportunity to address you on 
the subject of space flight crew safety.
    As NASA's Chief of Safety and Mission Assurance, I report 
directly to our Administrator on matters dealing with ground 
safety and flight safety, and I also have policy and functional 
oversight responsibility for this agency, for the safety 
organizations assigned to each of the centers across the 
agency. My organizational relationships with flight crew 
operations and with the Chief Health and Medical Officer are 
included in my written remarks.
    In its final report dated 27-July-2007, the Astronaut 
Health Care System Review Committee found the following: 
``Interviews with flight surgeons and astronauts identified 
episodes of heavy use of alcohol by astronauts in the immediate 
pre-flight period which led to flight safety concerns. Two 
specific instances were described where astronauts had been so 
intoxicated prior to flight that flight surgeons and or fellow 
astronauts raised concerns to local, on-scene leadership 
regarding flight safety. However, the individuals were still 
permitted to fly.''
    In response, the Deputy Administrator appointed me to 
review the reported allegations. The purpose of my review is 
two-fold. Number one, evaluate the committee's finding related 
to the inappropriate use of or abuse of alcohol by astronauts 
in the immediate pre-flight space flight period. And two, 
evaluate relevant existing policies covering alcohol use and 
abuse at NASA.
    My approach to the review was to learn as much as I could 
about the reported allegations through interviews, data 
searches, and history review. The goal here was to establish 
the nature and the scope of any flight crew alcohol abuse, thus 
enabling a more informed course of action in our policies, 
procedures, risk mitigation strategies, our authority 
structure, and communication systems.
    The scope of my review was limited to space flight, with 
focus on the activities on launch day from crew wake up until 
launch. For this potential flight safety issue, the relevant 
question was, did we have an instance where a crew member 
presented on launch morning in an impaired state, was it 
observed as such by the flight surgeon or another crew member, 
and then over their objections was cleared to fly that day by 
operational management?
    Consistent with our standard approach to anonymous safety 
concerns, my investigative method included a search of over 
1,500 anonymous reporting system and confidential hotline 
reports going back to 1987, when we first established the NASA 
Safety Reporting System. And with the help of the NASA Safety 
Center we searched literally tens of thousands of mishap and 
close call records going back that same length of time. I 
received inputs by phone, e-mail, in person, from over 130 
individuals who have been involved one way or another in 
activities during the last few days before launch, either at 
the Kennedy Space Center or at the Baikonur Cosmodrome in 
Kazakhstan. I heard from every one of our current operational 
flight surgeons and nearly 80 percent of the current Astronaut 
Corps and many former astronauts.
    I also talked to suit technicians, medical staff, 
operational managers, crew quarters managers, food preparation 
and service staff, and closeout crew technicians. The closeout 
crew are the last people to see the crew before launch.
    To supplement this review I reminded members of the flight 
community at all times that they should use the hotlines and 
the NASA Safety Reporting System for any flight safety 
information they felt reluctant to provide to me in an open 
forum, and I reviewed those hotlines and NSRS System 
throughout.
    Also, NASA's preparing a focused anonymous survey as a 
follow up to this. This survey will try to flush out any 
residual concerns in this or other areas covered by the 
committee report.
    Within the scope and the limitations of my review, I was 
not able to verify any case in which an astronaut space flight 
crew member was impaired on launch day or any case where a NASA 
manager disregarded recommendations by a flight surgeon or 
another crew member that an astronaut crew member not be 
allowed to fly on the Shuttle or the Soyuz. Should such a 
situation present itself in the future, I am confident from my 
review that there are reasonable safeguards in place, including 
such things as the flight surgeon check that morning, the 
presence of flight crew managers, TV cameras, suit technicians, 
and other technical and administrative staff and supervisors 
that would keep us from ever allowing an impaired crew member 
from boarding a spacecraft.
    As for the chance that we will disregard a flight surgeon 
or a crew member's safety concerns, I found that although there 
may be occasional disagreements among operations and medical 
team members, all parties understood their roles and 
authorities and the multiple safety reporting and appeal paths 
we have put in place, some as late as the last two years.
    My report makes one recommendation to improve flight 
surgeon oversight during launch day activities and several 
recommendations concerning relevant agency policies that should 
be improved for scope and clarity. This review is complete, but 
I have reminded our workforce that any alcohol abuse or other 
flight safety threats should be reported in an open forum or if 
necessary, through any one of the several anonymous reporting 
systems we have in place at NASA.
    Thank you.
    [The prepared statement of Mr. O'Connor follows:]

                Prepared Statement of Bryan D. O'Connor

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to address the Subcommittee on the subject of flight crew 
safety.
    My name is Bryan O'Connor, NASA's Chief, Safety and Mission 
Assurance. I report directly to Dr. Griffin on matters dealing with 
ground and flight safety, and I have policy and functional oversight 
responsibility for the safety organizations assigned to each of the 
Centers across the Agency, as well as to all Agency programs. My 
counterpart for health and medical matters is Dr. Rich Williams, NASA's 
Chief Health and Medical Officer, as well as the Agency's Designated 
Safety and Health Official. He has policy and functional oversight over 
of all health and medical activities at NASA. We both have oversight of 
astronaut-related activities; my emphasis is on safety and his is on 
health. I have a close relationship with the Johnson Space Center 
Director, Mike Coats, who is responsible for the health and safety of 
the astronauts. We and our delegates all share seats at readiness 
reviews and management councils as the agendas dictate. I have no 
direct oversight over health or behavioral issues except as they become 
or threaten to become safety issues. We ensure that appropriate safety 
and medical experts are members of human experimentation safety 
reviews, and we require medical or human factors professionals on all 
of our mishap investigation boards. Finally, following a recommendation 
from the Challenger accident, there is a standing flight safety panel 
chaired by an experienced astronaut who supports my human space flight 
activities, including selected assessments and readiness reviews.
    There are several high level directives outlining NASA's health and 
safety programs, the highest being NPD 8710.2, NASA Safety and Health 
Program. Below that policy directive are other policy documents that 
outline responsibilities and contain requirements and standards for our 
programs. Examples are directives on occupational health and safety, 
emergency preparedness, and mishap reporting. Under our program 
management policies is the NASA Human Rating Requirements directive. 
All of these directives outline responsibilities for people in 
operations, medical and safety organizations. My organization has the 
authority to assure compliance with these policies and requirements. 
When we conduct audits, we always include appropriate operational and 
medical professionals to evaluate compliance with requirements in their 
areas of expertise.

The Astronaut Health Care System Review Committee Report

    In its final report, dated 27 July, 2007, the Astronaut Health Care 
System Review Committee found the following: ``Interviews with flight 
surgeons and astronauts identified episodes of heavy use of alcohol by 
astronauts in the immediate pre-flight period, which has led to flight 
safety concerns.'' Specifically, the report noted that ``Two specific 
instances were described where astronauts had been so intoxicated prior 
to flight that flight surgeons and or fellow astronauts raised concerns 
to local on-scene leadership regarding flight safety. However, the 
individuals were still permitted to fly.'' The report findings, if 
true, describe a serious close call. NASA takes this matter very 
seriously as it represents a threat to our mission, and is a clear 
affront to NASA's core values of safety, integrity, teamwork and 
mission success. To address this potentially serious safety risk, NASA 
decided that a review of the events and circumstances was required. The 
Deputy Administrator chartered me to conduct a review that would 
evaluate the Committee's finding related to the inappropriate use or 
abuse of alcohol by astronauts in the immediate pre-flight period. My 
charter further calls for a review of existing policies and procedures 
related to alcohol use and space flight crew medical fitness during the 
immediate pre-flight preparation.
    The Committee report offered three recommendations related to their 
alcohol abuse finding which cover policies dealing with alcohol use and 
abuse as well as communication management of safety concerns by crew 
members and flight surgeons. My approach to the review was to learn as 
much as I could about the reported allegations in order to establish 
the nature and scope of any flight-day impairment and subsequent 
override of legitimate flight surgeon or crew objections. This would 
enable a more informed course of action in our policies, procedures, 
risk mitigation strategies and communications systems. This review 
would be supplemented by ongoing safety and health actions responsive 
to other parts of the Committee report, an anonymous survey being 
prepared for distribution in September, as well as the several open and 
anonymous safety reporting systems already in place.

Scope and Method

    Consistent with the serious implications of the Committee's report, 
my focus was on alcohol use or abuse that would have resulted in 
impairment on the day of launch. Equally important in my review was the 
reported disregard by management for the flight surgeon's or crew's 
recommendation against flight. I did not review alcohol use in general 
or as an aircraft safety issue, although I did review relevant policies 
to ensure that they are or will be consistent for space flight, 
aircraft flying and other mission critical activities. My question was, 
``did we actually have a case where we strapped, or almost strapped, an 
impaired astronaut into a spacecraft over the objections of his or her 
flight surgeon, and if so, how did we get to that point, and what 
policies, procedures, risk mitigators do we need to change to avoid 
such an event in the future?''
    The Committee Chairman provided a few important details about these 
incidents in his press conference, and a subsequent discussion with me, 
but he was unable to give us more information, references, timelines or 
sources for the reported allegations due to promised anonymity for 
witnesses. Therefore, I resorted to investigation techniques consistent 
with our other anonymous reporting systems. I reviewed relevant 
policies, procedures and near-launch timelines and staffing. I 
inspected the crew quarters facilities at both Johnson and Kennedy 
Space Centers, and interviewed managers familiar with the Cosmonaut 
crew quarters in Kazakhstan. I reviewed results from the Johnson Space 
Center and Space Shuttle Program hotlines, the NASA Safety Reporting 
System (NSRS), and NASA's close call and mishap reporting systems for 
evidence related to astronaut alcohol abuse and space or aircraft 
flight. My data search went back 20 years, a time-span where U.S. 
astronauts flew 94 Shuttle missions and 10 Soyuz missions.
    I also reached out to people who spent time as crew members or in 
support roles in the crew quarters at the Kennedy Space Center and the 
Baikonur Cosmodrome in Kazakhstan. This included current and former 
astronauts, flight surgeons, research and operations support nurses, 
Shuttle suit technicians, close-out-crew technicians, and the managers 
and staff of the crew (quarantine) quarters. I asked them to volunteer 
any information they could give me about this matter. Consistent with 
safety investigation techniques, I avoided leading questions, and 
medical privacy matters not directly related to flight safety, allowing 
the individuals to give me whatever information they considered 
relevant. I heard from more than 90 individuals representing all of the 
groups mentioned. Although I received a good response, there are, 
understandably, still some who might be reluctant to come forward 
without a guarantee of anonymity. Therefore, I made it clear to all 
possible witnesses that they could use the confidential hotline or the 
anonymous NASA Safety Reporting System to tell me their story. In 
summary, this was a safety review, not a disciplinary investigation. 
The NASA Inspector General has announced his intent to review the 
results of this review, and if necessary to follow as appropriate to 
his authority and oversight responsibilities.

Results

    The results of my inquiry and data search to date are as follows:

        1.  Alcohol, mostly wine and beer, is available in the crew 
        quarters quarantine facilities for use by astronauts during 
        off-duty hours. This practice exists under a combination of 
        societal norms and local standard operating procedures.

        2.  Of the thousands of government mishaps and close calls 
        recorded since the inception of our electronic mishap databases 
        in the late 80s and early 90s, none involved alcohol or drug 
        use or abuse by an astronaut.

        3.  Of the 680 anonymous safety concerns reported to and 
        investigated by the NASA Safety Reporting System since its 
        inception in 1987, none involved astronaut alcohol or drug use 
        or abuse.

        4.  Of the 863 Safety Hotline reports recorded since its 
        inception in 1991 to the present, none involves alcohol or drug 
        use or abuse by an astronaut.

        5.  Although Johnson Space Center does not reveal the 
        identities of personnel involved in disciplinary actions, the 
        most recent report to OSHA covering the years 2002 through 2006 
        includes a total of seven such actions related to alcohol or 
        drugs at the center. Informal input from Flight Crew Operations 
        was that none of these involved astronauts.

        6.  Of the more than 90 individuals who answered my call for 
        information, not one offered any evidence of alcohol use or 
        abuse in the immediate pre-flight timeframe: Shuttle, Soyuz, or 
        T-38, and none revealed any cases where management disregarded 
        flight surgeon or crew concerns about crew alcohol and space 
        flight.

        7.  Regarding relevant policy, there are some gaps in scope, 
        and some areas in need of clarification.

    My review revealed that, although alcohol is available to crew 
members, it is not known to be used during work hours or beyond the 
start of the mandatory sleep period, which begins at about 18 hours 
prior to launch for rendezvous missions (i.e., Space Station), and 12 
hours before launch for other missions. Most people involved in the day 
of launch activities in crew quarters found it hard to imagine that a 
crew member would put his/her mission and fellow crew members at risk 
by reporting on the day of launch impaired for space flight. Crew 
members reminded me that each one of them must be fit enough for an 
unaided emergency pad egress should there be a fire or other major 
emergency before liftoff. They practice this drill in the simulator and 
in the actual vehicle in the Terminal Countdown Demonstration Test 
normally held a couple of weeks before scheduled launch. Even a few 
seconds delay in unstrapping and egressing from the Shuttle could cost 
lives, and executing this demanding task while wearing heavy flight 
equipment takes the speed, coordination, judgment, and situational 
awareness that only exist in a sober crew member.
    Then there is the lack of privacy. From the time the crew wakes on 
launch morning until they lift off, they are surrounded by crew 
members, managers, support crew, television crews, still photographers, 
crew quarters staff, etc. Breakfast, the first scheduled event, 
normally half a hour after wakeup, is in a room shared by their 
managers and other crew members. Shortly after breakfast, each crew 
member receives a short final visit from the flight surgeon. Although 
this last medical checkup is limited, the doctors tell me that it is 
adequate to reveal signs of alcohol impairment. Lunch is in front of 
live television cameras and, after lunch, the live television cameras 
are there for close-ups as the suit technicians, one per crew member, 
work closely with them through donning and system integrity checks. The 
doctors observe this activity as well. Walkout to the Astrovan is on 
live television and, when they reach the launch pad, the Close Out Crew 
helps the crew members don their parachute harnesses and strap them 
into their seats. These highly supervised, very public activities offer 
many opportunities to spot an impaired crew member, whether from 
alcohol or some other sudden medical problem, before their impairment 
could affect the mission. Finally, the crew commanders know that they 
are responsible for the performance of their crew in the training and 
flight environment. They know that thousands of people and millions of 
dollars are involved in getting a Space Shuttle to this point in the 
countdown, and they know the challenges and risks inherent in space 
flight. They know that if one of their crew members reported for work 
on launch morning impaired by alcohol, and a crew commander failed to 
report that and take other appropriate actions, that they would be held 
accountable nearly as much as the offending crew member.
    The operation in Kazakhstan is similar to that at Kennedy Space 
Center, with some small differences. The crew members typically go to 
the Cosmonaut Hotel for quarantine two to three weeks before launch. 
Again, alcohol is available for off-duty hours, and there is a special 
ceremony held before the crew goes to the launch pad that involves a 
champagne toast. Those who have participated in this event told me that 
the amount of alcohol is very small, and most of the time, the crew 
members, Russian and American, only touch the glass to their lips. NASA 
flight surgeons did not express any concern to me about this ritual, 
even though it does violate the letter of most aviation alcohol 
policies. Another important difference in the Soyuz operation is that 
either the Russian or the U.S. flight surgeon has the authority to pull 
an impaired crew member from the flight up to and including launch 
morning. The Soyuz crews have fully trained backups for just such 
emergencies. One area of concern was that there is not always a room 
for the NASA flight crew management representative, who must then live 
across the street with the crew families in another building. This 
could limit crew management presence in off hours. My report recommends 
that NASA work with the Russian Space Agency to ensure full time 
accommodation for crew operational manager(s) in the Cosmonaut Hotel, 
thus duplicating the full time oversight situation at KSC.
    As for T-38 and other aircraft flight activities, astronaut pilots 
come to NASA only after years of operational and flight test 
experience. Any pilot with a prior record of poor judgment would not be 
competitive in the selection process. So, it is commonly expected that 
those selected for the Astronaut Corps have a reasonable level of 
maturity as well as flying skill. They are trusted implicitly to fly 
professionally, and the relatively low mishap rate of NASA T-38 
operations speaks to that (no class A mishaps in over 20 years and 
nearly 160,000 flying hours). Technically, it would not be difficult 
for a crew member to drink and fly impaired, especially when he or she 
is flying solo cross country. NASA's T-38 policy calls for 12 hours 
between the last drink and takeoff, and prohibits flying impaired. 
Also, most NASA astronaut T-38 pilots are active duty military 
detailees, and thus subject to the Uniform Code of Military Justice. 
They know that flying impaired, or acting in any manner unbecoming an 
officer on or off the job could be the first step to a court-martial. 
Having said that, some whom I interviewed admitted that it is possible 
that someone could have inadvertently violated the 12 hour rule by a 
small amount at some time in their military or NASA flying career 
(note: the FAA imposes an eight-hour restriction on airline pilots). 
However, none of them admitted to ever violating or witnessing a 
violation of what is arguably the more important part of any alcohol 
policy--that flying while impaired is prohibited.
    As I looked at our policies regarding alcohol and flight, I found 
several areas where they conflict with one another, or are lacking in 
scope, specificity or clarity. For example, shortly after the Committee 
report was published, we realized that there is no specific ``bottle to 
throttle'' rule for space flight, as had been in place for many years 
for T-38 operations. As an interim step, and while we review all our 
policies and procedures in this area, we have since applied the T-38 
rules to space flight.

Summary

    Although my review by nature was not, and probably could never be, 
exhaustive, it represents a great deal more investigation than what I 
would normally do in response to an anonymous safety concern. I 
received over 80 percent participation of the astronaut and 100 percent 
participation of the flight surgeon communities. These are high 
percentages of survey participation, considering the substantial 
numbers who were engaged in the recent Shuttle mission, training in all 
corners of the globe, or on summer leave.
    I cannot say conclusively that none of the incidents reported to 
the Committee ever happened. However, I was unable to verify that they 
did. I am confident that there are enough safeguards in the form of 
doctors, managers, and witnesses in place to prevent an impaired crew 
member from being strapped into a spacecraft. As for the relationships 
among flight crews, flight surgeons and operations and medical 
managers, I found as good a situation as I personally have seen in many 
years. The flight docs point with pride to the fact that, in over 25 
years of Space Shuttle operations, including 119 Shuttle flights, not 
one has had to be terminated early for a crew medical problem. Although 
there may be occasional disagreements, I found that all parties 
understand their roles and authorities and the multiple safety 
reporting and appeal paths. Some or all of the reported incidents could 
possibly have happened during earlier times in the countdown where 
there are fewer witnesses and, if so, they would represent ground 
safety and flight schedule threats. Moreover, disregarding duly 
assigned flight surgeons on crew health matters is a serious matter, 
but the flight surgeon community was unanimous in their assurance that 
they have never been overruled or disregarded on a space flight safety 
call at launch time. This review was a focused look at the most serious 
implications of the Committee report. We will continue to monitor our 
anonymous reporting and other systems for indications of these kinds of 
problems. And, the safety community will continue to support the agency 
as it moves forward on the Health Committee's recommendations.
    I will be happy to answer any questions you may have.

                               Discussion

    Chairman Udall. Thank you, Mr. O'Connor. Thank you to the 
panel. We should give everybody an update. We have a looming 
set of votes, but we are going to start now with the first 
round of questions, and we will play it by ear because we do 
really want to hear from everybody on the panel and give 
everybody a chance to ask their questions.
    At this point the Chair recognizes himself for five 
minutes.

     Contrasting Views and Findings From the Astronaut Health Care 
                        System Review Committee

    Colonel Bachmann, I would like to focus on your testimony, 
and I speak for myself, although I think I might speak for 
other Members of the Subcommittee when I say it is hard for us 
to hear your testimony followed by that of the NASA witnesses 
and not be somewhat troubled. On the one hand your committee 
found that, quoting you, ``Several senior flight surgeons 
expressed their belief that their medical opinions regarding 
astronaut fitness for duty, flight safety, and mission 
accomplishments were not valued by leadership other than to 
validate that all medical systems were go for an on-time 
mission completion.''
    And to continue, ``Instances were described where major 
crew medical or behavioral problems were identified to 
astronaut leadership, and the medical advice was disregarded.''
    And finally, your testimony and your committee relayed the 
following. ``Crew members raised concerns regarding substandard 
astronaut task performance which were similarly disregarded.'' 
I then contrast that with Mr. O'Connor's space flight safety 
review report in which he includes an e-mail letter from all of 
the JSC mission operations flight surgeons in which they state, 
``In the course of astronaut mission, operations, and training 
our safety and medical concerns have not been ignored by NASA 
medical operations, the Astronaut Office, Mission Operations 
Directorate, the Aircraft Operations Directorate, NISS, and 
Shuttle Program Management.''
    And then with Dr. Ochoa's written testimony which states 
that, ``The communication and relationship between flight crew 
operations and the space medicine community is strong and 
effective, allowing NASA to effectively address concerns 
regarding safety and crew health.''
    To pick up on what Chairman Gordon said in his remarks, it 
almost seems as though we are hearing about two completely 
different organizations. Why did your committee paint such a 
different picture than the one that NASA personnel is 
describing to the Subcommittee? And could you provide some 
specifics to help us better understand the basis for your 
committee's findings?
    Colonel Bachmann. Yes, sir, and I agree that the pictures 
that are painted by the two reports are diametrically in 
opposition.
    Any answer about why would be speculation on my part. What 
the committee gathered together and wrote in the report and 
unanimously supports is what the astronauts and flight surgeons 
told us either face to face or over the phone during the course 
of our committee investigation, evaluation.
    The fact that they are not coming forward with similar 
concerns when NASA asks the question, I believe still 
represents a problem. The why I think is an area of 
communication and concern about what is going to happen to them 
and what is going to be done with the information. That is why 
we really put a great deal of emphasis on the anonymous survey 
so that people feel that they can speak freely.
    Chairman Udall. Returning to your report, Colonel, ``Many 
of the cultural and structural issues identified in this 
report,'' I am again quoting from what your committee wrote, 
as--let me start over. ``Many of the cultural and structural 
issues identified in this report as problematic have existed 
for many years and some have existed since the earliest days of 
the astronaut programs. These issues are so engrained and 
longstanding that it will take senior leadership action to 
remediate them.''
    These are sobering words, and could you give me one or two 
examples of the cultural and structural issues your committee 
is talking about?
    Colonel Bachmann. Please keep in mind that the makeup of 
the committee was very diverse. We had military, flight 
surgeons, and health experts. We had civilians. All but one of 
the members of the committee had some military experience, but 
we did have a member from the VA, who did not. We are familiar 
with the military environment, behavior of highly-skilled, 
highly-professional, highly-selected groups of people that 
still have human issues. They still fall victim to all the same 
kinds of issues that we do. There are doctors and military 
pilots and airline pilots who have trouble with drinking 
alcohol when they shouldn't. We have behavior problems that 
come as a surprise to co-workers.
    And I think NASA is no different in that regard, and not to 
speak poorly of the Astronaut Corps, we think very highly of 
the astronauts, but we still remember that they are humans and 
fall victim to the same kinds of things we do.
    The issues of the kinds of behaviors that are described 
should not come as a surprise to anybody who deals with people. 
The concern for us was that they are--they seem to come as a 
surprise because NASA astronauts are so very good. It is still 
unreasonable to think that they won't have individuals that 
have problems with alcohol, that they won't have individuals 
have problems with marital relationships, with money, and they 
need to set up a system where they can identify folks that are 
straying from the path sooner and do something about it before 
it becomes a major issue.
    Chairman Udall. Thank you, Colonel Bachmann. I want to 
recognize the Ranking Member, Mr. Feeney, and I am hopeful we 
might also be able to recognize the Chairman of the Full 
Committee, Mr. Gordon before we have to go to the Floor to 
vote. We will recess the Committee temporarily.
    Mr. Feeney.

                Risks of Pre-flight Alcohol Consumption

    Mr. Feeney. Well, thank you, and I guess I am hesitant to 
ask what may be the silliest question of 2007, but Mr. 
O'Connor, just why would it be a great risk if an astronaut or 
astronauts had too much to drink before flight? I have been in 
the simulator. I know that the medical risks, for example, 
vomiting into your mask are important, but if the launch is 
successful, the truth of the matter is that it is all technical 
and computer-driven. It is actually the emergency landing that 
is a concern, and other than it being poor practice, are there 
other concerns with, because the Soviets do have this tradition 
where shortly before takeoff they have a toast and you outlined 
that it is basically just touching to the lips, but in any 
event, it may be a silly question, but what other threats other 
than vomiting or the inability for somebody to safely land if 
there is an emergency landing would there be if astronauts were 
drinking immediately prior to flight?
    Mr. O'Connor. Well, sir, let us say we had a crew of seven 
members getting ready to fly the Shuttle, and one of those 
members really didn't have much to do for the first three days 
of the mission. And then on day four they start working on some 
experiment. Even that crew member needs to be ready for an 
egress on the launch pad. Every single one of those crew 
members has to be able to convince their commander when they 
get onboard that they would be able to in emergency get out 
without assistance in case of an emergency on the launch pad, 
no matter what. And that really is the first challenge, I 
believe even before they light off the vehicle and launch, is 
to have a crew that is fit, and they have their minds in order, 
and they are not going to need to be pulled out of the cockpit 
by somebody else, putting the crew at risk.
    Mr. Feeney. Not to mention that if one of them were caught 
to be drinking, you would have to cancel the whole flight 
potentially if you didn't have anybody to step in.
    Mr. O'Connor. Well, that was part of my review was to look 
at that launch day. Is it possible that someone could actually 
wind up in the cockpit impaired? And if so, what sort of 
factors do we have in place to prevent that from happening? I 
found it really hard to imagine that you could get there, but 
let us say it wasn't alcohol. Let us say somebody fell down the 
stairs on their way to get suited up or banged their head into 
something or had a stroke, and they were perfectly fine the 
last time the flight surgeon looked at them. We still need to 
be able to look them in the eye, have the flight surgeon nearby 
even to the point where they walk out of the building, and I 
think that is one of the concerns that we had was that 
impairment by any means is something we want to prevent.
    And we would hold off a launch, just as we did on STS-36 
some years ago when the crew had a sick crew member. The flight 
surgeon went to management, said we got a sick crew member, 
management really didn't want to hear this. They were right in 
the middle of the launch countdown, and yet they had to agree 
the crew member was sick, let us know when he is ready to go, 
and we will launch. So he held off for two days.

                 Differences and Methods of the Reviews

    Mr. Feeney. I mean, Colonel Bachmann and Mr. O'Connor, on 
the much bigger issue, and that is whether there is still a 
cultural problem with the comfort of reporting safety, whether 
it is technical, and by the way, I was there when Mike Griffin 
recognized, a technician that recognized on the wing I think it 
was, maybe he will address it later, in front of God and 
country and the press and other NASA employees and 
administrators, he recognized somebody that was literally a 
hero because he was a technician and discovered a problem with 
the exterior or the wing.
    If that cultural change hasn't made its way to the medical 
area, that seems to be the crux of what this committee hearing 
is about.
    Colonel Bachmann, because of the process that he used, 
voluntary, anonymous witnesses, finds one set of consistent 
testimony, and he has got a very credible panel. Mr. O'Connor 
finds a very different set of availability of communications 
and independent communication avenues and finds that nobody is 
reluctant to come forward. Could this be a bias in sampling 
error? I mean, I remember the headlines, Dewey defeats Truman 
because the pollsters call only people that owned telephones at 
the time. You got 80 percent to participate, Mr. O'Connor. 
Could it be that the 20 percent that didn't were part of 
Colonel Bachmann's report? Could it be? And he suggested in his 
testimony, which was not in his written testimony, that it may 
be an indication that there is continued fear on the part of 
some.
    So maybe I ought to ask Mr. O'Connor that, because you have 
read his report. You had 80 percent compliance. Could we have a 
bias error here? Could we have people making false accusations 
to the Bachmann committee, or could we have people that 
participated in his committee different than the 80 percent 
that participated in yours? And that would be my last question.
    Mr. O'Connor. Well, sir, you have touched on several areas 
where there could have been differences. My review was 
conducted on a little bit different method. I put the word out 
to people that they can come and talk to me about whatever they 
feel comfortable about. I did not do, use any leading 
questions. I used standard safety investigation techniques.
    I have to say that I got a lot more participation in this 
than I have ever gotten on one of these before. There were over 
130 people who came forward or who answered my call 
specifically, because I did reach out to some people that were 
on certain missions that I wanted to make sure I have coverage 
of all the flights back through 1987. And so those weren't just 
people coming forward. It was me actually asking them to talk.
    So it was a little bit different method. I also tried to 
define flight safety in a way that everybody understood, meant 
no kidding, impaired crew member in the cockpit. That is a 
different story than maybe flight safety from a generic view 
might be.
    Chairman Udall. Mr. O'Connor, if I might interrupt you.
    Mr. O'Connor. Yes, sir.
    Chairman Udall. I want to make sure the Chairman given 
these pending votes has a chance to make any comments or ask 
any questions.
    So the Chair recognizes the Chairman of the Full Committee, 
Mr. Gordon.
    Chairman Gordon. Thank you, Chairman Udall. I will just 
make a quick--some observations.
    One, Mr. O'Connor, I am a little surprised that your review 
was so narrow that it was--that the charge was simply as you 
stated limited to alcohol use on the day of launches. I would 
have hoped it would have been a broader view.
    Dr. Ochoa, I am pleased that you are going to follow up 
there with this anonymous survey. I think that would be very 
helpful.
    Dr. Williams, I thought you had a very constructive 
testimony. I would like if you would, you said you were going 
to accept, had accepted and would accept most of the 
recommendations. If you would, please, if you would send to us 
a written statement on which recommendations you will not 
accept and why and what kind of reporting process you are going 
to have.
    [The information follows:]
                   Material Requested for the Record

       NASA Astronaut Health Care System Review Committee Report 
                            Recommendations

                           (October 5, 2007)

    NASA will address all the recommendations of the Astronaut Health 
Care System Review Committee Report, and will satisfy at least the 
spirit and intent of each recommendation. However, there are several 
health and medical recommendations that NASA will not implement as 
written for the reasons outlined below.

Recommendation 3.b.i.--Review flight surgeon task assignments and 
restructure where possible to enhance continuity of care. Consider 
empanelling each astronaut to a team of 2-3 flight surgeons who are 
responsible for providing or overseeing every episode of care, whether 
or not they are the assigned crew surgeon.

    NASA agrees that optimizing continuity of care is highly 
meritorious and reflects best practice. However, NASA does not believe 
empanelment is a solution that will be viable in the Agency's astronaut 
health care system. NASA flight surgeons are multi-tasked with 
activities that include: supporting astronaut training schedules; 
supporting deployed astronauts; providing health and medical support to 
ongoing International Space Station and Shuttle Program operations; 
participating in operational mission management activities; supporting 
the growing review board activities of the Constellation program; 
participating in simulations; supporting atmospheric flight operations; 
providing aeromedical certification services for astronauts, pilots, 
and flight controllers; and providing clinical care.
    While NASA believes empanelment would be impractical in this multi-
tasking practice setting, the Agency will review flight surgeon task 
assignments, including flight medicine clinic assignments, and identify 
any opportunities for task off-loading to enhance continuity of care.

Recommendation 6.a.i.--Develop privacy procedures that ensure that 
individual astronaut EMRs are viewable only on a strict need-to-know 
basis by those clinicians who are directly involved in relevant aspects 
of their care. Privacy policies should be consistent with civilian 
standards of practice and federal privacy laws.

    NASA's electronic medical records (EMR) system is in compliance 
with the Privacy Act of 1974 and is consistent with civilian methods of 
practice. NASA's current EMR system privacy policies are similar to 
those in use by the Department of Defense and the Department of 
Veterans Affairs. NASA infers from this recommendation that access to 
individual EMRs should be password protected, and that only certain 
directly involved providers be granted access. In most EMR systems, as 
in NASA's, all appropriately credentialed and privileged providers can 
access the system, which is password protected, and then are able to 
access all EMRs. If NASA were to strictly interpret the model outlined 
in the Review Committee's recommendation, there could be untoward 
patient safety implications in some circumstances, such as a need for 
an appropriately credentialed and privileged provider--without specific 
individual records authority--to access a patient's record in an urgent 
or emergency situation. Impeding provider access to important or 
critical information from the record in such a situation could result 
in a problematic clinical outcome. NASA recognizes the critical 
importance of maintaining privacy and patient confidentiality. We are 
confident that our current EMR system provides the appropriate levels 
of privacy protection, balanced with patient safety, and is consistent 
with federal privacy laws.

Recommendation 6.f.i.--All behavioral health providers should have 
access to the EMR. A patient seen in behavioral health should have the 
clinical contact recorded in the EMR, and an explicit aeromedical 
disposition should be made by a flight surgeon. The full behavioral 
health note does not need to be included in the EMR. The behavioral 
health provider can discuss the case by phone or in person with the 
flight surgeon.

    Behavioral health clinical contacts are recorded in the behavioral 
health records. NASA does not agree that all behavioral health episodes 
of care should be recorded in the EMR. We believe this could compromise 
privacy and serve as a disincentive for seeking behavioral health care. 
NASA does agree that behavioral health visits due to conditions that 
bear on a crew member's ability to perform their duties safely or that 
could impact a crew member's aeromedical certification should be 
recorded in the EMR, with appropriate aeromedical disposition. We also 
agree that the policy should be clarified to define the appropriate 
behavioral health information for documentation in the EMR. This will 
involve the development of inclusion criteria. NASA health and medical 
managers will coordinate the proposed criteria and policy with the 
Astronaut Office leadership.

    And finally, it seems that, and, again, Colonel Bachmann, 
you know, you have the most unpleasant job here. We thank you 
for that. It seems that you were looking at a broader issue 
with more anonymous reports, although anonymous face to face, 
not just over the, you know, where Mr. O'Connor was looking at 
a more narrow, on-the-record. So I think this can, might play 
some role there, and that is why I think Dr. Ochoa, your 
surveys would be helpful.

                         Scope of Investigation

    We are going to have to go, but I want to ask a question 
that I hope that you will answer when you come back, Mr. 
Bachmann. I quote, ``Peers and staff fear ostracism if they 
identify their own or other problems.'' That is a very 
troubling statement. What was your review panel's basis for 
making that statement, and how confident are you that it 
doesn't represent just the view of one or two malcontents, 
particularly in respect to the letter that came in from the 
various flight surgeons?
    And if you will think about that and answer that when we 
get back. Thank you, sir.
    Chairman Udall. Thank you, Mr. Chairman. We, the Committee 
stands in recess. We will return as soon as we can. Thank you.
    [Whereupon, at 10:59 a.m. the Subcommittee recessed, to 
reconvene at 11:25 a.m., the same day.]
    Chairman Udall. I will thank you all for your patience. We 
will now return to questions of the first panel, and it is a 
great privilege to recognize the Ranking Member, the Judge and 
Congressman from the great State of Texas, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman.
    Mr. O'Connor, the Chairman of the big Committee asked you 
some questions and inquired about why it was relegated to 
alcohol. There is a reason for that, is there not? What your 
scope was.
    Mr. O'Connor. Yes, sir. The scope of my investigation was 
to look at the specific case that the two instances reported 
represented, and that was space flight safety, Soyuz, Shuttle, 
and to try to deal with that and try to understand whether or 
not we had adequate controls in place. If something like this 
happened, what was the nature of it so we could deal with how 
to remedy it?
    We did not expand that to look at alcohol use among 
astronauts in a broader sense. That might take a different kind 
of study, a little longer if we were to do something like that. 
We didn't really need to do that. What we did was we kind of 
triaged this whole thing. When we first saw the words, flight 
safety, that, of course, raised a flag in my shop, and the very 
first thing we do, we did was we talked to the crew that was 
getting ready to launch the Shuttle. And we sat down with them, 
and we talked to them about communications, about dissent, what 
happens if the flight surgeon and the managers disagree, do 
they know how to use the system properly. And that was the 
first step.
    The second step was to do this investigation, focused on 
flight safety for Soyuz and Shuttle. The third step then is the 
follow up with the anonymous survey that we will be doing that 
has a much broader scope. It looks at the whole aspect of 
communications and relationships among flight crew and flight 
surgeons in the broader sense.

                          Anonymity of Survey

    Mr. Hall. And with not having all the purported facts at 
your disposal, you were somewhat at a disadvantage, were you 
not?
    Mr. O'Connor. Well, when I, I was at a sort of a 
disadvantage in that there is always a chance that someone may 
not feel comfortable talking to their safety guy.
    Mr. Hall. Well, with no complaints against Colonel 
Bachmann, you weren't given the benefit of the many interviews 
that he made----
    Mr. O'Connor. Oh, yes, sir.
    Mr. Hall.--on many thrusts of this. Tell us about that, and 
I am going to ask Colonel Bachmann to give us that information, 
too.
    Mr. O'Connor. Well, after we got Colonel Bachmann's report, 
he added some more information after that on two occasions for 
me, but he was hesitant and really could not give me more than 
that because of the promises that they had made to their own 
witnesses.
    Mr. Hall. You are appearing in this committee and in this 
Congress you soon learn who you can depend on and whose word is 
good, and if their word is not good, nothing else is very good 
about them usually. And I think you took that attitude toward 
Colonel Bachmann, that he was keeping his word.
    Mr. O'Connor. Yes, sir. That is why I didn't challenge it 
and treated it as I would any other anonymous report we get 
through out anonymous systems.
    Mr. Hall. Colonel Bachmann, you couldn't give him all the 
facts because you had agreed to those from whom you extracted a 
lot of those facts that you wouldn't reveal their identity nor 
their employer. Is that correct?
    Colonel Bachmann. Yes, sir. That is correct. We acknowledge 
that they are all NASA personnel and astronauts and flight 
surgeons, but that is really as far as we were willing to go.
    Mr. Hall. And you did that only because you didn't believe 
you could extract some of the answers from them that you 
extracted had you not agreed to give them the full cover. That 
is a correct statement, isn't it?
    Colonel Bachmann. Yes, sir. Really two-fold. We wanted them 
to speak freely, and we were focused on systems issues rather 
than any one individual.
    Mr. Hall. They spoke freely knowing you weren't going to 
reveal their names and their employment to be scrutinized 
further by others who had the duty to scrutinize them further. 
Isn't that correct?
    Colonel Bachmann. Absolutely. Yes, sir.

                   Alleged Instances of Alcohol Abuse

    Mr. Hall. All right. Mr. O'Connor, then it came down to 
you, and you have scrutinized and observed many mishaps and 
many close calls, and have there ever been any that involved 
alcohol or drug use or abuse by astronauts since you have been 
doing that? Yes or no?
    Mr. O'Connor. No, sir.
    Mr. Hall. And have you, of the, I think you said 680 
anonymous safety concerns, they were anonymous to Colonel 
Bachmann, reported to and investigated by the NASA Safety 
Reporting System since its inception in 1987, none of them 
involved alcohol, astronaut alcohol or drug use or abuse. Is 
that a correct statement?
    Mr. O'Connor. That is correct.
    Mr. Hall. And of the 863 safety hotline reports recorded 
since its inception in 1991, to the present, none involved 
alcohol or drug use or abuse by an astronaut. Correct?
    Mr. O'Connor. That is correct.
    Mr. Hall. And although Johnson Space Center doesn't reveal 
the identities of personnel involved in disciplinary actions, 
the most recent report to OSHA covered the years 2002, through 
2006, includes a total of seven such accidents related to 
alcohol or drugs at the Center, and formal input from flight 
crew operations was that none of these involved astronauts.
    Mr. O'Connor. That is correct.
    Mr. Hall. And for the last, more than 90 individuals who 
answered your call for information, not one offered any 
evidence of alcohol use or abuse in the immediate pre-flight 
timeframe. Isn't that correct?
    Mr. O'Connor. Yes, sir. With the one exception that since 
then there have been----
    Mr. Hall. Yes.
    Mr. O'Connor.--40 more, so I would raise that number to 
130.

                  Policies to Insure Employee Openness

    Mr. Hall. All right. And I would ask you this. I know in 
the aftermath of the Challenger and the Columbia accidents NASA 
has tried very hard to insure that there are open, independent 
communication paths to raise safety concerns. That is something 
I have been very involved in. Module, that was an escape hatch 
and insisted on it and had money in the budget for it a couple 
or three times. One time I think maybe one of the older 
astronauts that went up there after he was my age used a little 
some of that to go up and back, and I didn't like that, but I 
did like the fact that you were letting older astronauts go now 
and then.
    But for those safety concerns, would you please discuss 
policies and or procedures that are now in place to insure 
employees are encouraged to report any safety flight issues, 
and would you please discuss how, if at all, you are changing 
or revising these policies?
    Mr. O'Connor. Yes, sir. As you mentioned, we put the NASA 
Safety Reporting System into place after the Challenger 
accident. The purpose of it was to address those occasional 
cases where an employee does not feel comfortable using normal 
open means of communication. Maybe they had a disagreement with 
their supervisor and didn't feel they could go any higher. We 
put this system in place as a last resort for safety 
communications. Since its inception as you heard we have had 
680 people who have used it for various reasons, including lack 
of communications or disregard for my concern, the kind of 
things that we talked about in, today. Those things have been 
part of that reporting system over the years.
    Mr. Hall. And as my last question, I know my time is up, 
you, in your duty to report to the NASA Administrator, you 
were, as we would say in Texas, not on the ranch. You were kind 
of bridle haltered in that you didn't have the full facts to 
report to him because they weren't available to you. Is that 
correct?
    Mr. O'Connor. That is one way of putting it. Yes, sir.
    Mr. Hall. I yield back my time. Thank you.
    Mr. Lampson. [Presiding] The gentleman's time is expired, 
and I will now claim five minutes for myself.
    I want to start with Colonel Bachmann. First of all, I sort 
of feel a little bit like what Ralph Hall's comments were at 
the very beginning awhile ago. I think I am in so much awe and 
hold the Astronaut Corps in such respect that I wonder why we, 
it is unfortunate we had to have this kind of hearing. But I 
have a great deal of respect, and I know that the astronauts 
are committed to their families and to NASA and to our country 
and to our communities, and I have a tremendous amount of 
respect for everything that they do.

                    Extent of Alleged Alcohol Abuse

    Colonel Bachmann, I know that there are a lot of astronauts 
who feel that the reports of alcohol use in your report have 
tarnished the reputation of the Astronaut Corps unfairly. As we 
have heard today, your report included two instances of alcohol 
use that NASA says it was unable to verify.
    With all the confusion we have had since the report came 
out, I would like to sort of ask you to help us clear the air 
and ask just a few questions on that. Does the alcohol, does 
the inclusion of the alcohol incidents in your report indicate 
your committee thought, indicate that your committee thought 
that there was widespread abuse of alcohol in the Astronaut 
Corps?
    Colonel Bachmann. Sir, as we said in the report and as we 
said in the press conference when the report was released, the 
committee does not have sufficient information to describe the 
extent of alcohol use, alcohol problems in NASA in the 
Astronaut Corps. What we had were specific instances described 
to us, and we felt not as an underlying alcohol problem but as 
an underlying risk communication, human factors problem. And 
that the astronauts and flight surgeons were so concerned about 
how this information was handled that they brought those to us 
as kind of the prime examples, although they had many others. 
Those were the ones that were concerning most of them.
    Mr. Lampson. How many people on your committee actually 
heard reports from individual astronauts regarding the alcohol 
use?
    Colonel Bachmann. The interviews took place over the space 
of several days. The bulk of them took place with multiple 
members of the committee in the room. The concerns brought 
forward by the flight surgeons, as best we can recall, we had 
at least three committee members in the room at the time that 
that particular story was told to us, the instance was 
described.
    Mr. Lampson. How many people were on the committee?
    Colonel Bachmann. There are eight altogether.
    Mr. Lampson. Eight. And three heard the----
    Colonel Bachmann. Sir, I would say at least three. Again, 
people were coming and going, but I know that at least three, 
if not more. The astronaut described alcohol incident was 
described to one member of the committee who brought that 
information back to the rest of us, and we discussed it.
    Mr. Lampson. What were you trying to say when you included 
the two incidents that were volunteered to your committee by 
interviewees? Was there--what did you want to try to accomplish 
with that?
    Colonel Bachmann. Sir, again, we were highlighting the 
concerns that the NASA individuals felt, and they used these 
particular instances and others, but these particular instances 
were of greatest concern to them, that they used as examples of 
how significant safety issues did not receive traction when 
they were sent forward, that their professional opinions about 
the fitness for duty or the ability of the astronauts to do the 
task did not receive what they considered to be sufficient 
attention.
    Mr. Lampson. Do you think that there is any real evidence 
to indicate that there is a significant problem with alcohol 
abuse in the Astronaut Corps?
    Colonel Bachmann. Sir, as we said in the report and during 
the press conference, we don't have a sufficient number of 
interviews to tell you how pervasive alcohol use problems might 
be. The description that we provided of the rules or lack of 
rules that governed use of alcohol in the crew quarters or the 
lack of a 12-hour rule explicitly defined for space flight, all 
have been validated by NASA, and in fact, those were some of 
the first actions they took was to institute explicit rules on 
the use of alcohol in those settings. So, we believe that makes 
the rest of the story more credible as well, the rest of the 
situation that they described has actually been validated by 
NASA.

        Openness of Safety Reporting/Recommendations and Future 
                                Programs

    Mr. Lampson. Before he left Chairman Gordon had asked some 
questions, and I am going to take the remaining time to give 
you an opportunity to answer those. He had said what was your 
review panel's basis for making the statement of peers and 
staff fear ostracism if they identify their own or others' 
problems, and how confident are you that it doesn't represent 
just the view of one or two malcontents.
    Colonel Bachmann. Sir, the first part of that is how do we 
know that these don't represent just an isolated individual or 
a collection of individuals, and how do we reconcile that with 
the signed letter by it looks like the bulk of the flight 
surgeons at NASA. I would have to defer the answer back to the 
flight surgeons. In the group of people that told us that story 
I am confident that some of the members that signed that letter 
saying that they essentially, everything is fine, were present 
in the room when the story was told.
    So I can't answer how they could tell one thing to us and a 
different, and sign a different letter out to NASA.
    And as far as the statement about ostracism and issues with 
their peers, again, those were the words that the astronauts 
and the flight surgeons told to us. Those were not our 
interpretation. It is more of a summary, but those are the 
words that were used when the NASA people described the issue 
to the committee.
    Mr. Lampson. I know my time is up, but I am going to take 
some of the time that Bart Gordon gave up awhile ago to get his 
questions in and answers, and he had gotten down to the point 
where he made a statement of, restatement of, ``NASA must 
insure that people can identify such safety and performance 
concerns within NASA without fear of reprisal or career 
injury,'' and asked were you told of any instances where your 
interviewees had been subjected to reprisals or had witnessed 
other individuals being subjected to them?
    Colonel Bachmann. Several vignettes were described where, 
and in this particular case flight surgeons described instances 
where they brought concerns forward, and they were subjected to 
what they called public humiliation. We didn't pursue it 
further than that, again, because the point of the issue was 
their reluctance to bring things forward because of how similar 
issues had been handled in the past.
    Mr. Lampson. What does NASA need to do to fix the problem 
your review panel discovered? Uncovered?
    Colonel Bachmann. I think the most important thing, again, 
is for the NASA leadership at the highest levels to clearly 
state that they are concerned, and I think they have done that, 
and make every effort to get appropriate information that 
really will give them a sense for the scope of the issue. Face-
to-face interviews are not the best way to get sensitive 
information when people feel their jobs might be at risk or 
that they might have other career consequences. That is why, 
again, we emphasized the need for a valid and anonymous survey 
that is not seen as a mere exercise but actually seen as vital 
to the success of NASA's future missions, where people will 
feel that they can speak freely.
    If it is narrowly scoped or not clear to people that they 
can respond without somebody being able to figure out who said 
it, I am afraid that you could certainly get a useless piece of 
information back. And that is where I think the whole crux of 
the follow up to this hearing and this committee's work is to 
get good information from all NASA personnel affected by these 
issues.
    Mr. Lampson. And the folks that I have spoken with, the 
leadership at NASA, areas where I have talked I believe that 
their commitment is to accomplish that. I think they are, I 
hold them in very, very high regard, and I know that they are 
concerned about safety and success both at NASA, and I know 
that we will be going forward with it.
    I have gone way over my time, and I will now recognize Mr. 
Neugebauer from Texas. I am sorry. Mr. Bonner. Jo, excuse me.
    Mr. Bonner. No problem, Mr. Chairman. Randy is a handsome 
fellow.
    Mr. Lampson. Neither of you have much hair.
    Mr. Bonner. I noticed that when I looked in the mirror this 
morning.
    Colonel, let me follow up to the answer you just gave the 
Chairman, because I think it is timely. Could you expand on any 
recommendations that you would like to see that would help 
guide NASA in the future toward a development of more adequate 
follow-up surveys or questionnaires?
    Colonel Bachmann. Yes, sir. In fact, in the Air Force we 
have what is called a unit climate assessment that we routinely 
do upon taking command of a new organization, and since I have 
had the privilege of being a commander for a number of 
organizations, certainly nothing as large as NASA, but the 
survey is constructed with questions that you can answer on a 
one to five scale about how important or less important or 
critical or going well. You can give them the scope, you can 
put a number, and that actually generates some interesting 
data, but the more interesting data as a commander have been 
the free text blocks where people can type as much as they see 
fit to tell you what they are thinking. And honestly, if you 
see a comment made once and you never see it pop up again on 
anybody else's survey, that is interesting, and maybe you will 
want to go ask some more questions. But if you see similar 
issues come up in different voices, all pointing in the same 
direction, whether the number scale is consistent with that or 
not, you know you have got a problem, and you have to go figure 
out what is going on.
    And the Air Force at least is, I think from where I sit, 
pretty good at keeping the information on who said it pretty 
secret. They have rules about demographics. If it asks you if 
you are a woman and you only have two, it will hide that 
information from you so you can't go figure out who the woman 
over 40 was in your unit that said that.
    And, again, I would say that the questions need to be 
broadly or at least start broad and then they can get as 
specific as NASA sees fit, so they can answer specific 
questions. Are you aware of alcohol use, you know, in the 
immediate pre-flight period so that they were intoxicated when 
they went to a vehicle. That is one question. But a much 
broader question is are you aware of human factors issues that 
you feel didn't get appropriate attention. And then give them a 
text block where they can type in as many examples as they can 
think of.
    So I think there is a science to conducting surveys, and I 
am certainly not an expert in that, but there are people who 
are, and I think that is who NASA is or should be looking at to 
help them build a survey that will get them the information 
they need.
    Mr. Bonner. As a follow up, and this is really for the 
whole panel, how should NASA deal with an astronaut's natural 
reluctance to raise health or behavioral issues that they fear 
or believe may jeopardize their selection for future missions 
or assignments? And especially the two who have gone up. Based 
on your experience are your colleagues, are members of the 
Astronaut Corps confident that they can raise health issues or 
emotional or family problems without fear of jeopardizing their 
NASA careers? But it is really open to the whole panel.
    Dr. Ochoa.
    Dr. Ochoa. I will take that question, and first I would 
like to say that I am glad to hear that Colonel Bachmann and I 
are on the same page regarding the survey. We are planning a 
survey exactly as he has described. It will have a combination 
of qualitative and quantitative questions so that people do 
answer on a five-point scale as well as have the opportunity to 
write in comments in a number of cases.
    I have not actually noticed astronauts being shy about 
bringing up issues of many different types of natures, but we 
want to make sure that they do feel comfortable. We believe 
this survey will give us some very good information about that.
    We have a number of other programs in place where we 
emphasize to astronauts continuously about looking out for 
themselves and their crew mates. One of the main programs that 
we have is known as either crew resource management or cockpit 
resource management, and you probably heard about it from the 
aviation industry. But a lot of it is to prevent crew error, 
obviously in critical situations, and what they are really 
looking at is not skills and knowledge but how do you 
understand when you or one of your crew mates may be tired, may 
be distracted, may not be feeling well, may be more prone to 
make errors. So any time we do a training session where we have 
a group of astronauts as a crew training together, the very 
first thing that we debrief is the crew resource management. 
And so we are always talking about looking out for each other 
and making sure that we are working as an effective team.
    We also have a program in place called the Expedition 
Interpersonal Training Program, which was started several years 
ago because we wanted to prepare people for the long duration 
missions that they were going to have on the space station and 
also beyond. And part of that program we have workshops where 
we learn from previous expeditions, not only space expeditions 
but Antarctic expeditions, things like that, how people have 
dealt with interpersonal issues. We have cross cultural 
training since we fly with astronauts from different countries, 
and we sent people on outdoor leadership classes with trained 
supervisors where they talk about human factors issues. They 
talk about leadership styles, they talk about how do you keep a 
team going even if there are issues with one or more members of 
the team. The astronauts are given verbal feedback from the 
experienced leaders of those courses, and then each member of 
the team that has gone out and done this course essentially 
rates every other team member, sort of anonymously so at the 
end of that course each astronaut that has participated has 
feedback from every other person that they have been with to 
understand how they did themselves and how they are perceived 
by others.
    Mr. Bonner. Thank you very much. We may have a follow-up 
question in writing to get a little bit more specific answer to 
the question, but thank you very much for that.
    Mr. Chairman, thank you.
    Chairman Udall. Thank you, Mr. Bonner. I know we have a lot 
of additional questions for the panel, but we got to move to 
our second witness, Dr. Griffin. If I might I would like to 
pose one question for the record to Colonel Bachmann and also 
let you know per the committee rules that any member can submit 
additional questions for the record.
    Before we broke for the votes, Colonel, I was talking about 
your sobering words in the committee report that issues of 
cultural and structural are so engrained and longstanding that 
it would take senior leadership action to remediate them. I 
would ask you to provide the Subcommittee with some specifics 
on the type of senior leadership action that you think are 
needed. Another way to put it would be what are the most 
important three things that NASA senior leadership needs to do 
to resolve the problems identified in your report so that we 
don't have to have another hearing like this a few years from 
now?
    So I am not asking you to answer that today, but if you 
would just submit your thoughts for the record. I know the 
Subcommittee would appreciate it.
    Colonel Bachmann. Yes, sir. Will do.

                                Panel 2

    Chairman Udall. Again, I want to thank the panel. This has 
been very enlightening. I think I would speak for everybody on 
the Subcommittee when it comes to clearly every one of your 
commitment to NASA and to having the finest Astronaut Corps 
anywhere in the world. We look forward to working with you 
further. Thank you again, and at this point I dismiss this 
panel, and we will ask Dr. Griffin to join us up at the table.
    Dr. Griffin, thank you for joining us. I don't think the 
good doctor needs an introduction of any length. We all know 
his talents and his commitment to NASA and his many, many 
successes. Thank you for joining us, and the floor is yours for 
as long as you need it, Dr. Griffin.

 STATEMENT OF DR. MICHAEL D. GRIFFIN, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Griffin. Mr. Chairman, Ranking Member Hall from the 
Full Committee, Members, thank you very much for--Mr. Feeney, 
Members of the Committee, thank you for inviting me here today. 
I do have to admit I wish it were under better circumstances.
    We all recognize that the behavior that led to the arrest 
of former astronaut Lisa Nowak, the murder of NASA engineer 
David Beverly in his office at the Johnson Space Center, and 
this recent report by a panel of outside experts containing 
allegations of improper use of alcohol by astronauts has shaken 
public confidence in NASA.
    NASA is an institution comprised of our nation's best and 
brightest, an institution responsible for carrying out one of 
the noblest missions of our Government and our nation.
    The personal conduct of NASA's workforce, including our 
astronauts, must be of the highest standards, beyond reproach, 
and day in and day out we do indeed demonstrate just such 
professional excellence and dedication to our mission.
    But in the face of the allegations and adversity which we 
have encountered recently, we must ask and answer hard 
questions, and we have done that. The case of former astronaut 
Nowak is a matter for the courts to decide and is not an 
appropriate subject of comment for me here today.
    But as a direct result of that unfortunate incident we did 
last February begin an in-depth review of how we might better 
provide for the behavioral health of our Astronaut Corps. Shana 
and I asked Dr. Richard Williams, NASA's Chief Health and 
Medical Officer, to organize a committee with membership 
external to NASA and having aerospace or having expertise in 
aerospace medicine and psychiatry to review the medical and 
behavioral health services provided to our astronauts.
    We sought external advisors because we were concerned that 
we might have missed something with which others in the field 
with experience outside of NASA were more familiar. This review 
committee, chaired by Dr. Bachmann, Commander and Dean of the 
U.S. Air Force School of Aerospace Medicine, provided me with 
their final report this past July.
    Now, the report contained numerous findings and 
recommendations, many of which will be useful to us as we go 
forward. Without question, the portion of the report which has 
received the most attention was the citation by the panel of 
certain allegations of improper use of alcohol by astronauts 
preparing to fly, and further, that concerns expressed by 
flight surgeons on this point had been ignored by NASA 
management.
    Now, given the seriousness of these allegations, the only 
responsible action we could take was to investigate them. 
Accordingly, Shana and I asked NASA's Chief of Safety and 
Mission Assurance, Bryan O'Connor, from whom you just heard, to 
conduct a careful examination of claims that astronauts had 
been impaired by alcohol in the immediate pre-flight period, as 
well as claims that management had not been responsive to 
concerns by flight surgeons and others about astronauts' 
fitness to fly.
    As you have heard from Bryan, his extensive review found no 
evidence to support the claims that any astronauts were ever 
impaired by alcohol at launch time. Further, NASA's flight 
surgeons have voluntarily--I would say the bulk of NASA's 
flight surgeons have voluntarily put their names on a 
communication to Bryan saying that they had no evidence of 
impairment by astronauts on flight day, nor any instance of 
their concerns to management being disregarded, which has been 
the subject of earlier discussion.
    We take and I take these allegations very seriously, just 
as we would any issue that could impact the safety of our 
missions. But at the same time I have also said that the story 
cited in the reports seem improbable to those of us familiar 
with the astronauts' rigorous and very public activities in the 
hours leading up to a space flight.
    I personally began working with our astronauts more than 25 
years ago, and I know many former and current members of the 
corps as valued colleagues and personal friends. The cited 
allegation of alcohol impairment prior to flight is simply not 
in accord with the behavior that I have personally seen from 
our flight crews.
    Now, this allegation aside, the committee put substantial 
time, thought, and effort into their report. They really did, 
and we are grateful for their service in helping us to make 
NASA a better agency, and we are taking action to address the 
other concerns and recommendations from their report, which we 
believe will improve our astronaut health care procedures.
    I have enumerated the actions we are taking in response to 
this report in my written testimony to this committee. One of 
those is that NASA's Astronaut Office is developing a formal 
code of conduct that will outline the professional standards 
expected of members of the Astronaut Corps.
    Now, Chairman Udall and other Members of the this 
subcommittee, you will recall that many concerns about NASA's 
culture were expressed in both, in the aftermath of both Space 
Shuttle Challenger and Columbia accidents, and there were 
indeed unfortunate similarities in how those accidents 
occurred. A common theme was the reluctance of senior managers 
to listen to and evaluate carefully concerns expressed by 
subordinates.
    Nothing is more important to me than this matter. I have 
established as a non-negotiable criterion for management at 
NASA starting with those who report directly to me, that we 
must not fail to listen respectfully to our people. We must not 
fail to investigate and adjudicate the concerns which they 
express. We must not fail to act if necessary.
    In today's NASA with the approach we have taken to 
implementing the recommendation of the Columbia Accident 
Investigation Board, to provide independent technical authority 
at NASA, every employee has at least two independent pathways 
which they may use to bring forth concerns to upper management. 
I have made the point on numerous occasions that there will be 
no retribution for employees at any level who bring forward a 
concern, that there will be praise, and that there will be 
respectful treatment of the concern, and it will be 
adjudicated. I believe that this is a matter of trust, and that 
this trust has been kept.
    Now, I must point out that respectful treatment of an 
opinion does not necessarily imply a decision in one's favor. 
Any argument or dispute which reaches NASA managers has at 
least two people and almost always more who disagree, and it is 
not possible to decide in favor of all parties. But it is 
possible to provide all parties with a careful and respectful 
hearing, and that is what I seek for our agency.
    Again, this is a matter of trust, and that is the culture 
change which I believe was needed and is occurring at NASA.
    Now, one cannot prove a negative. I cannot prove that no 
one at NASA is afraid to speak up, but I hope that that is not 
the case, and I will use this forum to ask once again anyone 
who is watching this testimony, if you have a concern, please 
come forward, directly to me if necessary, and if necessary, I 
will protect your identity, but I must have facts, if they are 
out there, in order to make decisions.
    Mr. Chairman, in this and many other ways we hope to 
restore any loss of public confidence in NASA that may have 
resulted from these unfortunate incidents.
    Thank you.
    [The prepared statement of Dr. Griffin follows:]

                Prepared Statement of Michael D. Griffin

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear today to discuss NASA's Astronaut Medical and 
Behavioral Health Care Program, and the report of the Astronaut Health 
Care System Review Committee, released on July 27, 2007. In the wake of 
the recent incident involving former astronaut Lisa Nowak, I directed 
NASA's Chief Health and Medical Officer, Dr. Richard S. Williams, to 
conduct a review of the medical and behavioral health services 
available to NASA astronauts at the Johnson Space Center in Houston, 
Texas. My goal was to determine whether the incident may have been in 
any way foreseeable by those entrusted with the care of NASA 
astronauts. I hoped to learn whether the screening and evaluation 
procedures that the Agency employs for astronaut selection and 
assignment are as effective as they can possibly be, and whether the 
physical and mental health systems we have in place to support the 
Astronaut Corps are serving their intended purpose to the maximum 
possible extent.
    In addition, Mike Coats, Director of Johnson Space Center (JSC), 
led an internal review that outlined and evaluated JSC's extensive 
health care programs for our astronauts, which includes their 
behavioral health, and recommended improvements to those programs, 
which we have already implemented. A more extensive behavioral health 
assessment will be added to annual flight physical examinations for all 
astronauts. We also are emphasizing the importance of behavioral health 
support to Shuttle crew members, and offering time with behavioral 
health providers before, during and after flight. And, we are committed 
to improving the quality and usefulness of our psychological testing 
and assessment during astronaut selection.
    The Review Committee convened by Dr. Williams was comprised of 
eight representatives of other federal agencies, highly experienced in 
the disciplines relevant to aerospace medicine and mental health, 
including a former astronaut and medical doctor. The Committee was 
chaired by Air Force Colonel Richard Bachmann, Commander of the U.S. 
Air Force School of Aerospace Medicine, from whom you have already 
heard today. I wish to acknowledge the commitment of time, effort, and 
dedication to the task put forth by Col. Bachmann and the members of 
the Review Committee in conducting their review and providing their 
report.
    The Astronaut Health Care System Review Committee's report provided 
a number of recommendations that we believe will clearly improve our 
ability to provide comprehensive medical and behavioral health care 
support to the Astronaut Corps. Dr. Williams and his staff at both NASA 
Headquarters and the JSC, with the assistance of NASA's Medical Policy 
Review Board, have begun the process of implementing enhancements to 
NASA's Medical and Behavioral Health Care Program. We believe these 
enhancements will contribute in great measure to ensuring a continued 
history of stellar performance by the Astronaut Corps, while addressing 
gaps in support that have been identified by the Review Committee. 
Today you have heard Dr. Williams describe some of these improvement 
plans and efforts.
    The Review Committee's report also contained findings that were 
based on anecdotal information provided to the Committee by 
unidentified personnel at JSC. These findings, which have received a 
particular focus of attention from the media, allege instances of 
alcohol abuse by astronauts on active flight status, and further, cite 
faults in communication between astronauts, their medical support 
professionals, and their management. The specter of problems with 
communication pathways between critical elements of the flight safety 
support team is a very serious concern, and one that I take seriously. 
Given the need for further information on which to make assessments 
regarding these findings, I asked Mr. Bryan O'Connor, NASA's Chief of 
Safety and Mission Assurance, to conduct an investigation into the 
anecdotal statements in the report related to astronauts being impaired 
by alcohol in the immediate pre-flight period and claims of management 
not being responsive to concerns by flight surgeons and others about 
astronauts' fitness to fly. Today you have heard Mr. O'Connor provide 
details of his investigation and findings. After reviewing 20 years' 
worth of records and interviewing scores of NASA personnel who are 
personally involved in, or witness to, the critical path for astronaut 
flight safety in the hours before launch, Mr. O'Connor was unable to 
find any evidence to support the claims that astronauts were ever 
impaired by alcohol at launch time. In fact, NASA's flight surgeons 
have placed their names on a communication saying that they have no 
evidence of alcohol impairment by astronauts on flight day, or any 
instances of their concerns to management being disregarded. I have 
stated previously that NASA takes these allegations very seriously-just 
as we would any issue that could impact the safety of our missions. 
But, at the same time, I also have said that the stories cited in the 
report seem improbable to those of us familiar with the astronauts' 
rigorous and very public activities during the hours leading up to a 
space flight.
    Nonetheless, I remain highly cognizant of Mr. O'Connor's forthright 
acknowledgement, both in his summary findings and in person, that his 
investigation was conducted within limitations regarding anonymity, and 
that, in spite of overwhelming indicators that such behaviors could not 
occur without undue notice or redress, he cannot report conclusively 
that the incidents reported to the Review Committee did not happen. 
Therefore, it is only prudent that NASA move forward with purpose to 
close any gaps in policy and process, and take action to ensure that 
such occurrences and the possible risks that they could engender, do 
not ever become validated fact. I view the findings and recommendations 
provided by Col. Bachmann and the Members of the Review Committee as an 
opportunity for NASA to apply rigor and raise the standard for 
performance in teamwork and communication among its astronauts and 
their medical and behavioral flight safety team and operational flight 
safety personnel.
    To achieve these goals, NASA's Medical Policy Board, made up of 
senior internal and external medical experts, is working with NASA's 
medical managers to determine how many of the changes and initiatives 
advocated by the Review Committee would fit into NASA health care 
procedures in a way that improves their effectiveness. We have accepted 
the report's recommendations concerning analysis and use of behavioral 
health data to improve selection criteria, and will convene expert 
working groups to advise us on any changes to our psychological 
testing. NASA is evaluating the overall delivery of behavioral health 
services to astronauts and is planning additional training for flight 
surgeons in behavioral health assessments. As I have noted above, we 
will add behavioral health evaluations to annual flight physicals for 
all astronauts and we will strive to ensure better communication 
throughout the astronaut health-care system. We will work to ensure 
that astronauts understand fully the nature and purpose of all health 
related testing and data collection. We are re-evaluating our 
electronic medical records system to assure maximum utility and 
security of private medical information. Further, we are examining 
policies for assuring the quality of care we arrange for our astronauts 
by outside medical providers to determine if changes are needed. 
Importantly, we are working to ensure that everyone in the astronaut 
health care system understands the multiple pathways which are 
available to raise any health and safety concerns.
    America's astronauts have always operated with the knowledge that 
much is expected of them in many areas, including personal conduct. But 
until now, these expectations and standards have not been codified into 
an official document. The JSC Astronaut Office is developing a formal 
code of conduct that will be a document outlining the expectations for 
this highly skilled group of professionals. To address organizational 
culture issues discussed in the report, NASA will conduct a number of 
internal assessments, including anonymous surveys to be completed by 
astronauts and flight surgeons, to provide feedback and gather 
information that we will use to improve communication and ensure that 
leadership is responsive to concerns and complaints, particularly those 
involving flight safety.
    I am confident that the comprehensive slate of actions that is 
underway for improvements and enhancements to NASA's Medical and 
Behavioral Health System will yield a program capable of delivering the 
highest possible level of support to the Astronaut Corps and ensuring 
its continued unsurpassed performance. I am particularly proud to be 
making these statements today in the wake of another such demonstration 
of personal, professional, and technical excellence provided by the 
crew of the Space Shuttle Mission STS-118, which landed safely on 
August 21, 2007, after a very successful mission. In addition to adding 
a new segment to the International Space Station, successfully 
navigating demanding spacewalks, and delivering needed supplies to the 
Station, the crew and their NASA colleagues on Earth provided a fully 
validated example of the superb ability of the NASA team to communicate 
and engage in critical technical dialogue across disciplines to support 
educated decision-making in the face of real-time challenges. And to 
top it all off, through the efforts of Educator-in-Space Barbara 
Morgan, America's students were offered new and focused interactive 
opportunities to share in the excitement of this ongoing endeavor. This 
is the positive story that often takes a back seat to the sensational 
in news reports, but a story that I am honored to point out on behalf 
of the NASA Astronaut Corps and the teams of technical professionals 
that support them.
    I would once again like to thank Col. Bachmann and the members of 
the Review Committee for their efforts. I would like to reassure the 
members of the Review Committee that, while much media attention has 
been given to the allegations relating to alcohol use, I and other NASA 
managers are giving the entire report the full and complete attention 
it deserves. We appreciate their interest in helping us to make NASA a 
better agency.
    Again, thank you for the opportunity to appear before you today. I 
would be please to respond to any questions that you may have.

                               Discussion

    Chairman Udall. Thank you, Dr. Griffin, Administrator 
Griffin.
    I know the Subcommittee would now like to turn to some 
questions, and the Chair recognizes himself for five minutes.
    You talked about the recommendations in the report and your 
intention to implement them. Do you have a timeline of which 
you are operating when it comes to the implementation?

                   Implementation of Recommendations

    Dr. Griffin. Well, I don't know by what date Dr. Williams 
plans to bring recommendations or an assessment back to Shana 
and I. He probably does. My own view is that this is both 
important and urgent, but it is more important to get right 
than to get done quickly. It is important that we treat this 
advice as we, as respectfully as we treat all advice from our 
advisory panels, whether of permanent standing such as the NASA 
Advisory Council or the Aerospace Safety Advisory Panel or ad 
hoc as was this panel. It is important that we treat their 
advice respectfully and that we evaluate it carefully, while 
nonetheless recognizing that at the end of the day you and 
other oversight committees and committee chairmen hold NASA 
responsible for our actions.
    So we will evaluate the recommendations carefully. We are 
already of a mind, as I have said several times, to accept most 
of them. We will report to you any disagreement between the 
recommendations we choose to accept and those that we possibly 
think are not a good idea, and we will discuss. We will report 
back to you on the implementation, how the implementation is 
going.
    And we will do it as quickly as we can do it and yet do it 
well.
    Chairman Udall. Thank you for that straightforward answer, 
Dr. Griffin.
    I would like to turn to the committee's--the external 
committee's recommendation, in particular about carrying out a 
thorough anonymous survey that is carefully worded to obtain 
valid factual information. And Dr. Griffin, from the testimony 
of Dr. Ochoa and others it sounds as if NASA's prepared to 
conduct such a survey.
    Dr. Griffin. I cannot wait to do that.
    Chairman Udall. And it is not clear to me, however, that 
NASA has a lot of experience in crafting that kind of a 
carefully-worded, thorough survey that Colonel Bachmann 
recommended.
    Could I ask you if NASA is planning to have a proposed--
this proposed survey reviewed by any external organization that 
has expertise in this area, and if that isn't your current 
plan, would you be willing to do so in the interest of insuring 
that NASA gets the best survey possible?
    Dr. Griffin. I believe that Ellen expressed her agreement 
with Colonel Bachmann on all the points regarding the survey, 
and yeah, of course. We will craft what we think is the right 
survey, and we will have it reviewed by external experts in 
this matter to make sure that it is a well-done survey. In the 
course of pursuing my studies for an MBA I had one course in 
market analysis, and I feel that I am, if that course served no 
other purpose, it served to sensitize me to the way in which 
results purportedly obtained from a survey can depend on how 
the survey is worded and what the sampling environment is and 
who the target sample audience is.
    So I join Colonel Bachmann in declining any expertise in 
this matter except to know that it is fraught with concern, and 
we will be very careful.
    Chairman Udall. If I could editorialize briefly knowing 
what I know of your private sector experience, I think you 
learned a lot more from that class than you suggest given the 
successes you have.
    Dr. Griffin. Well, I didn't drive anybody into bankruptcy 
if that is what you mean. So I will take that as an up-check.
    Chairman Udall. Be careful. We may get you involved in the 
sub-prime lending solutions.
    Final question, Dr. Griffin. The independent review noted 
that employees said if they were concerned about coworkers' 
behaviors, they would raise concerns with a co-worker, 
management, or flight medicine official. However, the external 
reviews you have heard report notes that the flight surgeons 
were demoralized because their concerns were not valued. Do you 
have any specific plans at this point to do anything about this 
apparent disconnect?
    Dr. Griffin. Well, we, I mean, I do. Much of it will have 
to be, will rely, again, I will use this forum to emphasize if 
anyone has a concern, please use, I am sorry, NASA Safety 
Reporting System to write it down and send it in. Your 
anonymity will be protected. If anyone at NASA is concerned 
about an immediate supervisor or a supervisor's supervisor, 
then, and that concern exists, bring it to me. Many do so. My 
inbox stays full, and I don't think there is a person out there 
who can report back that a concern which was expressed to me 
was not dealt with, meaning, let me avoid the double negatives. 
I do deal with any concerns brought to me. I try to follow up.
    Less formally than those mechanisms, I talk regularly, 
periodically with, I visit with our flight docs as I am at 
flight readiness reviews and Shuttle launch operations. I hope 
that it is clear to our flight surgeons as it is clear to our 
engineers and our scientists that not only do I want them to 
feel free to speak up, but they have an obligation to do so.
    In fact, at this point I have to insert a concern. If we 
have people at NASA in today's environment who believe that 
they can't speak up for fear of retribution or ostracism, then 
I would urge them to go that extra mile and speak up, because 
that is their obligation. I need people working for NASA in 
this most demanding of environments where we launch people or 
hundreds of millions or billions of dollars of hardware into 
space, to work in this most demanding environment requires 
much. And it requires that people have the courage to bring 
forth their concerns through a management chain which has 
stated openly over and over again that you will receive a 
hearing.
    I think our actions as a management team over the last two 
and a half years have supported that. When I came on board, one 
of the very first things I had to do was to delay a Shuttle 
launch that I desperately wanted to go. I had to delay it by 
several months because some engineers expressed to me their 
concerns that we had not done an adequate job of calculating 
all the debris trajectories, particularly ice debris and 
particularly off of a lock's feed line. So we did that.
    Then I had to address a few months later a concern by some 
of our Earth scientists or some community Earth scientist who 
felt that their research was being modified for public release 
or that their concerns were not being appropriately heard, and 
we got all over that. And I made it clear in an extraordinarily 
clear written policy that the purpose of scientific and 
engineering investigation is to get a truth, and we do that 
through argument, through public discourse.
    There have been other opportunities to address criticisms 
of lack of openness at NASA and concerns over retribution, and 
in every single case we have taken the side of open discourse, 
and I will do it again here. So if there is anyone at NASA who 
has a concern, bring it forward. I need to hear it.
    Chairman Udall. Thank you, Dr. Griffin. I want to recognize 
the Ranking Member, but before I do, I did want to, in the 
context of a serious and important and substantive hearing 
today, comment positively on the process by which the situation 
with Endeavour was considered. I think it demonstrated the 
cultural changes that outside and internal groups have 
recommended, and perhaps it is the model also for what we are 
trying to do here, which is to drive some changes in how we 
manage the Astronaut Corps and how behavioral, medical problems 
but also potential upsides are reinforced and supported.
    Dr. Griffin. I think that process was NASA in action at its 
finest, and we did not launch with unanimity. Some engineers 
disagreed that the tile should fly, should re-enter and that a 
repair was needed. Others felt that it was fine. I personally 
heard all of the arguments on that matter, and we decided to 
fly, and that was the right decision as it turned out. But the 
people who felt we should not reenter that way were certainly 
not ignored or disregarded.
    During that same launch operation I had lunch or I had many 
occasions to visit with flight docs, and I asked one of them 
privately, is there any possible way that you would feel a 
concern or an issue in bringing forth a concern, and the 
gentleman laughed at me and said, you are worried about a 
medical doctor bringing forth a concern. You know, this 
particular gentleman said I have no respect for a medical 
doctor who has a concern and fears that his job is in jeopardy.
    That was an anonymous conversation, and it will stay 
anonymous, but there is a point there.
    Chairman Udall. Thank you. The Chair now recognizes the 
Ranking Member, Mr. Feeney, for five minutes or whatever time 
you----

                          NASA Safety Culture

    Mr. Feeney. Well, I will try to keep it to five. Thank you, 
Mr. Chairman.
    And, again, I think this is an important hearing to clear 
the air, number one, and get this behind us, and number two, to 
improve any procedures that we can undertake that will help us 
improve, and I think that you have taken it in that spirit. And 
I want to tell you, you said more than once in your testimony 
that in the light of Nowak discussion or the Nowak incident and 
the discussion about astronauts flying while they may have been 
intoxicated pre-flight, that there has been a loss of 
confidence in NASA.
    I really don't sense that, and I can tell you, I haven't 
lost an ounce of confidence in NASA or in you. I am confident 
that in complex organizations that have the most complex 
obligations and challenges that things are going to go wrong, 
and sometimes they will be technical, and sometimes they will 
be human factors, and sometimes they will be bad luck. But this 
is modern day America, 24/7 news, and bad luck doesn't happen. 
Everything is somebody's fault, and I think you are learning 
that, Dr. Griffin.
    So like it or not, we are where we are, and I want to tell 
you I sympathize with how frustrating it is, because there were 
some specific anecdotes in the Bachmann report. By the way, I 
don't dismiss anything about the Bachmann report. I don't think 
you have either.
    Dr. Griffin. Nor did I.
    Mr. Feeney. Very credible people that I think undertook a 
very important mission, but the specific incidents that have 
made such news can't be documented or corroborated. And the 
more general allegations, it is a cultural problem that needs 
attention from the top senior leadership.
    Fighting cultural problems is a little bit like shadow 
boxing, because I think that your administration has undertaken 
to change the culture of that reporting. And like I said, I 
witnessed the one incident live as we watched a Shuttle go off. 
But I guess in light of the fact that my goal is to go forward, 
I think that is what the Chairman of the Committee wants to do, 
it is what most of us want to do, and improve constantly the 
operations of NASA. And I am glad that we have had focus on 
this physiological, psychological, and physical well being.
    The recommendations for the most part are not at issue that 
the Bachmann committee has made, but what is at issue is 
whether or not there is a cultural problem here. I mean, the 
last thing that the Colonel told us is that we need to fix the 
communications problem, and yet you and Dr. Ochoa and Dr. 
Williams and Mr. O'Connor, have said there are multiple avenues 
independently, anonymously that have been set in place in NASA 
in the last few years. And that includes flight surgeons or 
astronauts that have concerns about human safety.
    So I guess the question I have is the Bachmann report 
suggests there is a cultural problem which is decades old 
involving communications about human well being. I am hearing 
from the NASA team unanimously that you do not believe that to 
be the case, even though you have adopted the recommendations 
or most of them about how to fix that communications problem.
    Can you address that? Because why are we fixing something 
that is not broken I guess would be a simple way to ask that 
question.
    Dr. Griffin. And as the Administrator, actually, that is 
the most important question for me. There is, I mean, I think I 
have made it clear, and if anyone doubts my word, then I guess 
they do, but there is nothing more important to me in an agency 
like NASA than having an open, free, non-political discourse on 
difficult topics. Because what we do is not easy. We have to 
work very, very hard to get it right, and we don't always do 
that. But when we get it right, when we decide what we think 
the right course of action is, we should pursue that no matter 
what. And we only arrive at that through extensive and open 
discourse by all parties.
    And I believe in that. Now, if we have had in the past 
cultural problems and we are trying to fix those, I can't 
guarantee that they are completely fixed. I can only, again, 
entreat people to trust this management team. I believe it when 
Colonel Bachmann says that the fact that people are willing to 
speak anonymously and not willing to speak face to face on the 
record is itself a problem. Yes, it is.
    At the same time, I have no mechanism to deal with the fact 
of somebody saying, I have a concern, but I am afraid if I 
speak my concern that I will be ostracized, so I will keep it 
to myself. I mean, you can see the logical conundrum there.
    So all we can do is, again, create a record, create a 
longstanding record of responding fairly, respectfully, 
positively to any concern brought to us and hope that that 
record of behavior will bring forth further behavior of the 
type that we seek. That is what I am desperately trying to do.
    Mr. Feeney. Thank you. I will yield back, Mr. Chairman.
    Well, just briefly, and it is very hard sitting here to 
tell, either the Bachmann report was correct, that multiple 
witnesses consistently said there is a communications, 
intimidation factor, or what the NASA team, including you and 
the folks that testified before you, have said that you have 
done everything reasonably possible to fix it, and you are 
encouraging people. The recommendations that the committee 
made, whether the communications system now works as well as it 
can or not, will they do any harm if you adopt their--is it 
going to add new bureaucracy costs, or will, do you think those 
recommendations will enhance human safety regardless of whether 
there is a communications problem?
    Dr. Griffin. Well, our Medical Policy Board just looked at 
those issues and expressed an early view that our response to 
those recommendations being generally accepting of them was a 
good thing, and I support that view. I certainly don't think 
that they will do any harm. Yes, if we add additional process 
and procedure there is an opportunity cost of that. That means 
that some other activity of lesser importance will not get 
done. We will try to be judicious about that, and we will try 
not to impose a bureaucracy in our health care system.
    But because communication is the sine qua non of all 
organizational management, we must invest in improving 
communication if, in fact, there are issues. I don't believe we 
have the issues that have been raised, and I have said that, 
but I am prepared to have my belief overturned by facts. I 
absolutely am. I can assert to you beyond question that my 
face-to-face communications, my telephone communications, and 
my e-mail communications are filled up with people who do not 
find me too intimidating to talk to.
    But, of course, I can't identify those out there who find 
me too intimidating to talk to and thus are reluctant to 
express their opinion. So we will continue to work on 
encouraging open communications.
    I believe in and I love this agency. I love this 
enterprise, you know. I love these people that we work with, 
and we want to make it as, the best that it can possibly be. I 
have never worked with finer people, and we have engaged in the 
process of launching folks into space or the folks who go into 
space. I have never worked with finer people. They are not 
perfect, and by the way, I am not perfect either and trying as 
hard as we can to get this right.
    It is most difficult in the softer areas. If you want to 
ask me about the thermal margin on a tile, I can deal with 
that, probably until you fall asleep. If you want to ask me how 
do we know we have the best possible communications processes, 
I don't know. It is very hard, but we are trying.
    Mr. Feeney. Well, a great philosopher, Woody Allen, once 
said that 90 percent of life was just showing up, and what you 
are telling people if they have got problems with NASA issues, 
technical or human factors, they have got to show up.
    Dr. Griffin. Please show up. The decisions are made by the 
people who show up.
    Mr. Feeney. I will yield back, Mr. Chairman.
    Chairman Gordon. Mr. Hall is recognized.
    Mr. Hall. Mr. Chairman, thank you.
    I am a little disappointed in your testimony, because you 
have always indicated to me that you were perfect.
    Dr. Griffin. Don't tell my wife.

            Anonymity and Authenticity of Reported Incidents

    Mr. Hall. Right. Seriously, you know, you have to use the 
information you have, and you are not going to discard any of 
it because you need it. You need to know what the facts are, 
and you will run down every fact if I know you very well. I 
guess I can just cut mine short by saying when there is no 
degree of authenticity and no completely confirmed testimony, 
coupled with a cry or a whimper of anonymity, they don't want 
to be, know who they are, they are afraid they will lose their 
job, when you got that type witness compared with a witness 
such as yourself and this panel of every one of these people 
that are testifying, and you could testify under oath because 
we could require that, and you would be willing to. And the 
testimony is going to be read by the 435 members of the United 
States House of Representatives and the hundreds of their 
staffs over there and by millions of people that listen to you 
call them forth to come forth and give me that information.
    Not much else you can do, is there?
    Dr. Griffin. If there is, I really wish someone would 
suggest it to me, because I would try it.
    Mr. Hall. Well, you can sure remember that there is a 
difference in the authenticity of a guy who says I am going to 
tell you this, but you can't tell anybody who told it and be 
sure and don't tell them I work for them, and a guy that steps 
up there and then tows the line and tells you what the facts 
are and leaves you to make that decision. You are not so unfair 
that you would fire a guy that gave you news that you didn't 
like or shoot the messenger, are you?
    Dr. Griffin. No. I truly, I would like to assert, and it is 
an assertion, but I believe it can be backed up that I believe 
that I am and that the management team I have hired consists of 
people who can hear bad news, act on it, and deal with the 
truth and not punish the messenger. I believe that is what we 
have in place at NASA. If someone else believes to the 
contrary, then, again, I would like to hear about that, because 
I will fix it.
    Mr. Hall. You are in the same situation of Mr. O'Connor 
when he said I cannot conclusively--cannot say conclusively 
that none of the incidents reported to the committee ever 
happened, however, I was unable to verify that they did. And 
you have to have verification, don't you?
    Dr. Griffin. That is correct, sir.
    Mr. Hall. And you have a Chairman here, Mr. Gordon, you had 
the Chairman of the Subcommittee that have expressed their 
belief in you and belief in the system and belief in the men 
and women that go at great peril into a fragile mission that is 
still fragile. I don't care what anybody says, and carry it out 
for us. Those are the people you want to believe and that you 
have to take testimony from, that you can rely on.
    I yield back my time.
    Chairman Gordon. Thank you, Mr. Hall, and Mr. Griffin or 
Dr. Griffin, I thank you and all of the witnesses for your time 
today. I apologize for the musical chairs. We have had 
different meetings going on.
    Let me just quickly conclude. Once again, complimenting you 
and congratulating you on a successful Endeavour mission. I 
think it once again proves that when things work you, you are 
brilliant.

        Charter of the NASA Astronaut Health Care System Review 
                               Committee

    Let me just quickly quote some conclusions from the earlier 
report. ``Many of the cultural and structural issues identified 
in this report as problematic have existed for many years, and 
some of them have existed since the earliest days of the 
astronaut program. The current medical and operational 
leadership at NASA inherited most of the cultural and 
structural issues identified in this report. These issues are 
also engrained and longstanding and that it will take senior 
leadership action to remedy them.''
    To some extent it puts you in the position of having the 
push the noodle from behind. I know that is difficult. You have 
said all the right words today, and you meant it, and you were 
sincere about your openness. You do have to keep in mind, 
though, a lot of folks don't report directly to you, and so you 
know all of this. We don't have to go through that.
    So let me just once again say that I was pleased with Dr. 
Williams' testimony, and I am sure he is going to get back to 
us on those, you know, what will be done and what won't be 
done. That will be very helpful.
    I guess I will have to say why did you, or ask you why did 
you so narrowly define Mr. O'Connor's mission as to only 
inquire about alcohol abuse on the day of the mission rather 
than what I think are the more, and I think everybody here, you 
know, the larger issue of an openness and a feeling of comfort 
with the folks involved, being able to come forward?
    Dr. Griffin. Well, there is a bit of a misperception there. 
Bryan did as part of his charter ask also of each and every 
flight surgeon, have you felt uncomfortable coming forward? Do 
you feel comfortable coming forward? So that was part of it.
    Now, the restriction to dealing with alcohol abuse in the 
immediate surroundings of a flight, distinguishing between 
urgent and important was the most urgent aspect of all of this, 
because that is an actual flight safety issue. Colonel Bachmann 
pointed out the sad truth that we are all flawed human beings, 
and that many very highly-accomplished people do have problems 
with relationships or problems with alcohol.
    But if there were to be, and I am not saying that there is 
because I have not seen it, but if there were to be an 
astronaut who had a problem with alcohol but managed to 
suppress that problem in the immediate flight environment, we 
would not have a safety or flight issue. Whereas if somehow 
someone managed to show up impaired for a flight, that would be 
a safety problem.
    So with the limited amount of time to get on top of the 
more urgent issues, we asked Bryan to focus on dealing with 
those things which had been specifically raised in the report 
that I felt as Administrator absolutely required an early 
investigation.
    Now, we have other things going on. We are not ignoring the 
other aspects. You heard Ellen Ochoa talk about the survey. We 
absolutely accepted that recommendation. As I said, I can't 
wait for the results of that survey. I want to know. We have 
re-emphasized NSRS. We, I have made person and public appeals 
for any concerns to be expressed with promises of protection 
for those expressing the concerns. So we are not ignoring the 
other aspects, but the most urgent thing was to deal with 
immediate safety of flight issues that potentially have been 
raised by that report. And that is what I asked Bryan to do.
    Chairman Gordon. I just read it differently. I read the 
alcohol problems as isolated in the past and that he said that 
the bigger problem was lack of comfort by surgeons and others 
to be able to come, medical surgeons to be able to come 
forward, whether it is a diabetes problem, you know, whether it 
is a migraine headache that day, whether, you know, again, you 
know, we saw the accident two different ways. I thought he 
raised other issues that were more important, but I think that 
through this anonymous and Dr. Ochoa, I congratulate you on 
moving forward with that, and Dr. Williams, again, I think you 
have a good plan, and I think simply by raising this issue in 
an uncomfortable way for you, unfortunately, that it will 
probably do more good than anything you can do to put people on 
notice that these problems that you inherited need to be, or 
potential problems that you inherited need to be changed.
    And I, again, thank you for your candor, for your service 
to the country, and for another successful flight. And this 
meeting is adjourned.
    Dr. Griffin. Thank you, sir.
    [Whereupon, at 12:27 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Colonel Richard E. Bachmann, Jr., Chair, NASA Astronaut 
        Health Care System Review Committee; Commander and Dean of the 
        U.S. Air Force School of Aerospace Medicine

Questions submitted by Chairman Bart Gordon

Q1.  In the lead-up to the findings and recommendations of the report, 
you note that many of the cultural and structural issues in the report 
have gone on for many years. Could you be more specific on cultural and 
structural issues that are problematic? What was the basis for that 
overarching finding?

A1. With regard to cultural and structural issues, the Committee was 
referring to the dominance of science and engineering perspectives 
(over medical and human factors analysis) within NASA and an 
organizational structure that places the Astronaut Board and the NASA 
research and engineering sciences in a position of vast empowerment as 
contrasted to the NASA medical organization. Astronauts select those 
who become Astronauts, perpetuating pre-existing perspectives and 
potential biases. Committee members reviewed the detailed reports of 
the Challenger and Columbia mishaps, as well as the Institute of 
Medicine Report (concerning the challenges posed by long duration space 
exploration missions). Many of the concerns raised in the Committee 
report echoed the findings of those reports, suggesting to the 
Committee that the cultural and structural issues were longstanding.

Q1a.  The report states that ``these issues are so ingrained and 
longstanding that it will take senior leadership action to remediate 
it''? What actions should NASA senior leadership take?

A1a. As previously discussed, NASA should administer a well-
constructed, anonymous survey to determine the extent of the issues 
identified to the Committee during the interviews. Next, NASA senior 
leadership should initiate efforts to emphasize the importance of human 
factors awareness starting with workplace functional areas in such a 
way that appreciation of human factors concerns is vastly elevated from 
the current state. Committee members were told that it was common for 
NASA engineers to estimate that the likelihood of a human factors 
related contribution to an adverse event was ``zero.'' While the 
Committee recognized that the NASA Astronaut selection process was one 
of the most rigorous in the world, selection of outstanding individuals 
simply cannot eliminate human vulnerability, particularly when under 
great stress. NASA leaders should instill concerns for mutual support, 
recognition of signs of stress or interpersonal strain, small unit 
empowerment to pursue those signs of stress or interpersonal strain, 
and an aim to intervene early with an effort to head trouble off early, 
with an effort toward avoiding interpersonal crises such as occurred 
with former Astronaut Lisa Nowak, rather than conducting damage control 
after the fact.

Q1b.  How do the issues on NASA's culture that were raised by the 
committee's assessment compare with the cultural environment of the Air 
Force, Navy, or other high-risk operations?

A1b. Within U.S. military flying organizations there is a greater 
appreciation for the possibility of adverse human factors degrading the 
performance of aircrew, resulting in increased risk of mishap, 
potentially to a point that those human factors issues become causal or 
contributory to a mishap sequence. Certainly military flying units 
pride themselves in mission accomplishment and take substantial risks 
in training and in operational flying. Commanders and leaders of 
military flying organizations appear far more concerned with the 
potential impact of unchecked human factors than their NASA 
counterparts. NASA rightly assumes they have selected the very best and 
brightest personnel. To the Committee, NASA appeared to be 
overestimating the durability of that selection process with resultant 
complacency concerning human factors. Within military flying 
organizations much time, energy, and attention is given to the aviator 
showing possible signs of performance decrement owing to a troubled 
marriage, recent disappointments, repeated time away from home (owing 
to deployments), etc. Every interview of NASA personnel conducted by 
the Committee encountered observations of NASA personnel that all of 
those matters were the cost of doing business and the solution was to 
``suck it up and press on.'' Four experienced military flight surgeon 
Committee members were alarmed at the voiced under-appreciation for the 
possibility of a human factors related catastrophe.

Q2.  Do you believe that NASA's plans to include a behavioral 
assessment at the time of an Astronaut's annual physical exam as well 
as NASA's plans to include a behavioral assessment after short-duration 
flights will identify what you testified as ``individuals that have 
problems with alcohol. . .problems with marital relationships, with 
money'' or other problems that could lead to behavioral or performance 
risks?

A2. It was the Committee's opinion that NASA's planned annual and post-
mission assessments of psychosocial and behavioral factors is a major 
step in the right direction. Astronauts may still be highly reluctant 
to candidly communicate relevant human factors concerns if they fear 
removal from space mission eligibility as a result. Several NASA 
personnel interviewed expressed their personal belief that NASA had 
become a ``one-mistake'' organization--meaning one more fatality and 
the organization will face its demise. If self-identification of human 
factors worries is perceived personally as the equivalent of that type 
of ``mistake,'' Astronauts will white-knuckle those interviews and 
press-on. Peers, supervisors, and trainers are more likely to 
successfully detect such problems than reliance on an annual exam or 
Astronaut self-identification.

Q3.  Regarding your report's findings that ``issues of cultural and 
structural. . .are so ingrained and longstanding that it will take 
senior leadership action to remediate them,'' what was the basis for 
historical context of that finding?

A3. The Committee's basis for the finding was based upon careful review 
of the investigation reports following the Challenger and Columbia 
mishaps and the Institute of Medicine Report regarding changes needed 
in readiness for long-duration space exploration. Many of our 
Committee's findings were previously identified in those reports.

Q3a.  Dr. Ochoa testified that ``nor was there any request for 
information on Astronaut Office processes, policies, or anything that 
could be characterized as Astronaut Office culture.'' What was the 
reason for not requesting and reviewing those documents during the 
study process?

A3a. The Committee was physically present at Johnson Space Center in 
the immediate aftermath of a murder-suicide at the JSC facility, and as 
such determined that no untoward demands would be placed on the senior 
leadership of NASA. The Committee met in person with two senior members 
of the Astronaut Office and had two-way dialogue with them about key 
issues. It was the Committee's view that the most helpful information 
was going to come from interviews and personal interactions. These 
interviews identified many Astronaut concerns regarding supervision, 
mentorship, feedback and many other issues as outlined in our report, 
which they felt were significant, regardless of what written policies 
were in place. Furthermore, several senior Astronauts stated in person 
that a variety of the written policies were regularly ignored with 
regard to personnel feedback and supervision. As such, the Committee 
opted to review NASA employees statements as to what was being done, 
rather than what was in NASA's written guidance as to what should have 
been done. The Astronaut Office insisted that feedback was being done; 
the interviewed Astronauts told us it was not being done. We believe 
that an assessment of Astronaut culture made on the basis of interviews 
with multiple Astronauts is more likely to represent what is actually 
happening than a review of written documents, policies or procedures.

Q3b.  Could you please provide some specifics on the type of senior 
leadership actions that you think are needed?

A3b. In the Committee's opinion, NASA senior leadership should initiate 
efforts to emphasize the importance of human factors awareness starting 
with workplace functional areas in such a way that appreciation of 
human factors concerns is vastly elevated from the current state. NASA 
leaders should instill concerns for mutual support, recognition of 
signs of stress or interpersonal strain, small unit empowerment to 
pursue those signs of stress or interpersonal strain, and an aim to 
intervene early with an effort to identify problems early, with an 
effort toward avoiding interpersonal crises. NASA senior leadership 
should prioritize awareness of human factors concerns, mitigation of 
early signs of human factors strain, and proactive interpersonal 
interventions in an effort to create ``successes'' in managing human 
factors issues while offsetting existing inertia and resistance to 
these concepts as having too much risk of impacting mission assignment 
to be worth the potential benefit to the individual Astronaut or small 
group leader. In the Committee's opinion, such an effort would without 
a doubt strengthen NASA's future abilities to manage human elements of 
long-duration space exploration.

Q4.  Your report states that ``peers and staff fear ostracism if they 
identify their own or others' problems.'' What was your review panel's 
basis for making that statement, and how confident are you that it 
doesn't represent just the view of one or two malcontents, particularly 
in respect to the letter that came in from the various flight surgeons?

A4. Response: The Committee was shocked and disappointed by the direct 
contradiction of statements made by NASA personnel during in-person 
interaction with Committee members versus the subsequent official 
written statement obtained by NASA. During interviews, more than one 
senior NASA physician directly stated the findings that the Committee 
reported. Those statements were made in front of a sizable number of 
NASA physicians. Not one of those physicians expressed a contradictory 
opinion, or a differing opinion, or a re-framed perspective from what 
was directly stated to the Committee. It is certainly possible that 
those voicing those concerns were misinformed malcontents. (It remains 
hard to understand the passivity and tolerance of all of the other NASA 
physicians present should that be the case.) It is also possible that 
those making these statements were subsequently identified as 
``whistle-blowers'' or ``trouble-makers'' and that interpersonal 
factors were brought to bear to silence and discredit their opinions. 
Certainly our Committee's efforts did not include sworn or written 
testimony, nor did it involve the use of law enforcement officials 
trained in interrogation aimed to arrive at the ``truth'' in the midst 
of reluctance to provide such information. It was and remains the 
Committee's unanimous opinion that the statements made about fear of 
ostracism and problems in communication were stated in sincerity and 
are accurately addressed in our report. We believe that the subsequent 
letter from the flight surgeons has very little, if any, credibility, 
and in fact confirms the atmosphere of fear of reprisal that was 
described to the Committee during the interviews. Similarly, the 
Astronauts who were willing to come forward to the Committee with their 
concerns did not repeat them to NASA when given the opportunity, but 
without anonymity. While we are sympathetic to the difficult position 
these flight surgeons and Astronauts were in following the release of 
our report and the strongly negative NASA public response to it, their 
subsequent silence, and the fact that this letter explicitly 
contradicts the statements they made during the interviews, causes the 
Committee to have grave concerns regarding the integrity of these 
individuals, their leadership, or both.

    (These responses represent the Chairman's personal opinion, based 
on the Committee's findings and deliberations, and have been reviewed 
by some, but not all, of the Committee Members.)

Questions submitted by Chairman Mark Udall

Q1.  Regarding flight surgeons who reported a disregard for their 
medical opinion on fitness for duty, flight safety, mission 
accomplishment, how pervasive was the issue?

A1. Based on our interviews, it was the considered opinion of the 
Committee that the NASA flight surgeons feel this disregard is a 
pervasive issue. This issue was discussed extensively during a group 
interaction with a significant number of NASA flight surgeons. Ample 
opportunity was given for the expression of opposing or contrary 
viewpoints and no dissenting opinions were raised, neither during the 
group session nor individually. Every aspect of the communications made 
to the Committee suggested that this was perceived to be a wholesale 
problem and not an occasional isolated incident, or something 
experienced by a few, but not the majority.

Q2.  Your report states that ``Problems of communication were evident 
among the four areas address: fight medicine, behavioral health, flight 
medicine clinic, and the Astronaut Office.''

        a.  What drove your committee to that conclusion?

        b.  Could you elaborate on this issue?

A2a,b. During our interviews, the NASA behavioral health physicians 
stated they were very reluctant to communicate with flight surgeons for 
fear that a perceived violation of the confidentiality of their 
communications (such as sharing the information with the appropriate 
crew surgeon or flight surgeon) could cause a backlash from the 
Astronaut Corps resulting in ``no Astronaut trusting the behavioral 
health clinic staff again.'' Physicians in behavioral health openly 
expressed uncertainty as to the ability of NASA flight surgeons to 
maintain the strict confidentiality of sensitive mental health care 
information, furthering their reluctance to share this information with 
concerned flight surgeons. They expressed even greater concern about 
sharing medical information with the Astronaut Office. Numerous 
physicians discussed their perspective that involvement of the 
leadership of the Astronaut Office would only be pursued (by them) in 
the event that it appeared that an Astronaut had a clearly 
disqualifying health issue, and that more subtle performance decrement 
concerns would not be raised.

Q3.  The report refers to anecdotes about risky behaviors. Could you 
provide examples of the types of risky behaviors mentioned?

Q3a.  In what ways were those behaviors risky?

A3a. NASA personnel related several specific incidents: of Astronauts 
attempting to de-conflict ground-based communications to Space Shuttle-
borne personnel amongst the Astronaut's current wife, American 
girlfriend, and Russian girlfriend, in violation of crew rest periods, 
as well as similar efforts to de-conflict the attendees (amongst wife, 
American girlfriend, Russian girlfriend) at launch, recovery, and other 
official NASA functions. Numerous members of the current Astronaut 
Corps expressed concerns about other U.S. Astronauts' excessive 
drinking of alcohol (with episodes of public intoxication) while 
completing training in Russia. While some portrayed this as a perceived 
irritation over the Russian tradition of toasting the achievement of 
milestones or of reaching significant agreements (even if it is nine in 
the morning), others said they had personally observed American 
Astronauts who had begun to drink excessively (evidenced by repeated 
instances of public intoxication) while in Russia. Along the same 
lines, American Astronauts stated that while in no way universal, it 
was becoming common for married American Astronauts to begin extra-
marital relationships with Russian women during their periods of 
training at Star City.

Q3b.  How does the military handle such behaviors?

A3b. (At the outset it should be noted that civilian employees of NASA 
cannot be held accountable under the UCMJ which applies to U.S. 
Military personnel, although Army, Navy, Marine, and Air Force 
personnel serving with NASA could be held so accountable.) Adultery is 
a criminal offense under the UCMJ, although conviction requires 
establishment of eyewitness testimony, confession, or photographic 
evidence confirming sexual relations of a married person with someone 
other than their spouse. However, the appearance of an adulterous 
liaison is a relatively commonly encountered phenomenon with military 
circles. It is usually approached by interview by the commanding 
officer with subsequent admonishments to end the relationship owing to 
its perceived impropriety, backed up by issuance of lawful orders to 
cease contact with the other party. If these no-contact orders are 
violated, that offense in itself is punishable without having to prove 
adultery. With regard to alcohol-related misconduct, this is again the 
province of the service member's commanding officer who has the option 
to issue verbal counseling, written counseling, admonishment, or 
reprimand, or to refer the individual for assessment by medical experts 
in mental health for an evaluation of a potential alcohol use disorder. 
Either problem-prone relationships or misuse of alcohol can be engaged 
by US Navy Human Factors Board or Council. Within the USAF, ``Wingman'' 
concepts would apply to earliest possible intervention with regard to 
risky use of alcohol. (Wingman concepts call for the earliest 
involvement of friend, peer, supervisor, medic, chaplain, etc., with 
aim toward heading off trouble before catastrophe strikes (such as a 
DUI arrest, family violence, suicide, etc.). Similar codes of conduct 
and expectations of behavior, both on duty and off, are in place at 
most civilian workplaces, with the prohibition of ``office romances,'' 
due to their disruptive impact on office function, being very common. 
These measures are taken, not only to protect the individual's health 
and well-being, but to ensure safety and mission accomplishment.

Q4.  The external review report states that ``The medical certification 
of Astronauts for flight duty is not structured to detect such episodes 
[of alcohol abuse], nor is any medical surveillance program by itself 
likely to detect them or change the pattern of alcohol use.'' Could you 
please elaborate on this finding? What, if anything, should NASA do 
differently?

A4. At the time of the Committee's review, there was no structured 
attention given at any regular interval with regard to the issue of use 
of alcohol by Astronauts. Flight surgeons should make an assessment of 
alcohol use at every annual Astronaut physical to provide an 
opportunity for the Astronaut to self-identify alcohol concerns. 
However, annual interviews, lab tests or other ``medical'' evaluations 
typically have very low yield, even in the presence of frank 
alcoholism. The most likely mechanism to identify alcohol problems is 
based on the observation of inappropriate behavior as witnessed by 
family members, co-workers or supervisors, and their willingness to 
come forward and identify the problem. Off-duty use of alcohol was 
characterized by Astronauts and flight surgeons as entirely a matter of 
Astronaut personal choice and preference. Astronaut leaders 
characterized it as ``not their business'' to observe use of alcohol by 
other Astronauts. While Astronauts interviewed could readily recall the 
policies of their parent military service (Navy, Air Force) regarding 
possible courses of action or interventions when observing a colleague 
drunk in public, they expressed uncertainty as to the applicability of 
those same approaches within NASA, owing largely to the fact that NASA 
is a civilian organization.

Q5.  The report finds that ``Astronaut medical and behavioral health 
care is highly fragmented and based on a medical disease model.'' Could 
you please explain what is meant by ``fragmented''?

        a.  What, in your view, would be a better model for NASA to 
        follow?

A5. By ``fragmented'' the Committee was referring to the fact that 
there was no system in place assuring that an Astronaut would receive 
medical care from the same flight surgeon over as long as possible a 
period of their NASA career. The exception to this was while assigned 
to a mission, during which it was likely that an Astronaut would be 
under the medical care of the same Crew Surgeon until their mission was 
accomplished. Many Astronauts spent long periods of time without an 
assignment to a specific mission. Those Astronauts could encounter 
medical care by any of dozens of flight surgeons serving on duty at the 
flight medicine clinic. Other than their annual medical examinations, 
most Astronaut health care was driven by a medical complaint causing 
the Astronaut to seek the care of whoever was on duty at the time they 
pursued care. There was an informal network of ``preferred'' flight 
surgeon providers often sought out by Astronauts for help with more 
significant health issues, but there was no published guidance for how 
that system was activated. Physician-Astronauts provided some medical 
care and used their influence to involve ``preferred'' flight surgeons 
in certain matters. The Committee believes that a ``better'' model for 
NASA to follow would be the assignment of each Astronaut and his/her 
family to the care of a team of one or two flight surgeons, 
subsequently making every effort that those physicians would be 
involved in the majority of medical care decisions for that Astronaut 
and family during their NASA service. This would enhance the 
development of a deeper relationship between flight surgeon and 
Astronaut, improving trust and increasing the likelihood that 
behavioral and medical problems can be identified and dealt with 
sooner.

Q6.  You testified that ``The general sense of disregard for human 
factors described as demoralizing to the point where NASA personnel are 
less likely to report concerns of performance decrement is the 
fundamental concern NASA must investigate and remedy.'' What types of 
performance decrement were mentioned by interviewees and do you believe 
NASA's plans for an anonymous survey to Astronauts and flight surgeons 
will capture such concerns?

A6. NASA flight surgeons and crew surgeons expressed belief that they 
were valued members of the NASA team with regard to aerospace medical 
subjects such as hazards of exposure to the microgravity environment or 
to radiation hazards, but did not express similar confidence with 
regard to their observations of human factors safety concerns which may 
fall outside the usual ``clinical'' realms, yet are often mentioned in 
post-accident safety investigations as causal or contributing factors. 
Some Astronauts interviewed expressed concerns about the ability of 
fellow Astronauts to perform technical aspects of their crew duties. 
While they expressed confidence that in the event that a crew member 
was marginally able to perform their assigned primary duties another 
crew member aboard the same mission would be fully qualified to perform 
those same duties, they felt there was a point in time where removal of 
the marginal crew member would delay the NASA timeline to an 
unacceptable degree, thus the discovery of this work-around solution of 
redundant competency. In at least one instance, an experienced 
Astronaut expressed the belief that human factors concerns related to 
the health status of a family member would render another Astronaut 
unable to perform up to expected standards, but would not result in 
removal from a crew--the burden of this situation would be left to the 
ingenuity of the mission commander to find a ``work around'' to prevent 
mission failure.
    We believe the best way to get accurate data on the prevalence of 
problems at NASA is to conduct a well-constructed anonymous survey. 
People are much more likely to speak freely when they are not at risk 
of punishment for their answers. If a large percentage of NASA's 
workforce completes the survey, it should be obvious whether the 
problems brought to us during the interviews were single voices or 
represent pervasive concerns. Clearly our Committee's provision of 
anonymity during our interviews was less than fully acceptable to NASA 
and much was made about the lack of ``proof' that anonymous information 
provides. Our use of this approach opened the Committee's findings to 
criticism with regard to the reliability and credibility of who said 
what and why they said it. With regard to issues identified in NASA's 
subsequent ``on-the-record'' safety investigation (by-name, in writing) 
it was NASA's expressed opinion that their on-the-record survey was 
valid and our Committee's anonymous interviews far less so. All of this 
said, it would appear that NASA's planned anonymous survey may indeed 
generate different data than their prior on-the-record survey did. The 
usefulness of the data will depend on what is asked, how it is asked, 
whether NASA personnel feel safe to speak freely and whether they feel 
anything constructive will be done with the information. Once the 
survey is administered, the crux of the matter would then be, ``What 
will NASA do with such data?''--a concern both for NASA and for those 
who provide oversight for NASA.

    (These responses represent the Chairman's personal opinion, based 
on the Committee's findings and deliberations, and have been reviewed 
by some, but not all, of the Committee Members.)

Questions submitted by Representative Ralph M. Hall

Q1.  The report of the NASA Astronaut Health Care System Review 
Committee (the ``Report') states, ``NASA must ensure the people can 
identify such safety and human performance concerns within NASA without 
fear of reprisal or career injury.'' How does the military address this 
issue, especially with regard to pilots?

A1. This is a broad and complex question. Within the context of a 
military aircraft mishap investigation there are two investigational 
boards conducted--one conducted in a non-attribution fashion, with an 
aim solely to get to the truth in an effort to prevent future mishaps; 
and a second to determine legal responsibility for the event, including 
potential criminal charges, loss of pilot rating, administrative 
reprimand, etc. Within the broader context of mishap prevention, the 
military has a variety of processes (as do the airlines) that allow 
both anonymous reporting (ironically the best known of these is under 
the oversight of NASA) and on-the-record reporting (for example filing 
of a Hazardous Air Traffic Report (HATR) following a near-miss mid-air 
collision). Both the USAF ``Wingman'' concept and the U.S. Navy Human 
Factors Boards emphasize the importance of, and the spontaneous 
gathering of, human factors data in the flying environment, the 
workplace, and even the social life of a military flying squadron. In 
this regard, the Navy's program is more robust, better described, and 
more clearly structured than is its Air Force counterpart, although 
both are founded on the similar concept--early intervention following 
earliest realization that there ``may be a problem.''

Q2.  On page 10 of NASA's internal Space Flight Safety Review (led by 
Bryan O'Connor) there is an e-mail rebuttal from the NASA's Flight 
Surgeons. Without naming names, presumably these are some of the same 
folks the NASA Astronaut Health Care System Review Committee 
interviewed, and possibly some of the same folks who may have felt 
their concerns were disregarded. How should our committee view this 
proclamation by the flight surgeons? Can you make any recommendations 
as to how a survey should be designed to minimize undue peer pressure 
and elicit the free exchange of information?

A2. The Committee was shocked and disappointed by the direct 
contradiction of statements made by NASA personnel during in-person 
interaction with Committee members versus the subsequent official 
written statement obtained by NASA. During interviews, more than one 
senior NASA physician directly stated the findings that the Committee 
reported. Those statements were made in front of a sizable number of 
NASA physicians, including many who subsequently signed this letter. 
Not one of those physicians expressed a contradictory opinion, or a 
differing opinion, or a re-framed perspective from what was directly 
stated to the Committee. It is certainly possible that those voicing 
those concerns were misinformed malcontents. (It remains hard to 
understand the passivity and tolerance of all of the other NASA 
physicians present should that be the case.) It is also possible that 
those making these statements were subsequently identified as 
``whistle-blowers'' or ``trouble-makers'' and that interpersonal 
factors were brought to bear to silence and discredit their opinions. 
Certainly our Committee's efforts did not include sworn or written 
testimony, nor did it involve the use of law enforcement officials 
trained in interrogation aimed to arrive at the ``truth'' in the midst 
of reluctance to provide such information. It was and remains the 
Committee's unanimous opinion that the statements made by the NASA 
flight surgeons during our interviews with them were stated in 
sincerity and accurately addressed in our report. We believe that the 
subsequent letter from the flight surgeons has very little, if any, 
credibility, and in fact confirms the atmosphere of fear of reprisal 
that was described to the Committee during the interviews. Similarly, 
the Astronauts who were willing to come forward to the Committee with 
their concerns did not repeat them to NASA when given the opportunity, 
but without anonymity. While we are sympathetic to the difficult 
position these flight surgeons and Astronauts were in following the 
release of our report and the strongly negative NASA public response to 
it, their subsequent silence, and the fact that this letter explicitly 
contradicts the statements they made during the interviews, causes the 
Committee to have grave concerns regarding the integrity of these 
individuals, their leadership, or both. With regard to the question of 
survey design, our Committee recommends a properly constructed, 
anonymous survey of appropriate NASA personnel, with an aim toward 
information gathering and interpersonal climate assessment, with senior 
leadership support, assurances of confidentiality, and an explicit 
intent to address any issues identified in order to improve safety and 
enhance human performance.

    (These responses represent the Chairman's personal opinion, based 
on the Committee's findings and deliberations, and have been reviewed 
by some, but not all, of the Committee Members.)

Questions submitted by Representative Tom Feeney

Q1.  The report of the NASA Astronaut Health Care System Review 
Committee (the ``Report'') recommends fostering a culture ``that hold 
individuals and supervisors accountable for safe and responsible use of 
alcohol.'' What conduct constitutes ``safe and responsible use?'' What 
conduct constitutes unsafe or irresponsible use? Does such 
accountability extend to off-duty alcohol use?

A1. Consumption of alcohol causes measurable, predictable suppression 
of central nervous system function, including impairment of judgment, 
balance and reaction time, to name a few effects. A precise definition 
of what is ``safe and responsible'' would prove more difficult than 
offering examples of what is not safe and responsible. None of the 
episodes described to the Committee appeared to be subtle or open to 
differences of opinion. Drinking and driving is neither safe nor 
responsible. Drinking within 12 hours of scheduled T-38 flight duties 
is neither safe nor responsible. Public intoxication is neither safe 
nor responsible. The question concerning the extension of the concept 
of safe and responsible consumption of alcohol to ``off-duty'' time is 
an intriguing one. Our Committee would argue that such an extension to 
off-duty behavior should be included in the whole person concept of 
assessing and mitigating human factors and their potential impact on 
safety and mission effectiveness. Off-duty drunkenness may (or may not) 
signal the development of an alcohol-use disorder and may (or may not) 
represent a hazard to aerospace operations. Along the same lines, off-
duty domestic violence may represent a threat to on-duty performance of 
flying duties, particularly if the domestic turmoil has upset sleep 
routines and caused distracting or upsetting daytime intrusions in the 
individual's thought processes. All of these issues, and many others of 
similar nature, represent human factors threats to safety and mission 
completion, and must be taken seriously by the entire NASA team.

Q2.  The Report recommends refocusing psychologist expertise towards 
``providing performance enhancement to all Astronauts.'' Please define 
``performance enhancement'' and provide some examples of such 
enhancement in other disciplines.

A2. The discipline of performance enhancement refers to assisting 
clinically normal people to improve their performance of challenging or 
key tasks. Common performance enhancement approaches involve 
improvement of public speaking ability, as well as improvement of team-
building and team-leading skills. The field of ``sports psychology'' 
abounds in examples of taking an athlete with talent and basic skill to 
the next level of performance. Often the concept of performance 
involves an individual's recognition of an area he/she would like to 
strengthen, as contrasted with a suffering individual seeking relief of 
distress. An example of performance enhancement with potential 
relevance to Astronaut duties would be a veteran pilot with awareness 
that in stressful, difficult circumstances he tends to become 
increasingly authoritarian and issue orders, closing off discussion--
working toward more active team building, active listening, and rapid 
work with a group to generate an active solution with group buy-in.

Q3.  The Report recommends that behavioral health evaluations include 
``recognized screening instruments for the above commonly occurring 
behavioral health issues.'' Please identify each specific ``behavioral 
health issue'' and the corresponding ``recognized screening 
instruments.''

A3. With regard to screening for misuse of alcohol there are two 
commonly used instruments (CAGE and AUDIT) that would be preferable 
over the utilization of no screening instruments (which is the current 
NASA approach). Of course, there are other approaches to alcohol misuse 
screening as well. With regard to screening for general behavioral 
health issues or for significant exposure to stress that might 
predispose to the development of health problems there are also a host 
of possible screening tools. One good prospect for such screening in 
the NASA population is the Outcome Questionnaire-45 (OQ-45), which is a 
screening tool (in widespread use throughout the USAF) that screens for 
a wide variety of psychological and interpersonal concerns. Another 
similar instrument is the Patient Health Questionnaire (PHQ, which 
gives subscores for a variety of health concerns, including depression. 
Another similar instrument, in widespread use throughout the U.S. DOD, 
is the Preventive Health Assessment (PHA). These screening measures can 
be followed by administration of more focused measures in the event say 
that an OQ-45 suggests the possibility of clinical depression, The Beck 
Depression Inventory (BDI) can be administered to amplify that finding. 
All of the screening tools and tests mentioned in this paragraph are 
low cost and require only a small investment of time. Likewise, any 
results would need follow-up with a health care professional.

Q4.  The Report found: ``Many anecdotes were related that involved 
risky behaviors by Astronauts that were well known to the other 
Astronauts and no apparent action was taken.'' Reasonable people hold 
differing definitions of what constitutes a ``risky behavior.'' Without 
violating the confidentiality promised by the NASA Astronaut Health 
Care System Review Committee during its work, please define ``risky 
behavior'' as used in the Report and provide examples of what does and 
does not constitute such a ``risky behavior.''

A4. Risky behaviors referred to by the Committee as described by NASA 
Astronauts and flight surgeons included openly adulterous relationships 
(romantic relationships well-known to many co-workers acquainted with 
both the Astronaut's spouse and the Astronaut's girlfriend); 
interpersonal anxiety caused by attempting to maintain contact (during 
Shuttle space missions in space flight) with current wife, American 
girlfriend, and Russian girlfriend; drinking so much alcohol the night 
before a space launch (from Russia) that severe signs of intoxication 
became evident resulting in a NASA flight surgeon being assigned to 
assure that the Astronaut did not vomit and choke upon his vomitus; 
arriving at a NASA T-38 aircraft about to fly cross-country from 
Florida to Houston with such notable alcohol hangover that another NASA 
Astronaut refused to fly as fellow crew member with the Astronaut 
suffering the hangover, and so forth. The majority of ``risky'' 
behaviors mentioned by Astronauts and NASA physicians centered upon 
concerns such as these. It can be argued that any of these types of 
behavior put a person on course to court disaster. It can be argued 
that these represent variations on the theme of a consenting adult's 
free choice. In military aviation such behaviors are seen as potential 
signs of trouble brewing, including the kind of trouble that can be 
associated with aviation mishaps, loss of aircraft, and loss of lives, 
thus they are seen as the appropriate province of friend, wingman, and 
commander with an eye toward mitigation of risk.

    (These responses represent the Chairman's personal opinion, based 
on the Committee's findings and deliberations, and have been reviewed 
by some, but not all, of the Committee Members.)

                   Answers to Post-Hearing Questions
Responses by Richard S. Williams, Chief Health and Medical Officer, 
        National Aeronautics and Space Administration

Questions submitted by Chairman Bart Gordon

Q1.  Could you please submit for the record which recommendations of 
the NASA Astronaut Health Care System Review Committee you will not 
accept and why?

        a.  What kind of reporting process will you use?

A1. NASA has developed a comprehensive response plan that integrates 
recommendations and actions from all three existing reports: the NASA 
Astronaut Health Care System Review Committee, the Space Flight Safety 
Review of Alcohol Use in the Pre-Flight Period, and the Johnson Space 
Center Internal Review. Progress will be reviewed quarterly by the 
Medical Policy Board, and a briefing to the Aerospace Safety Advisory 
Panel is anticipated early next year.

Q2.  Your testimony notes that ``External review of our behavioral 
medicine services was performed in February 2007. This review 
determined that NASA provided a competent group of behavioral health 
providers (BHP) rendering excellent clinical and occupational care. 
Recommendations were also made for improvement, and actions were in 
place to address many of these areas at the time of Dr. Bachmann's 
review.'' Who conducted the February 2007 external review of behavioral 
medicine services, what was the charge to the reviewers, what were the 
main recommendations, and why did NASA perceive the need to solicit an 
additional independent review of astronaut health care?

A2. The February 2007 review was conducted by Dr. Royden W. Marsh, 
employed by the U.S. Air Force (USAF) School of Aerospace Medicine on 
the Psychiatry consultation service. Dr. Marsh was known to NASA 
behavioral medicine staff and is an experienced aerospace medicine 
practitioner, having worked for many years in support of USAF 
aeromedical behavioral health services and having previously worked at 
Johnson Space Center. Dr. Marsh conducted his quality review of the 
Behavioral Health office and clinical care on February 28 and March 1, 
2007. This review was conducted as part of NASA's overall program to 
insure quality of astronaut health care services. The scope of the 
review included credentialing, privileging, primary source 
verification, internal peer review, and external quality review of 
office procedures, medical record-keeping, and review of clinical care. 
Such a review is also done on a regular basis for the Flight Medicine 
Clinic. It should be noted that the preparations for this review were 
initiated in January 2007, approximately one month before the event 
involving Lisa Nowak.
    The main recommendations from the review were related to 
credentialing and privileging, and external peer review. Dr. Marsh 
recommended several improvements to our credentialing and privileging 
procedures which have been incorporated. He also recommended 
formalization of external consultant peer review by an aerospace 
psychiatry consultant, and implementation of a formalized, quarterly, 
internal peer review process to enhance review of the Behavioral 
Medicine Clinic. NASA agreed with this recommendation and has 
incorporated it in our planning.

Q3.  Col. Bachmann's testimony noted that one of the three most 
important issues identified by the external review is that ``medical 
and behavioral health services should be integrated and focused on 
astronaut performance enhancement.'' What steps, if any, does NASA plan 
to take with regard to using medical and behavioral health services to 
enhance astronaut performance?

A3. NASA has accepted this recommendation and is now considering the 
appropriate changes to its services through its comprehensive response 
to the NASA Astronaut Health Care System Review Committee Report. The 
changes are being developed, and will be reviewed later this fiscal 
year by the Chief Health and Medical Officer's Medical Policy Board, a 
joint internal and external medical advisory group, whose members are 
senior physicians from NASA and other federal agencies.

Questions submitted by Chairman Mark Udall

Q1.  Your testimony refers to the creation of the Office of the Chief 
Health and Medical Officer in 2000 as a result of recommendations of 
external advisory groups. Who were those groups, and why did they see 
the need to set up your office--what problem were they trying to fix?

A1. Prior to the establishment of the Office of the Chief Health and 
Medical Officer, this function existed within the Office of Life and 
Microgravity Sciences and the Office of Space Flight. The functional 
entity thus did not constitute an Agency-wide authority, and influence 
that could be exercised on behalf of health and medical policy and 
oversight and protection of research subjects was limited. In 1998, 
NASA requested that the National Academy of Sciences Institute of 
Medicine (IOM) review NASA's biomedical structure for transitioning 
from low-Earth orbit operations to exploration class human space flight 
missions to Mars. The IOM completed their study over the next two years 
and published Safe Passage: Astronaut Care for Exploration Missions 
(2001). The IOM suggested a central authority responsible for all NASA 
health and medical matters be developed The IOM specifically 
recommended: ``To support safe human exploration of space, the National 
Aeronautics and Space Administration (NASA) should pursue a two-
component strategy: (1) it should pursue a comprehensive health care 
system for astronauts to capture all relevant epidemiological data, and 
(2) it should pursue a long-term, focused health care research strategy 
to capture all necessary data on health risks and their amelioration. 
An occupational health model should apply to the first pursuit. . . To 
accomplish this strategy, there should be an organizational component 
within NASA that has authority over and accountability.for all aspects 
of astronaut health.''
    The Aerospace Medicine and Occupational Health Advisory Committee 
(AMOHAC) of the NASA Advisory Council (NAC) (as constituted at that 
time) also recommended that the position of NASA Chief Medical Officer, 
at the NASA Administrator's staff level, be established. Establishing 
such a position (with responsible staff) elevates cognizance of the 
importance of health and medical issues at the Agency level, clearly 
establishes policy and oversight authority for NASA's health care 
delivery efforts, and clearly establishes functional responsibility for 
health risk assessment and health standards definition. This allows 
effective oversight of all health related issues within the Agency, 
and, through health and medical standards development, provides 
guidance to NASA's biomedical research program in support of human 
space flight and the Vision for Space Exploration. NASA's current 
governance model, which established technical authorities (including 
Health and Medical Technical Authority), is well served by the Office 
of the Chief Health and Medical Officer, in parallel with the Office of 
the Chief Engineer and the Office of Safety and Mission Assurance.

Q2.  Are alcoholism, alcohol abuse, and drug abuse/addiction 
encompassed in the established medical standards for fitness for flight 
and fitness for duty? If not, why not?

        a.  Can flight surgeons ground an astronaut due to behavioral 
        health and has this ever occurred?

A2. Yes, these issues are addressed by established medical standards. 
Flight surgeons can ground an astronaut for failing any aeromedical 
standard, including those covering behavioral health issues. NASA has 
never grounded an astronaut (denied a waiver) or allowed an astronaut 
to fly (issued a waiver) for failing to meet behavioral health 
standards.

Q3.  How are astronaut problems that do not violate a behavioral 
standard (debt due to gambling, infidelity, etc.) but that could pose 
behavioral and performance risks over time, handled?

A3. All NASA employees are subject to supervisory evaluation for 
maintaining work proficiency. This means that unless a person is 
incapacitated to a degree that they are not able to perform their job 
to their supervisor's satisfaction, no additional direct intercession 
is done without the explicit initiation and consent by the affected 
employee. However, the NASA Occupational Health Program promotes 
continued employee education related to stress at work, alcohol or 
other substance use or abuse, and other health issues. NASA, encourages 
employees to seek help, and makes available an Employee Assistance 
Program. Additional resources are available for astronauts and their 
families through the Behavioral Health Program. New processes are being 
developed to include an annual behavioral health exam for astronauts 
that should make behavioral health encounters routine and foster more 
communication between care providers and the astronauts.

Q4.  The external review notes that ``Astronauts are not required to 
report illnesses, injuries or medication use unless they determine them 
to be significant.'' What is the reason for this practice?

        a.  What protections exist to ensure that astronauts are not 
        impaired by medication use that may not have been reported to 
        flight surgeons?

A4. This practice is consistent with other aeromedical systems 
including the FAA. The astronaut is required to report any medical 
issue including medication that might represent a safety of flight 
issue, but not all over the counter medications that arc approved for 
flight status need to be reported. During the launch process, medical 
examinations and laboratory evaluations are conducted 10 days and two 
days prior to launch.

Q5.  NASA has announced that it is accepting applications for the 2009 
astronaut class. With the retirement of the Shuttle in 2010, the 
astronaut class of 2009 will be conducting longer-duration missions, 
making behavioral health an even more important factor for astronaut 
crews. Could you please describe in specific terms if the behavioral 
aspects of the selection process are being modified in response to the 
independent health care system review, and if so, in what ways?

A5. NASA is reviewing its behavioral health data to determine if 
changes need to be made to its process in light of the findings of the 
Astronaut Health Care System Review Committee and corresponding 
internal NASA reviews. Any recommendations for change would be 
evaluated prior to the next scheduled selection.

Q6.  Your testimony notes that several aspects of the Independent 
Astronaut Health Care Review are being assessed and examined. What is 
the plan and schedule, and how will progress be monitored?

A6. NASA has developed a comprehensive response plan that integrates 
recommendations and actions from all three existing reports (NASA 
Astronaut Health Care System Review Committee report, the Space Flight 
Safety Review of Alcohol Use in the Pre-Flight Period, and the JSC 
Internal Review). Progress will be reviewed quarterly by the Medical 
Policy Board (MPB) and a briefing to the Aerospace Safety Advisory 
Panel (ASAP) is anticipated early next year.

Questions submitted by Representative Jo Bonner

Q1.  If astronauts have been conditioned to view emotional problems as 
weaknesses to be suppressed and compartmentalized, of if they perceive 
that disclosing personal problems could derail their careers, they will 
understandably be reluctant to seek psychological counseling. How do 
you foster a supportive, trusting relationship between the astronauts 
and the behavioral health specialists?

A1. Several approaches, outlined below, are being pursued to foster a 
supportive and trusting relationship between the astronauts and the 
behavioral health specialists.

        1)  The behavioral health clinic is separate from the flight 
        medicine clinic to maintain privacy.

        2)  Privacy Act regulations are followed to further maintain 
        the privacy of behavioral health visits.

        3)  The behavioral health clinic is available for the astronaut 
        dependents as well. Thus the whole family can get the 
        appropriate psychological support.

        4)  New processes are being developed to include an annual 
        behavioral health exam for astronauts that should make 
        behavioral health encounters routine and foster more 
        communication between care providers and the astronauts.

Q2.  The Committee's Report states that NASA has to grapple with many 
cultural and structural issues, some of which have existed since the 
earliest days of the astronaut program. Do you agree with this 
assessment? If yes, what steps will you take to change such deeply 
ingrained behaviors?

A2. NASA has made many cultural and structural changes based on the 
Columbia Accident Investigation (CRIB) report recommendations (which 
have been previously reported to the Congress). To determine if there 
are other specific cultural or structural issues that need to be 
changed, NASA is first pursuing an anonymous survey to further 
characterize issues related to cultural and structural issues within 
the Astronaut Corps and within the cadre of flight surgeons. The survey 
is focused on communication, trust and decision-making. Results of this 
survey will be utilized to guide any needed changes to address issues 
of concern with the astronaut and medical communities.
    From an Agency perspective, it is widely recognized that 
improvement in safety culture can be derived from improvements in the 
safety climate through active supervisory and peer involvement. The 
safety climate of an organization is defined by many factors including 
technical knowledge and behavior of its members with regard to safety. 
This includes opportunities for personnel exposure to safety principles 
and practices, dissemination of safety lessons learned, the ease of 
safety communication up and down the organization, and the 
consideration of safety in management decisions.
    NASA is pursuing a multi-faceted approach for improving safety 
climate across the Agency that will include the astronaut corp. This 
approach is based on:

        <bullet>  Integration of safety management with programmatic 
        and engineering decision processes

        <bullet>  Achieving technical excellence in safety and mission 
        assurance activities

    The former is being implemented through NASA's governance model. 
The latter is being addressed by establishing the NASA Safety Center 
(NSC) to expand and strengthen the safety training element of NASA's 
safety program. Each approach is briefly discussed below:

NASA Governance Model--Over the past several years NASA has been 
defining and implementing an overall governance model that is based on: 
(1) responsible decision-making; (2) a balance of power; and; (3) the 
establishment of checks and balances. These elements and the practices 
are a direct outgrowth of the Columbia Accident Investigation Board 
(CAIB) findings and establish a framework for a safety culture to grow 
and thrive. These three elements permit ongoing lively discussion and 
debate to occur unfettered at all levels within the NASA organization. 
The NASA Administrator has set the overall tone for these discussions 
and debates by consistently challenging decisions and established 
policies looking for new ways to answer questions, and NASA has 
codified a formal process for dissent in NASA Procedural Requirements 
7120.51), NASA Space Flight Program and Project Management 
Requirements. The visibility and clear definition of the overall 
decision process along with the examples of these processes set at the 
highest level of the Agency in the Program Management Council and other 
top level councils establishes the benchmark for the rest of the Agency 
to follow. Even so, NASA recognizes that even with these concepts 
documented and regularly exercised, there will be people that remain 
uncomfortable even in the most open of organizational safety climates. 
Some of that lack of comfort might be attributed to a lack of technical 
competency or standing among one's peers or from lack of confidence in 
the openness of management. As discussed in the following paragraphs 
NASA is taking steps to increase the competence (and confidence in the 
competence) of the NASA workforce relating to safety and mission 
assurance disciplines through the Technical Excellence activities, and 
we are also developing the capability to measure the overall climate 
with respect to safety.

Achieving Technical Excellence in Safety and Mission Assurance--NASA is 
committed to increase the awareness and concern for safety at all 
levels beginning with system safety in design and facility operations 
to astronauts and flight operations. Increased excellence and awareness 
in safety are necessary ingredients for strengthening our safety 
culture. The Technical Excellence Program being developed at the NSC 
will conduct educational programs to raise safety awareness, 
disseminate safety lessons learned, and increase the safety emphasis of 
NASA management and staff. Safety engineering and management courses 
that are being planned will address not only safety in the operational 
and design environment but also philosophy and doctrine that influence 
the various management and technical levels at NASA. We believe that 
the envisioned Technical Excellence Program will not only increase the 
safety competency of our workforce but will also increase management's 
awareness of the benefits that derive from sound safety management and 
safety engineering principles and processes being applied uniformly 
across the Agency.

Measuring and Communicating Safety Culture Using a Standard Process--
Recognizing the importance of safety culture, our Office of Safety and 
Mission Assurance (OSMA), over the past two years, has developed and 
maintained contacts with several faculty members of the Naval 
Postgraduate School (NPS) and the University of California at Berkeley 
(UCB) who have developed a web-based safety climate survey tool for the 
Naval Aviation School. Recognizing the difficulty inherent in measuring 
safety culture, this tool uses safety climate metrics as an indicator 
of cultural strengths and weaknesses. After several exchanges of 
information and views between the OSMA and the NPS/UCB faculty, it was 
decided that a proof-of-concept should be undertaken to demonstrate the 
feasibility of using a similar tool at NASA. The Goddard Space Flight 
Center (GSFC) volunteered to participate in the first pilot study just 
completed. On August 24, 2007, the preliminary results of this pilot 
project were presented to OSMA. OSMA is currently evaluating the 
results of this study and is planning to conduct a series of additional 
pilot studies. These studies will allow OSMA to incrementally arrive at 
an Agency-wide safety culture shaping and measurement process that will 
be effective for both design and operational environments at NASA. OSMA 
is also investigating whether this process will allow NASA on-site 
contractors to participate on a voluntary basis; contractor 
participation may be dependent on the specific contract. To this end, 
the activities outlined below are being pursued by OSMA.

        <bullet>  Examine the results of the GSFC study and past safety 
        culture assessment and shaping processes performed at NASA as 
        well as in other government and non-government organizations to 
        determine best practices and analyze what practices could be 
        adapted for NASA use.

        <bullet>  Develop a safety culture assessment and shaping 
        process, or adapt/refine a currently employed process for NASA 
        use that incorporates the applicable government and industry 
        best practices. This process will include methods to educate 
        Center leadership on the process, measure safety climate, 
        analyze the survey data, and advise NASA Headquarters and 
        Center leadership as to the results and recommended strategies 
        to strengthen safety culture.

    Together, these efforts will allow NASA to address many cultural 
and structural issues, some of which have existed since the earliest 
days of the astronaut program.

                   Answers to Post-Hearing Questions
Responses by Ellen Ochoa, Director, Flight Crew Operations, NASA 
        Johnson Space Center

Questions submitted by Chairman Mark Udall

Q1.  NASA has noted that it is working with astronauts to develop a 
code of conduct. Could you please describe what the code of conduct is 
expected to entail?

        a.  How will it be communicated to new and current astronauts 
        and how will it be enforced?

A1. At NASA we not only abide by code of ethics regulations for 
executive branch employees, we also have documented core Values for all 
of us including our Astronaut Corps. These include safety, teamwork, 
integrity, and mission success. Anything we develop will be further 
definitions of expectations of behavior, acknowledging the visible role 
that astronauts play in representing NASA. A senior astronaut is 
currently leading a team of astronauts to develop these values and 
attributes that astronauts are expected to exhibit. Once developed they 
will be communicated to all astronauts and prominently displayed in 
conference rooms and other key locations, as well as discussed during 
new astronaut selection. We will discuss enforcement approaches after 
reviewing proposed expected principles of behavior developed by the 
astronaut team.

Q2.  Col. Bachmann's testimony notes that ``an anonymous survey of the 
relevant NASA populations, covered by this report-medical personnel, 
astronauts, and training personnel'' is the most important first step 
NASA needs to take. Will NASA's anonymous survey include all the groups 
identified by Col. Bachmann? If not, why not?

A2. The survey included flight surgeons and astronauts only. The survey 
tool was selected to appraise the issues raised by crew members and 
flight surgeons because these were the specific groups that had raised 
issues with the Review Committee and we felt it should remain focused 
on these groups.
    NASA leadership has other mechanisms in place to ensure that flight 
safety and mission success concerns can be raised and discussed without 
retribution by any personnel. In response to the External Committee 
finding, the Johnson Space Center (JSC) took the opportunity to remind 
affected staff of the importance of their responsibility to raise 
concerns, and the mechanisms available to them for doing so, including 
anonymous reporting systems such as the NASA Safety Reporting System 
(NSRS).
    Training requirements and all aspects of preparation for 
aeronautical flight and space flight will continue to be rigorous and 
focused. Crew members are routinely evaluated on their performance by 
training personnel and we will continue to encourage open and honest 
assessments.

Q3.  NASA has announced that it is accepting applications for the 2009 
astronaut class. With the retirement of the Shuttle in 2010, the 
astronaut class of 2009 will be conducting longer-duration missions, 
making behavioral health an even more important factor for astronaut 
crews. Could you please describe in specific terms in what ways, if at 
all, the selection process is being modified in response to the 
independent health care system review?

A3. Both the External Committee and the Johnson Space Center (JSC) 
Internal Review recommended that NASA evaluate enhanced usage of 
suitability testing for ``select in'' purposes for acceptance into the 
Astronaut Corp. This testing will ultimately need to be validated 
against actual space flight performance. JSC will review the state-of-
the-art for suitability testing and determine if any changes need to be 
made to the current astronaut selection process. This will include 
consultation with NASA aerospace psychologists/psychiatrists, external 
academic and industry-leading industrial and organizational 
psychologists. Based on the results of the review, it may be 
appropriate to develop a suitability standard for qualification of 
astronaut applicants at selection.

Q4.  You testified that an ``Astronaut Evaluation Board is periodically 
convened by the Astronaut Office to review astronauts completing flight 
assignments, astronaut candidate training, or other astronauts 
recommended for review.'' Who are the members of the Board, when did it 
last meet, and what issues did it address in that meeting?

A4. The Deputy Chief of the Astronaut Office usually serves as the 
Chairperson of the Astronaut Evaluation Board (AEB). Board members are 
senior astronauts, normally the Astronaut Office Branch Chiefs, whose 
leadership, experience, knowledge, and skills are applicable to the 
subject of concern and whose current job assignments make them 
available to serve on the board. Input is also gathered from training 
personnel in addition to other astronauts.
    The last AEB was conducted on August 29, 2007. The purpose was to 
review the Space Shuttle and International Space Station expedition 
crew members recently returning from flight to determine if they were 
eligible for another flight crew assignment.

Q5.  Your testimony notes that ``NASA currently employs a system for 
reporting any situation requiring attention that may impact safety of 
flight. . ..'' Have those pathways, including the Independent Health 
and Medical Technical Authority, been used to report issues regarding 
astronauts that may have affected safety of flight? If so, could you 
please elaborate?

A5. No issues with astronaut behavior that may impact safety of flight 
have ever been reported using these avenues.

Q6.  Your testimony notes that you have ``taken the opportunity to 
clarify our space flight alcohol policy, and based on Bryan O'Connor's 
review, will determine whether any revision or expansion of the policy 
is warranted.'' What plans, if any, does NASA have to consult the Space 
Life Sciences Directorate regarding the medical basis for the policy or 
any final changes to the alcohol policy?

A6. The Flight Crew Operations Directorate will continue to consult the 
Space Life Sciences Directorate regarding all medical aspects of this 
and other policies. Bi-weekly meetings between space medicine and 
astronaut office management are taking place and will continue. NASA is 
in the midst of conducting an anonymous survey of astronauts and flight 
surgeons to provide additional feedback and gather suggestions for 
improvement in this and other areas as well.

Questions submitted by Representative Jo Bonner

Q1.  If astronauts have been conditioned to view emotional problems as 
weaknesses to be suppressed and compartmentalized, of if they perceive 
that disclosing personal problems could derail their careers, they will 
understandably be reluctant to seek psychological counseling. How do 
you foster a supportive, trusting relationship between the astronauts 
and the behavioral health specialists?

A1. No data exists to suggest that astronauts are conditioned to view 
emotional problems as weaknesses to be suppressed. In fact, the 
behavioral medicine patient numbers provided to your committee covering 
the past several years highlights the availability of these specialists 
and the extensive use of them by our astronauts and their families.
    Several approaches are used to foster a supportive, trusting 
relationship between the astronauts and the behavioral health 
specialists. First and foremost, our approach relies on respecting 
medical privacy policies and procedures. In addition, bi-weekly 
meetings between space medicine and astronaut office management 
continue to take place to help ensure regular and effective 
communications. NASA is also in the midst of conducting an anonymous 
survey of our astronauts and flight surgeons to provide additional 
feedback, and suggestions for improvement, in a variety of areas 
including level and quality of communications and trust.

Q2.  The Committee's Report states that NASA has to grapple with many 
cultural and structural issues, some of which have existed since the 
earliest days of the astronaut program. Do you agree with this 
assessment? If yes, what steps will you take to change such deeply 
ingrained behaviors?

A2. In performing their jobs each day, astronauts provide input into 
all aspects of operations and development activities including 
readiness for flight, both within their chain of command, and 
throughout human space flight program forums. It has not been my 
experience that astronauts are reluctant to speak up, nor is there any 
evidence to support that there is a culture that inhibits 
communication. Nonetheless, Flight Crew Operations leadership is 
committed to following up on the comments in the report, and a major 
objective of the survey currently underway is to understand any 
potential concerns in raising or responding to issues with flight 
safety or crew suitability for flight or any barriers that might exist 
to raising concerns.

                   Answers to Post-Hearing Questions
Responses by Bryan D. O'Connor, Chief, Safety and Mission Assurance, 
        National Aeronautics and Space Administration

Questions submitted by Chairman Mark Udall

Q1.  Your testimony notes that ``Some or all of the reported incidences 
could possibly have happened during earlier times in the countdown 
where there are fewer witnesses and, if so, they would represent ground 
safety and flight schedule threats.'' If such incidences were occurring 
at earlier times in the countdown, what are the implications for ground 
safety? What measures are in place to detect such threats to ground 
safety and flight schedule?

A1. This statement is meant to distinguish a flight safety issue 
(flying an impaired crew member) from a ground safety issue (impaired 
crew member hurts himself the day before launch requiring first aid or 
other medical help), and a schedule issue (crew member injures himself 
so seriously as to cause the flight surgeon to withdraw his 
certification for flight). In the Soyuz operation, a crew injury would 
result in the backup crew member being assigned to fly, and there would 
be no affect on schedule. For the Shuttle operation, where there are no 
backups, a grounded crew member would necessarily cause a launch slip. 
NASA would then have to wait until the crew member has recovered from 
the injury, or train a substitute crew member.
    Flight surgeons live in crew quarters with the crew members in the 
United States and Russia. They are available for addressing any health-
related issue that might constitute a concern to ground or flight 
safety. Further, examinations are conducted ten days and two days 
before launch, and the flight surgeons are present on launch morning 
including crew suit up.
    In addition, the Johnson Space Center has a policy which requires 
that assigned crew members abstain from high risk activities when they 
are assigned to missions. Examples in the policy are skydiving, 
volunteer firefighting, air racing, and (newly added since the study) 
excessive use of alcohol.

Q2.  Your testimony notes that ``some whom I interviewed admitted that 
it is possible that someone could have inadvertently violated the 12-
hour rule by a small amount at some time in their military or NASA 
flying career.'' Was this point included in your Safety Review? If not, 
why not? Could you please describe how someone could have inadvertently 
violated the 12-hour rule? Would that mean that someone was unaware of 
the 12-hour policy?

A2. I did not record these verbal references (from long retired pilots) 
in my report because they were not about space flight. One reference 
was offered as a hypothetical: an airplane pilot could violate the rule 
concerning the 12-hour period before launch, during which astronauts 
are required to abstain from consuming alcohol, not because he was 
unaware of the rule, but because he lost track of the time at the 
restaurant or officers club the night before a scheduled morning 
flight. The other was a general reference to military flying in the 
1960s and 1970s where people sometimes bumped up against the 12-hour 
rule due to sloppy time management, and peer pressure. The purpose of 
both of these references was to compare the past and current cultures. 
The message I took from these non specific references was that alcohol 
and flying was a bigger issue 30-40 years ago than it is today, and 
that today's airplane pilots, including those assigned to NASA, are 
much better about separating alcohol from flying than their 
predecessors were in the ``old days.''

Q3.  How often are the appeals processes and the Health and Medical 
Technical Authority being used and for what types of issues?

A3. The Health and Medical Technical Authority reviews all health and 
medical waivers and exceptions for all three programs, the Space 
Shuttle, International Space Station (ISS) and Constellation. 
Programmatic issues have been addressed to date at the local Johnson 
Space Center (JSC) level without needing to elevate an appeal or waiver 
decision to the Chief Health and Medical Officer. All individual 
medical waiver issues for astronauts are reviewed by the Chief Health 
and Medical Officer, and permanent waivers for medical conditions are 
also approved by the Chief Health and Medical Officer. Medical 
disqualification of individuals is extremely rare, and over the last 10 
years the appeals process for individual medical disqualification has 
only been used twice. Active communication takes place between the JSC 
Chief Medical Officer and the Headquarters Chief Health and Medical 
Officer weekly for programmatic and aerospace medicine issues and 
quarterly summaries are provided as well. In 2003, a minority opinion 
was developed for ISS flight readiness concerning the availability of 
exercise equipment and environmental monitoring; this was presented at 
the Flight Readiness Review and all aspects of the issue were 
considered by senior management. All participants were very satisfied 
with the discussion and communication. This outcome is discussed within 
the Health and Medical Technical Authority as an example of effectively 
raising and addressing flight safety issues to senior management.

Questions submitted by Representative Ralph M. Hall

Q1.  How should NASA deal with an astronaut's natural reluctance to 
raise health or behavioral issues that they believe may jeopardize 
their selection for future missions or assignments? Based on your 
experience, are members of the Astronaut Corps confident that they can 
raise health issues, or emotional or family problems without fear of 
jeopardizing their NASA careers?

A1. The behavioral medicine patient numbers provided previously to the 
Committee covering the past several years highlight the availability of 
these specialists and the extensive use of them by our astronauts and 
their families.
    In order to continue to encourage astronauts to raise and address 
behavioral health issues, several approaches are being pursued to 
foster a supportive and trusting relationship between the astronauts 
and the behavioral health specialists as outlined below:

        1)  The behavioral health clinic is separate from the flight 
        medicine clinic to maintain privacy.

        2)  Privacy Act requirements are followed to ensure the privacy 
        of behavioral health visits.

        3)  The behavioral health clinic is available for the astronaut 
        dependents as well. Thus, the whole family can get the 
        appropriate psychological support.

        4)  New processes are being developed to include an annual 
        behavioral health exam for astronauts that should make 
        behavioral health encounters routine and foster more 
        communication between care providers and the astronauts.

        5)  NASA is conducting an anonymous survey of our astronauts 
        and flight surgeons to provide additional feedback, and 
        suggestions for improvement, in a variety of areas including 
        level and quality of communications and trust.

Q2.  In the aftermath of the Challenger and Columbia accidents NASA has 
tried very hard to ensure that there are open, independent 
communication paths to raise safety concerns. Would you please discuss 
policies and/or procedures that are now in place to ensure employees 
are encouraged to report any safety of flight issues, and would you 
please discuss how, if at all, you are changing or revising those 
policies as a result of the NASA Astronaut Health Care System Review 
Committee report?

A2. NASA has many paths for communication and these paths are described 
in NASA policy and NASA Procedural Requirements (NPR) such as NPR 
8715.1 regarding NASA Occupational Safety and Health Programs. These 
include:

        1)  reporting to Center or Component Facility Safety/Health 
        Official(s), as appropriate;

        2)  reporting to supervisory personnel or management;

        3)  reporting to Center Director;

        4)  reporting through the Safety and Mission Assurance (SMA) 
        organizations;

        5)  reporting through the Designated Agency Safety and Health 
        Official (DASHO);

        6)  anonymously reporting through the NASA Safety Reporting 
        System (NSRS);

        7)  anonymously reporting through Center hotlines such as the 
        Johnson Space Center (JSC) Hotline;

        8)  reporting to the Inspector Genera; and,

        9)  reporting directly to the Administrator.

    NASA also recognizes that employees have external reporting options 
including the Office of Federal Agency Safety and Health Programs--
Occupational Safety and Health Administration (OSHA)/Department of 
Labor.
    Following the Columbia Accident Investigation Board (CAIB) 
recommendations, NASA instituted three technical authorities, one for 
each of the following disciplines: engineering, safety, and health and 
medical. Employees may bring their concerns to the technical authority. 
If they are not satisfied with the way in which their concerns are 
dispositioned, there is a reclama process by which all decisions are 
elevated to the highest levels of NASA management.
    Since the NASA Astronaut Health Care System Review Committee 
report, the flight surgeons and astronauts also received refresher 
briefings of these available pathways, and their use is encouraged and 
supported. The Administrator and the Director, Johnson Space Center, 
reemphasized their encouragement that any employee can communicate with 
them directly for issues of concern.

                   Answers to Post-Hearing Questions
Responses by Michael D. Griffin, Administrator, National Aeronautics 
        and Space Administration

Question submitted by Chairman Bart Gordon

Q1.  Col. Bachmann's testimony noted that ``organizations as diverse as 
the military, the Federal Aviation Administration (FAA) and the 
Veterans Administration (VA) have made great progress, with active 
supervisory and peer involvement, in changing cultural attitudes 
towards safety, accountability, empowerment, and alcohol.'' What plans, 
if any, does NASA have for exploring and considering other federal 
agency approaches to these types of issues?

A1. NASA is actively benchmarking against many organizations to improve 
organizational effectiveness. Benchmarking for specific issues such as 
those raised in the report with the Federal Aviation Administration, 
Veterans Administration, and the Department of Defense will be added to 
this process that is already underway.
    NASA has initiated an activity to explore other federal agencies' 
and non-government organizations' approaches to analyzing cultural 
attitudes towards safety, accountability and empowerment and employ 
techniques to improve safety climate across the Agency.
    Recognizing the importance of safety culture, over the past two 
years NASA's Office of Safety and Mission Assurance (OSMA), has 
developed and maintained contacts with several faculty members of the 
Naval Postgraduate School (NPS) and the University of California at 
Berkeley (UCB) who have developed a web-based safety climate survey 
tool for the Naval Aviation School. Recognizing the difficulty inherent 
in measuring safety culture, this tool uses safety climate metrics as 
an indicator of cultural strengths and weaknesses. After several 
exchanges of information and views between the OSMA and the NPS/UCB 
faculty, it was decided that a proof-of-concept should be undertaken to 
demonstrate the feasibility of using a similar tool at NASA. The 
Goddard Space Flight Center (GSFC) volunteered to participate in the 
first pilot study just completed. On August 24, 2007, the preliminary 
results of this pilot project were presented to OSMA. OSMA is currently 
evaluating the results of this study and is planning to conduct a 
series of additional pilot studies. These studies will allow OSMA to 
incrementally arrive at an Agency-wide safety culture shaping and 
measurement process that will be effective for both design and 
operational environments at NASA. OSMA is also investigating whether 
this process will allow NASA on-site contractors to participate on a 
voluntary basis; contractor participation may be dependent on the 
specific contract. To this end, the activities outlined below are being 
pursued by OSMA.

        <bullet>  Examine the results of the GSFC study and past safety 
        culture assessment and shaping processes performed at NASA as 
        well as in other government and non-government organizations to 
        determine best practices and analyze what practices could be 
        adapted for NASA use.

        <bullet>  Develop a safety culture assessment and shaping 
        process, or adapt/refine a currently employed process for NASA 
        use that incorporates the applicable government and industry 
        best practices. This process will include methods to educate 
        Center leadership on the process, measure safety climate, 
        analyze the survey data, and advise NASA Headquarters and 
        Center leadership as to the results and recommended strategies 
        to strengthen safety culture.

    NASA is pursuing a multi-faceted approach for improving safety 
climate across the Agency. This approach is based on:

        <bullet>  integration of safety management with programmatic 
        and engineering decision processes; and

        <bullet>  achieving technical excellence in safety and mission 
        assurance activities.

    The former is being implemented through NASA's governance model. 
The latter is being addressed by establishing the NASA Safety Center to 
expand and strengthen the safety training element of NASA's safety 
program.

Questions submitted by Representative Ralph M. Hall

Q1.  The NASA Astronaut Health Care System Review Committee Report 
states that NASA has to grapple with many cultural and structural 
issues, some of which have existed since the earliest days of the 
astronaut program. Do you agree with this assessment? If yes, what 
steps will you take to change such deeply ingrained behaviors?

A1. NASA has made many cultural and structural changes based on the 
Columbia Accident Investigation Board (CAIB) report recommendations. To 
determine if there are other specific cultural or structural issues 
that need to be changed, NASA is first pursuing an anonymous survey to 
further characterize issues related to cultural and structural issues 
within the Astronaut Corps and within the cadre of flight surgeons. The 
survey is focused on communication, trust and decision-making. Results 
of this survey will be utilized to guide any needed changes to address 
issues of concern with the astronaut and medical communities.
    From an Agency perspective, it is widely recognized that 
improvement in safety culture can be derived from improvements in the 
safety climate through active supervisory and peer involvement. The 
safety climate of an organization is defined by many factors including 
technical knowledge and behavior of its members with regard to safety. 
This includes opportunities for personnel exposure to safety principles 
and practices, dissemination of safety lessons learned, the ease of 
safety communication up and down the organization, and the 
consideration of safety in management decisions.
    NASA is pursuing a multi-faceted approach for improving safety 
climate across the Agency that will include the Astronaut Corps. This 
approach is based on:

        <bullet>  Integration of safety management with programmatic 
        and engineering decision processes.

        <bullet>  Achieving technical excellence in safety and mission 
        assurance activities.

    The former is being implemented through NASA's governance model. 
The latter is being addressed by establishing the NASA Safety Center 
(NSC) to expand and strengthen the safety training element of NASA's 
safety program. Each approach is briefly discussed below:

NASA Governance Model--Over the past several years, NASA has been 
defining and implementing an overall governance model that is based on: 
(1) responsible decision-making; (2) a balance of power; and, (3) the 
establishment of checks and balances. These elements and the practices 
are a direct outgrowth of the CAIB findings and establish a framework 
for a safety culture to grow and thrive. These three elements permit 
ongoing lively discussion and debate to occur unfettered at all levels 
within the NASA organization. The NASA Administrator has set the 
overall tone for these discussions and debates by consistently 
challenging decisions and established policies looking for new ways to 
answer questions, and NASA has codified a formal process for dissent in 
NASA Procedural Requirements 7120.SD, NASA Space Flight Program and 
Project Management Requirements. The visibility and clear definition of 
the overall decision process along with the examples of these processes 
set at the highest level of the Agency in the Program Management 
Council and other top level councils establishes the benchmark for the 
rest of the Agency to follow. Even so, NASA recognizes that even with 
these concepts documented and regularly exercised, there will be people 
that remain uncomfortable even in the most open of organizational 
safety climates. Some of that lack of comfort might be attributed to a 
lack of technical competency or standing among one's peers or from lack 
of confidence in the openness of management. As discussed in the 
following paragraphs NASA is taking steps to increase the competence 
(and confidence in the competence) of the NASA workforce relating to 
safety and mission assurance disciplines through the Technical 
Excellence activities, and we are also developing the capability to 
measure the overall climate with respect to safety.

Achieving Technical Excellence in Safety and Mission Assurance--NASA is 
committed to increase the awareness and concern for safety at all 
levels beginning with system safety in design and facility operations 
to astronauts and flight operations. Increased excellence and awareness 
in safety are necessary ingredients for strengthening our safety 
culture. The Technical Excellence Program being developed at the NSC 
will conduct educational programs to raise safety awareness, 
disseminate safety lessons learned, and increase the safety emphasis of 
NASA management and staff. Safety engineering and management courses 
that are being planned will address not only safety in the operational 
and design environment but also philosophy and doctrine that influence 
the various management and technical levels at NASA. We believe that 
the envisioned Technical Excellence Program will not only increase the 
safety competency of our workforce but will also increase management's 
awareness of the benefits that derive from sound safety management and 
safety engineering principles and processes being applied uniformly 
across the Agency.

Measuring and Communicating Safety Culture Using a Standard Process--
Recognizing the importance of safety culture, our Office of Safety and 
Mission Assurance (OSMA), over the past two years, has developed and 
maintained contacts with several faculty members of the Naval 
Postgraduate School (NPS) and the University of California at Berkeley 
(UCB) who have developed a web-based safety climate survey tool for the 
Naval Aviation School. Recognizing the difficulty inherent in measuring 
safety culture, this tool uses safety climate metrics as an indicator 
of cultural strengths and weaknesses. After several exchanges of 
information and views between the OSMA and the NPS/UCB faculty, it was 
decided that a proof-of-concept should be undertaken to demonstrate the 
feasibility of using a similar tool at NASA. The Goddard Space Flight 
Center (GSFC) volunteered to participate in the first pilot study just 
completed. On August 24, 2007, the preliminary results of this pilot 
project were presented to OSMA. OSMA is currently evaluating the 
results of this study and is planning to conduct a series of additional 
pilot studies. These studies will allow OSMA to incrementally arrive at 
an Agency-wide safety culture shaping and measurement process that will 
be effective for both design and operational environments at NASA. OSMA 
is also investigating whether this process will allow NASA on-site 
contractors to participate on a voluntary basis; contractor 
participation may be dependent on the specific contract. To this end, 
the following activities are being pursued by OSMA:

        <bullet>  Examine the results of the GSFC study and past safety 
        culture assessment and shaping processes performed at NASA as 
        well as in other government and non-government organizations to 
        determine best practices and analyze what practices could be 
        adapted for NASA use.

        <bullet>  Develop a safety culture assessment and shaping 
        process, or adapt/refine a currently employed process for NASA 
        use that incorporates the applicable government and industry 
        best practices. This process will include methods to educate 
        Center leadership on the process, measure safety climate, 
        analyze the survey data, and advise NASA Headquarters and 
        Center leadership as to the results and recommended strategies 
        to strengthen safety culture.

    Together, these efforts will allow NASA to address many cultural 
and structural issues, some of which have existed since the earliest 
days of the astronaut program.

Q2.  What can you do as the NASA Administrator to verify that there is 
no stigma associated with an astronaut seeking psychological 
counseling, particularly for common emotional, or family related 
issues?

A2. Several approaches are being pursued. The behavioral health clinic 
is physically separate from the flight medicine clinic to maintain 
privacy. Privacy Act regulations are assiduously followed to further 
maintain the privacy of behavioral health visits. The behavioral health 
clinic is available for both astronauts and their dependents providing 
the whole family with appropriate psychological support. New processes 
are being developed to include an annual behavioral health exam for 
astronauts that should make behavioral health encounters routine and 
foster more communication between care providers and the astronauts.
    The NASA aeromedical certification boards would only consider a 
health related issue if it represented a potential flight safety issue; 
even in this circumstance, all efforts are made for any medical or 
behavioral health issue, to restore or maintain the astronaut's health. 
Behavioral and medical issues are considered equally and no stigma is 
attached to any health care issue. NASA has also put in place more 
frequent communication between the space medicine providers and 
Astronaut Office so that any aeromedical certification issues are 
clearly communicated including expected outcomes and resolution of the 
problem.

Q3.  Has the Aerospace Safety Advisory Panel (ASAP) been involved in 
the findings of the report or made any recommendations to guide NASA 
with implementation of the recommendations?

A3. The Aerospace Safety Advisory Panel (ASAP) is working with NASA, at 
multiple levels, to better understand the issues highlighted and the 
recommendations that were made. The ASAP has stated that their most 
important contribution will be to provide the NASA Administrator with 
independent counsel regarding changes implemented in response to the 
report. The Panel has indicated to NASA that they believe the report 
highlights both process issues and communication challenges that should 
be taken to heart and expeditiously addressed. The Panel has also 
indicated to NASA that they trusts the Agency's ``improving culture of 
openness'' will enable the Agency to also take aboard the subtle, yet 
important, messages contained in the report.
    It should be noted that Dr. James Bagian, who served on the Bachman 
Panel, is also a member of the ASAP.

Questions submitted by Chairman Mark Udall

Q1.  NASA has focused an investigation on the incidents of alcohol 
mentioned in the external review. Col. Bachmann's testimony notes that 
these incidents were examples of bigger issues of ``human factors 
concerns with significant safety implications [that] had been 
disregarded when raised to local on-scene leadership.'' What are NASA's 
plans for probing these larger human factors concerns and potential 
safety implications?

A1. NASA has developed a comprehensive response plan that addresses all 
recommendations in the NASA Astronaut Health Care System Review 
Committee Report. Recommendations for addressing human factors concerns 
are being developed by both the medical and astronaut groups and final 
recommended changes will be presented to the Medical Policy Board (MPB) 
early next year. The MPB will oversee the entire report implementation 
including the human factors issues noted.
    NASA is probing these larger human factors concerns related to open 
communication and safety climate by pursuing a multi-faceted approach 
for improving safety climate across the Agency. This approach is based 
on:

        <bullet>  Integration of safety management with programmatic 
        and engineering decision processes.

        <bullet>  Achieving technical excellence in safety and mission 
        assurance activities.

    The former is being implemented through NASA's governance model. 
The latter is being addressed by establishing the NASA Safety Center 
(NSC) to expand and strengthen the safety training element of NASA's 
safety program. Each approach is briefly discussed below:

NASA Governance Model--Over the past several years NASA has been 
defining and implementing an overall governance model that is based on: 
(1) responsible decision-making; (2) a balance of power; and, (3) the 
establishment of checks and balances. These elements and the practices 
are a direct outgrowth of the Columbia Accident Investigation Board 
findings and establish a framework for a safety culture to grow and 
thrive. These three elements permit ongoing lively discussion and 
debate to occur unfettered at all levels within the NASA organization. 
The NASA Administrator has set the overall tone for these discussions 
and debates by consistently challenging decisions and established 
policies looking for new ways to answer questions, and NASA has 
codified a formal process for dissent in NASA Procedural Requirements 
7120.513, NASA Space Flight Program and Project Management 
Requirements. The visibility and clear definition of the overall 
decision process along with the examples of these processes set at the 
highest level of the Agency in the Program Management Council and other 
top level councils establishes the benchmark for the rest of the Agency 
to follow. NASA recognizes that, even with these concepts documented 
and regularly exercised, there will be people that remain uncomfortable 
even in the most open of organizational safety climates. Some of that 
lack of comfort might be attributed to a lack of technical competency 
or standing among one's peers or from lack of confidence in the 
openness of management. As discussed in the following paragraphs, NASA 
is taking steps to increase the competence (and confidence in the 
competence) of the NASA workforce relating to safety and mission 
assurance disciplines through the Technical Excellence activities, and 
we are also developing the capability to measure the overall climate 
with respect to safety.

Achieving Technical Excellence in Safety and Mission Assurance 
Activities--NASA is committed to increase the awareness and concern for 
safety at all levels, beginning with system safety in design and 
facility operations to astronauts and flight operations. Increased 
excellence and awareness in safety are necessary ingredients for 
strengthening our safety culture. The Technical Excellence Program 
being developed at the NSC will conduct educational programs to raise 
safety awareness, disseminate safety lessons learned, and increase the 
safety emphasis of NASA management and staff. Safety engineering and 
management courses that are being planned will address not only safety 
in the operational and design environment, but also philosophy and 
doctrine that influence the various management and technical levels at 
NASA. We believe that the envisioned Technical Excellence Program will 
not only increase the safety competency of our workforce but will also 
increase management's awareness of the benefits that derive from sound 
safety management and safety engineering principles and processes being 
applied uniformly across the Agency.

Measuring and Communicating Safety Culture Using a Standard Process--
Recognizing the importance of safety culture, our Office of Safety and 
Mission Assurance (OSMA), over the past two years, has developed and 
maintained contacts with several faculty members of the Naval 
Postgraduate School (NPS) and the University of California at Berkeley 
(UCB) who have developed a web-based safety climate survey tool for the 
Naval Aviation School. Recognizing the difficulty inherent in measuring 
safety culture, this tool uses safety climate metrics as an indicator 
of cultural strengths and weaknesses. After several exchanges of 
information and views between the OSMA and the NPS/UCB faculty, it was 
decided that a proof-of-concept should be undertaken to demonstrate the 
feasibility of using a similar tool at NASA. The Goddard Space Flight 
Center (GSFC) volunteered to participate in the first pilot study just 
completed. On August 24, 2007, the preliminary results of this pilot 
project were presented to OSMA. OSMA is currently evaluating the 
results of this study and is planning to conduct a series of additional 
pilot studies. These studies will allow OSMA to incrementally arrive at 
an Agency-wide safety culture shaping and measurement process that will 
be effective for both design and operational environments at NASA. OSMA 
is also investigating whether this process will allow NASA on-site 
contractors to participate on a voluntary basis; contractor 
participation may be dependent on the specific contract. To this end, 
the following activities are being pursued by OSMA:

        <bullet>  Examine the results of the GSFC study and past safety 
        culture assessment and shaping processes performed at NASA as 
        well as in other government and non-government organizations to 
        determine best practices and analyze what practices could be 
        adapted for NASA use.

        <bullet>  Develop a safety culture. assessment and shaping 
        process, or adapt/refine a currently employed process for NASA 
        use that incorporates the applicable government and industry 
        best practices. This process will include methods to educate 
        Center leadership on the process, measure safety climate, 
        analyze the survey data, and advise NASA Headquarters and 
        Center leadership as to the results and recommended strategies 
        to strengthen safety culture.

Q2.  Deputy Administrator Dale noted during the press conference on the 
external health care review report that NASA has ``explicitly 
extended'' the T-38 policy on alcohol use to space flight.

        a.  Ms. Dale referred to it as an ``interim policy.'' Could you 
        please discuss how and when NASA will establish a final policy?

        b.  Has the T-38 policy that currently applies to space flight 
        been considered by NASA medical officials as to the medical 
        basis of the policy? If not, will medical officials be 
        consulted?

        c.  The Space Flight Safety Review identifies and makes 
        recommendations to strengthen policies related to alcohol use 
        and abuse. What are NASA's plans for making actual changes to 
        those policies?

A2a,c. Ms. Dale stated that NASA ``explicitly extended'' the T-38 
policy on alcohol to include all spacecraft. Due to the urgent nature 
of the policy clarification, NASA quickly issued this policy via an 
interim policy memorandum to all astronauts signed by the Director, 
Flight Operations Crew on July 27, 2007. (At NASA, interim policy is 
issued when there is an urgent requirement that must be quickly 
conveyed, and interim policy expires 12 months from the date of 
issuance. This allows policy developers one year to integrate the new 
policy into a formal policy directive or procedural requirement.) Prior 
to the expiration of this interim policy, NASA will refine its policies 
related to alcohol use across the Agency civil service and contractor 
work force and will codify the revised policies and procedures in 
permanent NASA directives.
    The original policy, the Johnson Space Center document Aircraft 
Operations Division (AOD) 09295: Aircraft Operations and Training 
Procedures: T-38 Operating Procedures Volume 1 documented the general 
practices that apply to the entire Flight Crew Operations Directorate 
(all astronauts), but was titled Training Procedures for the T-38. To 
prevent any confusion, on July 27, 2007, an interim policy memorandum 
was generated to extend the 12-hour bottle-to-throttle policy to the 
Space Shuttle. In addition, other efforts are underway to extend NASA's 
policy on alcohol use. NASA has formed an Agency-level team to clarify 
procedures and requirements for drug and alcohol testing of civil 
servants, contractors, and subcontractors. This team is also working to 
ensure supervisory and employee training addresses the policy, 
procedures, and requirements. The team is evaluating the best method to 
evaluate compliance with contract. This effort will include a process 
to review the status of contractor drug and alcohol-free workplace 
plans and their associated metrics to establish whether a contractor is 
compliant with existing NASA requirements. The policy, procedure, and 
training changes will be Agency-wide, ensure that NASA is compliant 
with all applicable laws, and strengthen our efforts to ensure alcohol 
use and abuse does not affect the safety of our missions. Any changes 
related to alcohol use are governed by laws; therefore NASA's new 
policies and requirements must be created and then circulated through 
Health and Human Services and the Department of Justice. NASA 
anticipates this entire process will not take more than 18-24 months 
until completion.

A2b. The T-38 policy had previously been accepted by NASA medical 
officials and will be reviewed by the Office of the Chief Health and 
Medical Officer's Medical Policy Board advisory group.


</pre></body></html>
